<html>
<title> - STATE OF AVIATION SAFETY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        STATE OF AVIATION SAFETY

=======================================================================

                                (116-28)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-561 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  
                        Subcommittee on Aviation

                     RICK LARSEN, Washington, Chair

ANDRE CARSON, Indiana                GARRET GRAVES, Louisiana
STACEY E. PLASKETT, Virgin Islands   DON YOUNG, Alaska
STEPHEN F. LYNCH, Massachusetts      DANIEL WEBSTER, Florida
ELEANOR HOLMES NORTON,               THOMAS MASSIE, Kentucky
  District of Columbia               SCOTT PERRY, Pennsylvania
DANIEL LIPINSKI, Illinois            ROB WOODALL, Georgia
STEVE COHEN, Tennessee               JOHN KATKO, New York
HENRY C. ``HANK'' JOHNSON, Jr.,      DAVID ROUZER, North Carolina
Georgia                              LLOYD SMUCKER, Pennsylvania
DINA TITUS, Nevada                   PAUL MITCHELL, Michigan
JULIA BROWNLEY, California           BRIAN J. MAST, Florida
ANTHONY G. BROWN, Maryland           MIKE GALLAGHER, Wisconsin
GREG STANTON, Arizona                BRIAN K. FITZPATRICK, Pennsylvania
COLIN Z. ALLRED, Texas               TROY BALDERSON, Ohio
JESUS G. ``CHUY'' GARCIA, Illinois   ROSS SPANO, Florida
EDDIE BERNICE JOHNSON, Texas         PETE STAUBER, Minnesota
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
SHARICE DAVIDS, Kansas, Vice Chair
ANGIE CRAIG, Minnesota
GRACE F. NAPOLITANO, California
SALUD O. CARBAJAL, California
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chair, Subcommittee on Aviation:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     9
    Prepared statement...........................................     9
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    95
Hon. Donald M. Payne, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    95

                               WITNESSES
                                Panel 1

Paul Njoroge, on behalf of the families of Ethiopian Airlines 
  flight 302, husband of Carolyne Karanja, father of Ryan 
  Njuguna, Kelli Pauls, Rubi Pauls, and son-in-law of Ann 
  Karanja, victims of flight ET302, accompanied by Michael Stumo, 
  father of Samya Stumo, victim of flight ET302:

    Oral statement...............................................    10
    Prepared statement...........................................    12

                                Panel 2

Dana Schulze, Acting Director, Office of Aviation Safety, 
  National Transportation Safety Board:

    Oral statement...............................................    23
    Prepared statement...........................................    25
Captain Joseph G. DePete, President, Air Line Pilots Association, 
  International:

    Oral statement...............................................    38
    Prepared statement...........................................    40
Lori Bassani, National President, Association of Professional 
  Flight Attendants:

    Oral statement...............................................    51
    Prepared statement...........................................    53
Michael Perrone, President, Professional Aviation Safety 
  Specialists, AFL-CIO:

    Oral statement...............................................    54
    Prepared statement...........................................    56
John Samuelsen, International President, Transport Workers of 
  America:

    Oral statement...............................................    61
    Prepared statement...........................................    63

                       SUBMISSIONS FOR THE RECORD

Letter from Sara Nelson, International President, Association of 
  Flight Attendants--CWA, AFL-CIO, Submitted for the Record by 
  Hon. Larsen....................................................    70

                                APPENDIX

Questions from Hon. Eddie Bernice Johnson for Dana Schulze, 
  Acting Director, Office of Aviation Safety, National 
  Transportation Safety Board....................................    97
Questions from Hon. Garret Graves for Dana Schulze, Acting 
  Director, Office of Aviation Safety, National Transportation 
  Safety Board...................................................    97
Questions from Hon. Eddie Bernice Johnson for Captain Joseph G. 
  DePete, President, Air Line Pilots Association, International..   100
Questions from Hon. Garret Graves for Captain Joseph G. DePete, 
  President, Air Line Pilots Association, International..........   100
Questions from Hon. Eddie Bernice Johnson for Lori Bassani, 
  National President, Association of Professional Flight 
  Attendants.....................................................   101
Questions from Hon. Eddie Bernice Johnson for Michael Perrone, 
  President, Professional Aviation Safety Specialists, AFL-CIO...   102
Questions from Hon. Eddie Bernice Johnson for John Samuelsen, 
  International President, Transport Workers of America..........   102
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             July 12, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Aviation
    FROM:   Staff, Subcommittee on Aviation
    RE:       Subcommittee Hearing on ``State of Aviation 
Safety''

                                PURPOSE

    The Subcommittee on Aviation will meet on Wednesday, July 
17, 2019, at 10:00 a.m. in Room 2167 of the Rayburn House 
Office Building for a hearing on aviation safety. The hearing 
will gather government and stakeholder perspectives on the 
state of aviation safety, including identifying current 
challenges facing the aviation system and actions needed to 
maintain and ensure the safety of the traveling public. The 
Subcommittee will first hear testimony from Paul Njoroge, who 
lost five family members in the Ethiopian Airlines Flight 302 
accident this year. Mr. Njoroge will be accompanied by Michael 
Stumo, who lost his child in the same accident. The 
Subcommittee will then hear testimony from the National 
Transportation Safety Board (NTSB), Air Line Pilots Association 
(ALPA), Association of Professional Flight Attendants (APFA), 
Professional Aviation Safety Specialists (PASS), and Transport 
Workers Union (TWU).

                               BACKGROUND

    Each year, more than 800 million people fly safely on U.S. 
air carriers.\1\ While the risk of a fatal commercial aviation 
accident in the United States has fallen by 95 percent since 
1997, serious aviation accidents \2\ and incidents \3\ still 
occur regularly in the United States and abroad.\4\ According 
to preliminary NTSB data, there were 219 fatal aviation 
accidents (365 fatalities and 269 serious injuries) in the 
United States in 2018, involving U.S.-chartered flights, 
business jets, general aviation airplanes, balloons, gliders, 
and helicopters. And in the span of five months, 346 lives were 
tragically lost abroad in the Lion Air Flight 610 and Ethiopian 
Airlines Flight 302 accidents alone, both involving U.S.-
manufactured aircraft. In total, according to preliminary data, 
the NTSB has investigated more than 700 aviation accidents that 
have occurred in the United States involving U.S.-registered or 
public use aircraft since the Lion Air accident in October 
2018. The Federal Government and U.S. aviation industry must 
remain steadfast in ensuring the highest level of aviation 
safety and strive for zero deaths in air transportation.
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Transp. Statistics, ``Passengers,'' https://
www.transtats.bts.gov/Data_Elements.aspx?Data=1.
    \2\ The NTSB defines an ``accident'' as ``an occurrence associated 
with the operation of an aircraft that takes place between the time any 
person boards the aircraft with the intention of flight and all such 
persons have disembarked, and in which any person suffers death or 
serious injury, or in which the aircraft receives substantial damage.'' 
49 C.F.R. Sec.  830.2.
    \3\ The NTSB defines an ``incident'' as ``an occurrence other than 
an accident that affects or could affect the safety of operations.'' 
Id.
    \4\ There has been one domestic airline passenger fatality in the 
United States in the past decade. On April 17, 2018, Southwest Airlines 
Flight 1380 experienced an uncontained engine failure, resulting in 
loss of an engine inlet and cowling. Engine fragments struck the 
airplane's fuselage and damaged a cabin window, killing one passenger 
onboard. Prior to that, the last fatal domestic airline accident 
occurred in February 2009, when Colgan Air Flight 3407 crashed near 
Buffalo, New York, killing all 49 onboard and one person on the ground.
---------------------------------------------------------------------------

                             RECENT EVENTS

    The NTSB--an independent Federal agency charged with 
investigating civil aviation accidents in the United States and 
recommending safety improvements--is investigating or assisting 
in the investigation of recent aviation accidents listed below. 
This list is non-exhaustive, capturing only select accidents 
occurring within the past nine months. The list does not 
include other general aviation accidents or serious incidents 
the NTSB is investigating or otherwise monitoring.

I. LION AIR FLIGHT 610 AND ETHIOPIAN AIRLINES FLIGHT 302

    In the span of five months, there were two fatal commercial 
airline accidents involving U.S.-designed and manufactured 
Boeing 737 MAX aircraft operated by foreign air carriers 
outside the United States.
    On October 29, 2018, Lion Air Flight 610 (JT610)--a Boeing 
737 MAX--en route to Pangkal Pinang from Jakarta, crashed 
approximately 11 minutes after takeoff into the Java Sea at 450 
miles per hour, killing all 189 on board (184 passengers and 5 
crew members). The Indonesian government's final accident 
report, which will include a determination of the probable 
cause(s) of the accident, is expected later this year. The NTSB 
is assisting with this investigation and will have the 
opportunity to review and comment on the draft final report. 
The Indonesian government will either amend the draft final 
report to include the substance of the comments received or, if 
requested by the United States, append the comments to the 
final report.\5\
---------------------------------------------------------------------------
    \5\ See International Standards and Recommended Practices, Annex 13 
to the Convention on International Civil Aviation, Aircraft Accident 
and Incident Investigation, Chapter 6.3, available at https://
www.emsa.europa.eu/retro/Docs/marine_casualties/annex_13.pdf. See also 
ICAO, Aircraft Accident Reporting Resources for Media (Jan. 16, 2017), 
https://www.icao.int/Newsroom/Documents/ICAO-Fact-Sheet_Accident-
Investigation_2017-01.pdf.
---------------------------------------------------------------------------
    On March 10, 2019, Ethiopian Airlines Flight 302 (ET302)--a 
Boeing 737 MAX--en route from Bole International Airport in 
Addis Ababa, Ethiopia, to Nairobi, Kenya, crashed approximately 
six minutes after takeoff. The accident resulted in the death 
of all 157 people on board (149 passengers and 8 crew members). 
The Ethiopian government's final report detailing its 
determination of probable cause(s) of the accident is expected 
later this year. The NTSB is also assisting with this 
investigation and will enjoy the same comment process as for 
the Indonesian government's report described above.
    Immediately following the March 10, 2019, accident, foreign 
civil aviation authorities began grounding the Boeing 737 MAX 
planes. On March 13, two days later, and after receiving 
detailed air traffic data and additional evidence from the 
scene of the accident, the FAA ordered a temporary grounding of 
the fleet operated by U.S. airlines or in U.S. territory. The 
Boeing 737 MAX remains grounded today.

II. OTHER NTSB INVESTIGATIONS INITIATED SINCE OCTOBER 2018

    <bullet>  February 23, 2019, in Trinity Bay, TX: Boeing 
767-375ER operating as Atlas Air 3591 from Miami to Houston 
crashed near Houston airport, killing all three aboard.\6\
---------------------------------------------------------------------------
    \6\ See NTSB Aviation Accident Preliminary Report, DCA19MA086, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190223X60222&AKey=
1&RType=Prelim &IType=MA.
---------------------------------------------------------------------------
    <bullet>  March 4, 2019, in Presque Isle, ME: Embraer EMB-
145XR operating as CommutAir Flight 4933 (dba as United 
Express) from Newark to Presque Isle landed between runway 1 
and taxiway A. This was the second approach to runway 1 after 
having conducted a missed approach during the first approach. 
Radar track data show that the airplane was aligned right of 
runway 1 during both approaches. Of the 31 passengers and crew 
onboard, there were three minor injuries. The airplane was 
substantially damaged.\7\
---------------------------------------------------------------------------
    \7\ See NTSB Aviation Accident Preliminary Report, DCA19FA089, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190304X65511&AKey=
1&RType=Prelim &IType=FA.
---------------------------------------------------------------------------
    <bullet>  April 29, 2019, in Kailua, Hawaii: Robinson R-44 
Helicopter crashed into a residential neighborhood, killing all 
three aboard.\8\
---------------------------------------------------------------------------
    \8\ See NTSB Aviation Accident Preliminary Report, WPR19FA123, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190429X61624&AKey=
1&RType=Prelim &IType=FA.
---------------------------------------------------------------------------
    <bullet>  May 5, 2019, in Northern Mexico: Bombardier 
Challenger 601 jet flying from Las Vegas to Monterrey, Mexico, 
with three crew members and ten passengers crashed in northern 
Mexico. No survivors were found. The NTSB is assisting foreign 
authorities.\9\
---------------------------------------------------------------------------
    \9\ See NTSB Identification: CEN19WA137, available at https://
www.ntsb.gov/_layouts/ntsb.aviation/
brief2.aspx?ev_id=20190506X61405&ntsbno=CEN19WA137&akey=1.
---------------------------------------------------------------------------
    <bullet>  May 13, 2019, in Ketchikan, Alaska: Havilland 
DHC-2 Beaver and a float-equipped de Havilland DHC-3 Turbine 
Otter collided in mid-air. Both were operating for-hire, with 
six fatalities, nine serious injuries, and one sustaining minor 
injuries.\10\
---------------------------------------------------------------------------
    \10\ See NTSB Aviation Accident Preliminary Report, CEN19MA141A, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190514X70427&AKey=
1&RType=Prelim &IType=MA.
---------------------------------------------------------------------------
    <bullet>  May 20, 2019, in Metlakatla, Alaska: Float-
equipped de Havilland DHC-2 overturned and partially sank upon 
landing, killing both aboard.\11\
---------------------------------------------------------------------------
    \11\ See NTSB Aviation Accident Preliminary Report, ANC19FA019, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190520X14645&AKey=
1&RType=Prelim &IType=FA.
---------------------------------------------------------------------------
    <bullet>  June 10, 2019, in New York City: Agusta A109E 
Helicopter departed from East 34th Street Heliport to Linden, 
NJ, and crashed into the roof of a skyscraper in midtown 
Manhattan. Pilot was fatally injured.\12\
---------------------------------------------------------------------------
    \12\ See NTSB Aviation Accident Preliminary Report, ERA19FA191, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190610X53445&AKey=
1&RType=Prelim &IType=FA.
---------------------------------------------------------------------------
    <bullet>  June 21, 2019, in Mokuleia, Hawaii: Beechcraft 
King Air A90 crashed shortly after takeoff in Oahu, Hawaii, 
killing all 11 aboard.\13\
---------------------------------------------------------------------------
    \13\ See NTSB Aviation Accident Preliminary Report, WPR19MA177, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190622X23034&AKey=
1&RType=Prelim &IType=MA.
---------------------------------------------------------------------------
    <bullet>  June 30, 2019, in Addison, TX: Beechcraft Super 
King Air 350 (Addison to St. Petersburg) crashed into an 
airplane hangar, killing all 10 people aboard.\14\
---------------------------------------------------------------------------
    \14\ See NTSB Aviation Accident Preliminary Report, CEN19MA190, 
available at https://app.ntsb.gov/pdfgenerator/
ReportGeneratorFile.ashx?EventID=20190630X33829&AKey=
1&RType=Prelim &IType=MA.
---------------------------------------------------------------------------
    <bullet>  July 4, 2019, in Walker Cay, Bahamas: Agusta SPA 
AW139 Helicopter crashed, killing all seven aboard, all of 
which have been recovered to the Bahamas. The Air Accident 
Investigation Department of the Bahamas has requested the NTSB 
lead the investigation.\15\
---------------------------------------------------------------------------
    \15\ See Wash. Post, NTSB Takes Over Investigation of Bahamas 
Helicopter Crash, July 8, 2019, https://www.washingtonpost.com/
national/ntsb-takes-over-investigation-of-bahamas-helicopter-crash/
2019/07/08/f693b94e-a1c2-11e9-a767-d7ab84aef3e9_story.html?utm_term=
.d25f55aba44f.
---------------------------------------------------------------------------

                         AVIATION SAFETY ISSUES

    In addition to the accidents and safety incidents occurring 
in U.S. aviation over the past year, below are descriptions of 
several aviation safety issues being monitored by the 
Subcommittee on Aviation. Congress addressed some of these 
issues in the FAA Reauthorization Act of 2018 (Pub. L. 115-
254), signed into law on October 5, 2018. See APPENDIX 1 for a 
list of several safety provisions included in the 2018 law.

I. CABIN EVACUATIONS

    The Federal Aviation Regulations require that the design of 
part 125 aircraft, by virtue of the locations and types of 
emergency exits, must permit all passengers to evacuate the 
aircraft within 90 seconds with half the exits blocked.\16\ 
Aircraft manufacturers such as Boeing and Airbus are 
responsible for demonstrating to the FAA's satisfaction that 
each new aircraft design meets this standard. These 
manufacturers and global aviation safety regulators, including 
the FAA and European Union Aviation Safety Agency, often rely 
on computer analysis, rather than live evacuation drills, to 
demonstrate compliance.
---------------------------------------------------------------------------
    \16\ See 14 C.F.R. Sec. Sec.  25.803, 25.807; 14 C.F.R. part 25, 
app'x. J.
---------------------------------------------------------------------------
    Recent accidents have raised questions about whether all 
passengers can, in fact, evacuate an airliner in 90 seconds, 
given passenger behavioral shifts over the last decade and 
failure to comply with evacuation instructions. For example, 
the NTSB concluded that it took at least 2 minutes and 21 
seconds--51 seconds longer than the FAA assumes--for 161 
passengers to evacuate a lightly-loaded American Airlines 767-
300ER after an uncontained engine failure and fire at Chicago 
O'Hare in 2016.\17\ In its January 2018 report on that 
accident, the NTSB concluded that ``evidence of passengers 
retrieving carry-on baggage during this and other recent 
emergency evacuations demonstrates that previous FAA actions to 
mitigate this potential safety hazard have not been 
effective.'' \18\
---------------------------------------------------------------------------
    \17\ NTSB/AAR-18/01, Uncontained Engine Failure and Subsequent 
Fire, American Airlines Flight 383, Boeing 767-323, N345AN, Chicago, 
Illinois, October 28, 2016, at 27 (2018).
    \18\ Id. at 66. The Board found that ``some passengers evacuated 
from all three usable exits with carry-on baggage. In one case, a 
flight attendant tried to take a bag away from a passenger who did not 
follow the instruction to evacuate without baggage, but the flight 
attendant realized that the struggle over the bag was prolonging the 
evacuation and allowed the passenger to take the bag. In another case, 
a passenger came to the left overwing exit with a bag and evacuated 
with it despite being instructed to leave the bag behind.'' Id. at 65. 
The Board recommended that ``the FAA conduct research to (1) measure 
and evaluate the effects of carry-on baggage on passenger deplaning 
times and safety during an emergency evacuation and (2) identify 
effective countermeasures to reduce any determined risks, and implement 
the countermeasures.'' Id. at 66.
---------------------------------------------------------------------------
    In addition to passengers' apparent propensity to evacuate 
with their carry-on bags and film evacuation efforts, smaller 
seat sizes in newly manufactured or refurbished aircraft may 
affect cabin evacuation times. The FAA has not regulated seat 
dimensions, having traditionally asserted that it is 
responsible for regulating safety, not comfort, imposing 
``minimum standards required in the interest of safety.'' \19\
---------------------------------------------------------------------------
    \19\ 49 U.S.C. Sec.  44701(a)(1).
---------------------------------------------------------------------------
    The FAA Reauthorization Act of 2018 requires the FAA to 
review its aircraft cabin evacuation certification and report 
to Congress with results and any recommendations for revisions 
to the agency's assumptions and methods for assessing 
evacuation certification.\20\ In addition, the law requires the 
FAA to issue regulations establishing minimum dimensions for 
passenger seats necessary for the safety of passengers.\21\
---------------------------------------------------------------------------
    \20\ Pub. L. No. 115-254, Sec.  337 (2018).
    \21\ Id. Sec.  577.
---------------------------------------------------------------------------

II. RUNWAY SAFETY

    In multiple incidents in the span of six months, airliners 
either landed or almost landed on taxiways or incorrect 
runways. On July 7, 2017, an Air Canada flight crew lined up 
with a crowded taxiway instead of the landing runway at San 
Francisco International Airport and performed a go-around less 
than 100 feet above the ground, narrowly missing the tail of a 
Boeing 787 loaded with passengers and awaiting takeoff. On 
November 29, 2017, a Delta Air Lines flight on approach to the 
Hartsfield-Jackson Atlanta International Airport in poor 
visibility also lined up with a taxiway instead of the landing 
runway and performed a missed approach at low altitude. And on 
December 29, 2017, a Horizon Air flight on approach at night to 
the Pullman, Washington, airport actually landed on the taxiway 
instead of the runway.
    The FAA Reauthorization Act of 2018 requires the FAA to 
report to Congress on improving runway safety, which will 
include a review of systems capable of detecting wrong surface 
alignment and an assessment of technologies that could be used 
at airports to provide a direct warning to flight crews or air 
traffic controllers of potential runway incursions.\22\
---------------------------------------------------------------------------
    \22\ Id. Sec.  334.
---------------------------------------------------------------------------

III. LITHIUM BATTERIES

    Lithium batteries transported as cargo pose special risks 
to the safety of flight. When ignited, either through self-
induced thermal runaway within a single cell or by an 
independent source, they burn at extremely high temperatures, 
and in some cases, traditional fire suppressants cannot 
extinguish the ensuing fire. FAA testing in 2015 established 
that if ignited, just eight lithium-ion batteries at 50 percent 
charge in the cargo hold of a passenger airplane can and likely 
will bring down the aircraft. Moreover, in a joint submission 
to the International Civil Aviation Organization (ICAO) 
Dangerous Goods Panel in April 2015, the world's largest 
airframe manufacturers cautioned that ``continuing to allow the 
carriage of lithium batteries within today's transport category 
aircraft cargo compartments is an unacceptable risk to the air 
transport industry.'' \23\
---------------------------------------------------------------------------
    \23\ Int'l Coordination Council for Aerospace Industries Ass'ns, 
Working Paper on Transport of Lithium Batteries as Cargo by Air, DGP-
WG/15-WP/4 (2015) (presented before the ICAO Dangerous Goods Panel).
---------------------------------------------------------------------------
    Recognizing the safety hazards associated with lithium 
battery shipments, ICAO member states voted to ban bulk 
shipments of lithium batteries from the cargo holds of 
passenger jets in 2016 until safety regulators and airframe 
manufacturers can understand more about preventing and 
containing lithium-fed fires. ICAO member states are also 
considering whether to ban portable electronic devices (PEDs) 
in checked baggage, because lithium batteries in those devices 
could catch fire and burn undetected. A U.S. submission in 
October 2017 to the ICAO Dangerous Goods Panel stated that FAA 
testing ``indicates that large PEDs in checked baggage mixed 
with an aerosol can produce an explosion and fire that the 
aircraft cargo fire suppression system . . . may not be able to 
safely manage,'' leading to ``the loss of the aircraft.'' \24\ 
The Panel was unable to reach consensus and now is waiting for 
further direction from the ICAO Council.
---------------------------------------------------------------------------
    \24\ Angela Stubblefield (FAA), Portable Electronic Devices Carried 
by Passengers and Crew (Oct. 27, 2017), available at https://
www.icao.int/safety/DangerousGoods/DGP26/DGP.26.WP.043.2.en.pdf.
---------------------------------------------------------------------------
    Some have expressed concern that ICAO standards have not 
kept pace with our growing knowledge of the safety hazards of 
bulk shipments of lithium batteries in aircraft. The 2012 FAA 
reauthorization act included a prohibition on any U.S. 
rulemaking in excess of ICAO standards unless an accident has 
occurred, where there is credible reporting that batteries were 
present, not packed and transported in accordance with ICAO 
technical instructions, and substantially contributed to the 
initiation or propagation of onboard fire.\25\
---------------------------------------------------------------------------
    \25\ FAA Modernization and Reform Act of 2012, Pub. L. No. 112-95, 
Sec.  828 (2012). In 2010, UPS Flight 006, a Boeing 747-400F with a 
cargo of lithium batteries, crashed in Dubai after an in-flight fire 
propagated so quickly and generated such dense smoke that one pilot was 
incapacitated and the other lost the ability to see flight instruments 
and maintain controlled flight while maneuvering for an emergency 
landing. In 2011, Asiana Cargo Flight 991, also a Boeing 747-400F with 
a cargo of lithium batteries, crashed in the Korea Strait after the 
crew reported an in-flight fire.
---------------------------------------------------------------------------
    While the FAA Reauthorization Act of 2018 did not address 
the 2012 prohibition on U.S. rulemaking, the law requires the 
FAA to conform U.S. regulations on the air transport of lithium 
batteries with 2016 ICAO standards, banning them as cargo on 
passenger aircraft.\26\ The FAA Reauthorization Act of 2018 
also directs the Secretary of Transportation to establish a 
lithium battery safety working group to promote efforts related 
to the promotion of the safe manufacture, use, and 
transportation of lithium batteries and cells, in addition to a 
lithium ion and lithium metal battery safety advisory committee 
to facilitate communication between manufacturers, air 
carriers, the Federal Government, and others regarding the safe 
air transportation of lithium ion and lithium metal cells and 
batteries and provide the Secretary with timely information 
about new lithium metal battery technology and transportation 
safety practices and methodologies.\27\
---------------------------------------------------------------------------
    \26\ Pub. L. No. 115-254, Sec.  333.
    \27\ Id.
---------------------------------------------------------------------------

IV. FLIGHT CREW REST

A. Cargo Pilots

    In 2012, the FAA finalized a long-delayed rule to 
strengthen restrictions on the amount of time airline pilots 
can spend at the controls and on duty.\28\ The rule was one of 
several required under the Airline Safety and Federal Aviation 
Administration Extension Act of 2010 (Pub. L. 111-216), enacted 
in response to the Colgan Flight 3407 accident. Notably, at the 
end of a lengthy rulemaking process, the FAA determined that 
the 2012 fatigue rule would apply only to pilots in all-
passenger operations and not to pilots at all-cargo carriers 
such as FedEx and UPS. Although the FAA initially proposed to 
apply the same flight and duty time limits to all airline 
pilots, the FAA and the Office of Management and Budget 
concluded after analysis that the costs of applying the new 
limits to all-cargo pilots would inordinately exceed the 
benefits.
---------------------------------------------------------------------------
    \28\ 77 Fed. Reg. 330 (Jan. 4, 2012).

---------------------------------------------------------------------------
B. Flight Attendants

    While pilots for U.S. commercial airlines must be provided 
a rest period of at least 10 consecutive hours preceding a 
flight duty period,\29\ the same is not true for flight 
attendants, despite their important safety duties. The first 
rule for flight attendant duty period limitations and rest 
requirements was promulgated in 1994 \30\ and has not been 
updated since. This rule allows a flight attendant to remain on 
duty for 14 hours with only an eight-hour break between 
flights.
---------------------------------------------------------------------------
    \29\ See 14 C.F.R. part 117.
    \30\ 59 Fed. Reg. 42974 (Aug. 19, 1994). See also 60 Fed. Reg. 
52625 (Oct. 10, 1995) (detailing the date of compliance with respect to 
the duty limitations and rest requirements in the 1994 final rule).
---------------------------------------------------------------------------
    The FAA Reauthorization Act of 2018 requires a 10-hour 
minimum rest period for flight attendants between duty periods, 
establishing parity with pilots. The provision also requires 
airlines to adopt and submit to the FAA for acceptance fatigue 
risk management plans, similar to those adopted for pilots, to 
reduce the incidence of fatigue among flight attendants.\31\
---------------------------------------------------------------------------
    \31\ Pub. L. No. 115-254, Sec.  335.
---------------------------------------------------------------------------

V. AIRCRAFT CERTIFICATION

    All aircraft and aviation products are subject to FAA 
certification prior to their sale and use in the United States. 
The FAA is responsible for regulating aviation safety, which 
includes approving the U.S. design and manufacture of new 
aircraft and aviation products before they enter service.\32\
---------------------------------------------------------------------------
    \32\ See 49 U.S.C. Sec. Sec.  44702, 44704; GAO, Aviation 
Manufacturing: Status of FAA's Efforts to Improve Certification and 
Regulatory Consistency (July 31, 2014), GAO-14-829T, at 1.
---------------------------------------------------------------------------
    Since even before the FAA was formed over 60 years ago, the 
Federal Government has delegated some safety certification 
responsibilities to technical experts in the industry. As 
airplanes, engines, and their constituent systems became 
increasingly complex, Congress authorized the FAA to leverage 
the product-specific knowledge among appropriately-qualified 
employees of manufacturers to determine a new product's 
compliance with the applicable provisions of the Federal 
Aviation Regulations. A designee may receive authority to 
examine, inspect, and test aircraft and persons for the purpose 
of issuing certificates.\33\
---------------------------------------------------------------------------
    \33\ GAO-14-829T at 4.
---------------------------------------------------------------------------
    The delegation program allows the FAA to leverage limited 
resources to focus on the areas of highest-risk and make timely 
certification decisions. According to the Government 
Accountability Office (GAO), in terms of the breadth or scope, 
FAA designees are able perform more than 90 percent of FAA's 
certification activities.\34\ However, the FAA has the ultimate 
responsibility to oversee delegated activities and to certify 
aircraft.
---------------------------------------------------------------------------
    \34\ GAO, Aviation Safety: FAA Efforts Have Improved Safety, but 
Challenges Remain in Key Areas (Apr. 16, 2013), GAO-13-442T, at 3-4. In 
a May 7, 2019, email to Committee staff, the GAO clarified that the 90 
percent number refers to the breadth or scope of FAA activities on 
which designees can do rather than the amount of certification work 
done by designees.
---------------------------------------------------------------------------
    Following the Lion Air and Ethiopian Airlines accidents 
described above, significant Congressional and public attention 
has been placed on the FAA's certification and delegation 
processes, including whether the agency is performing 
sufficient oversight over these processes. The FAA 
Reauthorization Act of 2018 included multiple provisions aimed 
at improving these areas.
    For example, the FAA Reauthorization Act of 2018 
establishes the Safety Oversight and Certification Advisory 
Committee (SOCAC) comprised of various aviation stakeholders to 
provide advice and recommendations to the Secretary of 
Transportation on ways to improve the FAA's certification and 
oversight processes; \35\ an expert review panel to assess 
these activities; \36\ and a safety workforce training strategy 
to ensure appropriate workforce training, identify a systems 
safety approach to oversight, and foster an experienced and 
knowledgeable inspector and engineer workforce, among other 
things.\37\
---------------------------------------------------------------------------
    \35\ Pub. L. No. 115-254, Sec.  202.
    \36\ Id. Sec.  213.
    \37\ Id. Sec.  231.
---------------------------------------------------------------------------

VI. FOREIGN REPAIR STATIONS

    In several reports since 2003, and most recently in 2015, 
the Department of Transportation (DOT) Inspector General (IG) 
has identified weaknesses in the FAA's oversight of FAA-
certificated overseas repair stations where mechanics work on 
U.S. air carriers' fleets.\38\ Specifically, ``[r]epair 
stations conduct a range of repairs and maintenance, from 
critical components--such as landing gear and engine 
overhauls--to heavy airframe checks, which involve a complete 
teardown and overhaul of the aircraft.'' \39\
---------------------------------------------------------------------------
    \38\ See Dep't of Transp. Office of Inspector General, FAA Has Not 
Effectively Implemented Repair Station Oversight in the European Union, 
Rpt. No. AV-2015-066 (2015); Dep't of Transp. Office of Inspector 
General, FAA Continues to Face Challenges in Implementing a Risk-Based 
Approach for Repair Station Oversight, Rpt. No. AV-2013-073 (2013); 
Dep't of Transp. Office of Inspector General, Air Carriers' Outsourcing 
of Aircraft Maintenance, Rpt. No. AV-2008-090 (2008); Dep't of Transp. 
Office of Inspector General, Review of Air Carriers' Use of Aircraft 
Repair Stations, Rpt. No. AV-2003-047 (2003).
    \39\ Rpt. No. AV-2013-073 (2013), at 1 n.2.
---------------------------------------------------------------------------
    Airlines' spending on contract maintenance and repair 
services nearly tripled between 1996 and 2011, the DOT IG 
reported, rising from $1.5 billion in 1996 to $4.2 billion in 
2011.\40\ Today, ``[i]t is estimated that nearly 50 percent by 
dollar volume of maintenance work done by operators of U.S. 
registered aircraft is done in . . . FAA certified repair 
facilities located outside'' the United States, according to 
one association.\41\ The DOT IG found in 2013 that the FAA's 
repair station oversight ``lacks the rigor needed to identify 
deficiencies and verify that they have been addressed.'' \42\ 
The DOT IG concluded that ``[u]ncorrected maintenance 
deficiencies such as these could lead to the use of improperly 
repaired aircraft parts on U.S. air carriers'' and that ``some 
repair stations may not be operating in full compliance with 
Federal aviation regulations.'' \43\
---------------------------------------------------------------------------
    \40\ Id. at 1.
    \41\ Transport Workers Union, Risks Associated with Foreign Repair 
Stations, May 21, 2018, available at https://www.twu.org/wp-content/
uploads/2018/05/Risks-Associated-with-Foreign-Repair-Stations.pdf.
    \42\ Rpt. No. AV-2013-073 (2013), at 2-3.
    \43\ Id. at 3.
---------------------------------------------------------------------------
    The FAA reauthorization acts in 2012 and 2016, through 
several provisions, addressed the FAA's foreign repair station 
oversight. For example, in 2012, Congress directed that 
employees who perform safety-sensitive functions at foreign 
repair stations be subject to a level of screening for drug and 
alcohol use equivalent to the screening required in the United 
States and consistent with the applicable laws of the country 
in which the repair station is located.\44\ While the FAA 
published in 2014 an advance notice of proposed rulemaking on 
this subject,\45\ the agency has taken no further action to 
date. In addition, in 2016, Congress required the FAA to ensure 
that each foreign repair station worker who performs safety-
sensitive work has undergone a pre-employment background 
investigation sufficient to determine that the individual is 
not a threat to aviation safety.\46\ The FAA has not yet 
implemented this mandate either.
---------------------------------------------------------------------------
    \44\ Pub. L. No. 112-95, Sec.  308 (2012) (codifying 49 U.S.C. 
Sec.  44733).
    \45\ 79 Fed. Reg. 14621 (Mar. 17, 2014).
    \46\ FAA Extension, Safety, and Security Act of 2016, Pub. L. No. 
114-190, Sec.  2112(c).
---------------------------------------------------------------------------

VII. INTEGRATION OF NEW ENTRANTS

A. Commercial Space

    Commercial space transportation--the use of orbital and 
suborbital vehicles owned and operated by private companies or 
other non-Federal organizations \47\--moves objects such as 
satellites and cargo, scientific payloads, and passengers to, 
from, and in space.\48\ The FAA's Office of Commercial Space 
Transportation (AST) is the office responsible for regulating 
the launch and reentry components of the U.S. commercial space 
transportation industry.
---------------------------------------------------------------------------
    \47\ FAA, Office of Commercial Space Transportation, Commercial 
Space Transportation Industry,https://www.faa.gov/about/office_org/
headquarters_offices/ast/industry/.
    \48\ FAA, The Economic Impact of Commercial Space Transportation on 
the U.S. Economy in 2009 at 8 (Sept. 2010).
---------------------------------------------------------------------------
    In addition to regulating this industry to protect public 
health and safety, safety of property, and national security 
and foreign policy interests of the United States, the FAA is 
also required to encourage, facilitate, and promote the 
industry. The FAA operated under a similar ``dual mandate'' 
with respect to civil aviation from its inception in 1958 until 
1996, when investigations of the ValuJet Flight 592 and Trans 
World Airlines Flight 800 accidents prompted Congress to 
eliminate the FAA's statutory duty to ``promote'' as well as 
regulate the civil aviation industry.
    The FAA's responsibility for protecting people and property 
on the ground and in U.S. airspace is critical. An accident 
involving a spacecraft during launch or reentry can present a 
serious risk to people on the ground. An example is the 
wreckage of the Space Shuttle Columbia, which broke apart 
during reentry on February 1, 2003. Parts of the shuttle were 
scattered through East Texas, Louisiana, and Arkansas, with one 
piece of wreckage--an 800-pound main engine piece--hitting the 
ground at nearly 1,400 miles per hour, and another 600-pound 
engine component impacting the ground with enough force to 
create a six-foot crater.
    To ensure public safety, the FAA accommodates commercial 
space transportation launches and reentries by establishing 
aircraft hazard areas across wide swaths of airspace. These 
hazard areas generally preclude operations by aircraft for 
several hours surrounding a launch window, which can result in 
flight delays and ground stops. As launch cadences increase, 
disruptions to NAS operations will become more frequent and 
potentially more severe. The FAA is working with the aviation 
and commercial space transportation communities to better 
integrate, rather than accommodate, commercial space launches 
into the normal operation of the NAS. With new technologies and 
improved understanding of commercial space transportation 
launch vehicle performance, the size and duration of hazard 
areas can be reduced while maintaining and improving aviation 
safety.
B. Unmanned Aircraft

    Unmanned aircraft systems (UAS), or drones, can be small 
and lightweight, inexpensive, easy to operate, and equipped 
with various technologies, such as cameras and infrared or 
thermal sensors, that unlock a virtually unlimited number of 
applications. While UAS have a large economic and social 
impact, they can also pose a risk to the safety of the NAS. The 
FAA receives more than 100 UAS sighting reports each month,\49\ 
although reports cannot all be verified.\50\ The volume of 
reported sightings still reflects the continuing risk of 
collision between UAS and manned aircraft near airports, 
critical infrastructure, and over populated areas. While there 
have been collisions between UAS and manned aircraft,\51\ no 
resulting fatalities or injuries have been reported in the 
United States.
---------------------------------------------------------------------------
    \49\ FAA, UAS Sightings Report, https://www.faa.gov/uas/resources/
public_records/uas_sightings_report/.
    \50\ See GAO, Small Unmanned Aircraft Systems, FAA Should Improve 
Its Management of Safety Risks, GAO-18-110 (May 2018). The FAA informed 
the GAO that it does not attempt to validate all UAS reports received 
and that some of the reports may have in fact involved authorized UAS 
operating in a safe manner.
    \51\ For example, in 2017, a UAS collided with and damaged a U.S. 
Army UH-60 Black Hawk helicopter near Staten Island, New York, and 
another UAS struck a commercial plane with eight passengers onboard as 
it approached Jean Lesage International Airport in Quebec City, Canada.
---------------------------------------------------------------------------
    A collision between a UAS and manned aircraft could be 
catastrophic. In 2017, the FAA's Center of Excellence for UAS 
Research, ASSURE, released the results of its first phase of 
research evaluating the severity of the risk of collisions 
between UAS and manned aircraft. The initial findings--based on 
a collision between a small UAS and airframe parts only--showed 
that a conventional aircraft's collision with even a small UAS 
could result in severe damage to aircraft structures. The 
structural damage would be greater than that caused by a bird 
strike of an equivalent impact energy level.\52\
---------------------------------------------------------------------------
    \52\ See ASSURE, UAS Airborne Collision Severity Evaluation Final 
Report (Nov. 2017), available at http://assureuas.org/projects/
deliverables/sUASAirborneCollisionReport.php.
---------------------------------------------------------------------------
    The FAA Reauthorization Act of 2018 contained multiple 
provisions aimed at reducing the safety risks that UAS can pose 
to the NAS and its users.\53\ Most notably, the law establishes 
a statutory framework for the regulation of model aircraft 
flown for hobby or recreational purposes, including requiring 
operators of these UAS to pass an aeronautical knowledge and 
safety test and seek FAA authorization before flying in 
controlled airspace (e.g., near airports). The framework 
further allows the FAA to issue any requirement on these 
operators necessary to ensure the safety and security of U.S. 
airspace, which includes mandating their UAS be equipped with 
specific technologies that allow for electronic identification 
and tracking of the operator.\54\
---------------------------------------------------------------------------
    \53\ See, e.g., Pub. L. No. 115-254, Sec.  345 (establishing a 
process for the FAA to accept risk-based consensus safety standards for 
the design and production of UAS); Sec.  335 (authorizing funding for 
the FAA's ``Know Before You Fly'' educational campaign to broaden UAS 
safety awareness); Sec.  363 (prohibiting UAS from being armed or 
equipped with dangerous weapons); Sec.  382 (creating a criminal 
penalty for UAS interference with wildfire suppression or emergency 
response efforts); Sec.  384 (creating a criminal penalty for UAS 
interference with aircraft carrying one or more occupants).
    \54\ See id. Sec.  349.
---------------------------------------------------------------------------

                               WITNESSES

PANEL 1

    <bullet>  Mr. Paul Njoroge, on behalf of the Families of 
Ethiopian Airlines Flight 302, Husband of Carolyne Karanja, 
Father of Ryan Njuguna, Kelli Pauls, Rubi Pauls, and Son-in-Law 
of Anne Karanja, Victims of Flight ET302
      <bullet>  Accompanied by Mr. Michael Stumo, Father of 
Samya Stumo, Victim of Flight ET302

PANEL 2

    <bullet>  Ms. Dana Schulze, Acting Director, Office of 
Aviation Safety, National Transportation Safety Board
    <bullet>  Capt. Joe DePete, President, Air Line Pilots 
Association, International
    <bullet>  Ms. Lori Bassani, National President, The 
Association of Professional Flight Attendants
    <bullet>  Mr. Mike Perrone, National President, 
Professional Aviation Safety Specialists
    <bullet>  Mr. John Samuelsen, International President, 
Transport Workers Union

                              APPENDIX 1.

   Summary of Select Aviation Safety Provisions Included in the FAA 
             Reauthorization Act of 2018 (Pub. L. 115-254).

               Title II--FAA Safety Certification Reform

<bullet>  Sec. 202--Safety Oversight and Certification Advisory 
Committee
This section establishes a Safety Oversight and Certification 
Advisory Committee (SOCAC) comprised of various aviation 
stakeholders and the FAA. The SOCAC is charged with providing 
advice and recommendations to the Secretary of Transportation 
to improve aircraft certification and oversight processes, 
including workforce development, among other things.

<bullet>  Sec. 213--ODA Review
This section establishes an expert review panel to conduct a 
survey of organization designation authorization (ODA) holders 
and receive feedback on FAA's efforts involving the ODA program 
and make recommendations to improve the program. The FAA is 
required to submit a report to Congress on its findings.

<bullet>  Sec. 216--ODA Staffing and Oversight
This section directs the FAA to report on ways to identify and 
improve ODA oversight staffing and resource needs.

<bullet>  Sec. 222--FAA Task Force on Flight Standards Reform
This section directs the FAA to establish the Task Force on 
Flight Standards Reform comprised of industry stakeholders. It 
is charged with providing recommendations for improvements to 
flight standards processes, training for aviation safety 
inspectors, and achieving regulatory consistency.

<bullet>  Sec. 231--Safety Workforce Training Strategy
This section establishes a safety workforce training strategy 
designed to create an effective risk-based approach to safety 
oversight, utilize best available resources, ensure appropriate 
training, identify a systems safety approach to oversight, 
foster an experienced and knowledgeable inspector and engineer 
workforce, and seek knowledge-sharing opportunities between the 
FAA and industry.

                           Title III--Safety

<bullet>  Sec. 303--Safety Critical Staffing
This section instructs the DOT Inspector General to conduct an 
audit of the staffing model used by the FAA to determine the 
number of aviation safety inspectors that are needed to fulfill 
the mission of the FAA and adequately ensure aviation safety. 
Upon the completion of this audit, the DOT IG is required to 
report the results to Congress.

<bullet>  Sec. 305--Aircraft Data Access and Retrieval Systems
This section requires the FAA to conduct a study of aircraft 
data access and retrieval technologies for commercial aircraft 
used in extended overwater operations to determine if such 
technologies provide improved access and retrieval of the data 
in the event of an accident. The FAA is required to report to 
Congress on the results of the study.

<bullet>  Sec. 307--Emergency Medical Equipment on Passenger 
Aircraft
This section requires the FAA to evaluate and revise, as 
appropriate, the regulations regarding the onboard emergency 
medical equipment requirements, including the contents of the 
first-aid kit. In conducting this evaluation, the FAA would 
consider whether the minimum contents of approved emergency 
medical kits include appropriate medications and equipment to 
meet the emergency medical needs of children.

<bullet>  Sec. 308--FAA and NTSB Review of General Aviation 
Safety
This section requires the FAA and NTSB to study general 
aviation safety, including a review of all general aviation 
accidents since 2000. Based on the results of this study, the 
FAA, in consultation with the NTSB, shall make recommendations 
to address general aviation safety issues, protect persons and 
property on the ground, and improve the safety of general 
aviation operators. These recommendations should subsequently 
be submitted in a report to Congress.

<bullet>  Sec. 309--Call to Action Airline Engine Safety Review
This section directs the FAA to initiate a Call to Action 
safety review for airline engine safety with stakeholders to 
discuss best practices and implement actions to address airline 
engine safety. The Administrator will submit a report to 
Congress on the results of the review.

<bullet>  Sec. 311--Part 135 Accident and Incident Data
This section requires the FAA to determine, in collaboration 
with the NTSB and part 135 industry stakeholders (commuter, on 
demand or air tour operators), what, if any, additional data 
should be reported as part of an accident or incident notice. 
The FAA shall then submit a report to Congress on its findings 
in an effort to more accurately measure the safety of on-demand 
part 135 aircraft activity, to pinpoint safety problems, and to 
form the basis for critical research and analysis of issues for 
more risk-based, data driven safety oversight.

<bullet>  Sec. 315--Aviation Rulemaking Committee for Part 135 
Pilot Rest and Duty Rules
This section establishes a rulemaking committee comprised of 
industry representatives, labor organizations, and safety 
experts to review and provide recommendations on pilot rest and 
duty rules for operations in part 135. The section further 
requires the FAA to submit a report to Congress on the 
committee's findings and issue a notice of proposed rulemaking 
based on the consensus recommendations of the committee.

<bullet>  Sec. 317--Helicopter Fuel System Safety
This section requires that all newly manufactured helicopters 
meet certain standards to improve helicopter fuel system crash 
resistance within 18 months of the bill's enactment.

<bullet>  Sec. 318--Applicability of Medical Certification 
Standards to Operators of Air Balloons
This section requires second-class medical certifications for 
operators of a commercial air balloon.

<bullet>  Sec. 320--Voluntary Reports of Operational or 
Maintenance Issues Related to Aviation Safety
This section requires the FAA to automatically accept voluntary 
disclosures of operational or maintenance issues submitted 
under the Aviation Safety Action Program even if they have not 
undergone a review by the event review committee; however, 
these disclosures will have disclaimers that they have not gone 
through review. If the event review committee determines that 
the disclosure fails to meet criteria for acceptance, the 
disclosure will be rejected.

<bullet>  Sec. 324--Comptroller General Report on FAA 
Enforcement Policy
This section directs the Government Accountability Office (GAO) 
to conduct a study on the impact of a June 2015 order changing 
FAA's Compliance Policy and report to Congress on whether 
reports of safety incidents increased and whether reduced 
enforcement penalties increased the overall number of safety 
incidents that occurred.

<bullet>  Sec. 325--Annual Safety Incident Report
This section requires the FAA submit for the next six years an 
annual report to Congress describing the FAA's safety oversight 
process, the risk-based oversight methods applied to ensure 
aviation safety, and in the instance of specific reviews of air 
carrier performance to safety regulations, a description of the 
cases where the timelines for recurrent reviews are advanced.

<bullet>  Sec. 326--Aircraft Air Quality
This section directs the FAA, in consultation with relevant 
stakeholders, to establish and make available on a website, 
educational materials for flight attendants, pilots, and 
aircraft maintenance technicians on how to respond to incidents 
on board aircraft involving smoke or fumes. This section also 
requires the FAA to issue guidance on reporting incidents of 
smoke or fumes on board an aircraft, and requires the FAA to 
commission a study by the Airliner Cabin Environment Research 
Center of Excellence on bleed air in the cabins of commercial 
aircraft.

<bullet>  Sec. 328--Report on Airline and Passenger Safety
This section requires the FAA to submit a report on airline and 
passenger safety, including the overall use, age, and flight 
hours of commercial aircraft, the impact of metal fatigue on 
usage and safety, a review of contractor assisted maintenance, 
and a re-evaluation of rules regarding inspection of aging 
airplanes.

<bullet>  Sec. 330--Report and Recommendations on Certain 
Aviation Safety Risks
This section directs the FAA to submit a report that identifies 
safety risks associated with airport power outages and 
recommends actions to improve resilience of aviation systems in 
such events, and reviews alert systems for pilots and air 
traffic controllers in the event of a failure of runway lights 
and provides recommendations on further implementation of these 
systems.

<bullet>  Sec. 333--Safe Air Transportation of Lithium Cells 
and Batteries
This section directs the Secretary to ensure shippers of 
lithium ion and lithium metal batteries for air transport 
comply with ICAO Technical Instructions and Hazardous Material 
Regulations in the U.S. and work with international partners to 
ensure enforcement of regulations. It also allows exceptions 
for transportation of medical device batteries, and it 
establishes the Lithium Ion Battery Safety Working Group and 
the Lithium Battery Air Safety Advisory Committee to facilitate 
communications between and among key stakeholders regarding the 
effectiveness and economic impacts of regulation of the 
transportation of lithium ion cells and batteries.

<bullet>  Sec. 334--Runway Safety
This section requires the FAA, in consultation with the NTSB, 
to submit a report to Congress on improving runway safety.

<bullet>  Sec. 335--Flight Attendant Duty Period Limitations 
and Rest Requirements
This section requires the FAA to ensure a flight attendant 
scheduled to a duty period of 14 hours or less is given a 
scheduled rest period of at least 10 consecutive hours. The 
rest period cannot be reduced under any circumstances, and 
airlines are also required to develop fatigue risk management 
plans for flight attendants.

<bullet>  Sec. 336--Secondary Cockpit Barriers
This section requires the FAA to issue an order requiring the 
installation of secondary cockpit barriers on all new passenger 
aircraft.

<bullet>  Sec. 337--Aircraft Cabin Evacuation Procedures
This section requires the FAA to review the evacuation 
certification of transport-category aircraft. In conducting 
this review, the FAA is required to consult with the NTSB, 
relevant aircraft manufacturers, air carriers, and other 
relevant experts and Federal agencies, and is required to 
review relevant data with respect to evacuation certification. 
At the review's conclusion, FAA must submit a report to 
Congress.

<bullet>  Sec. 339A--National In-Flight Sexual Misconduct 
Onboard Aircraft
This section establishes a Task Force comprised of relevant 
stakeholders and federal agencies to develop recommendations 
for air carriers in regard to training, reporting and 
collecting of data for incidents of allegations of sexual 
misconduct that occur on flights.

<bullet>  Sec. 339B--Reporting Process for Sexual Misconduct 
Onboard Aircraft
This section directs the Attorney General to establish a 
streamlined reporting process for the reporting of incidents of 
alleged sexual misconduct onboard aircraft.

                  Title IV--Unmanned Aircraft Systems

<bullet>  Sec. 349--Exception for Limited Recreational 
Operations of Unmanned Aircraft
This section creates a framework for the safe operation of 
recreational unmanned aircraft, including operating 
requirements, aeronautical knowledge and safety testing, and 
the qualifications for community-based organizations that 
support recreational activities. The section allows the FAA to 
regulate any unmanned aircraft in order to ensure the safety 
and security of the National Airspace System.

 
                        STATE OF AVIATION SAFETY

                              ----------                              


                        WEDNESDAY, JULY 17, 2019

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Rick Larsen 
(Chairman of the subcommittee) presiding.
    Mr. Larsen. The subcommittee will come to order.
    I ask unanimous consent the chair be authorized to declare 
a recess during today's hearing. Without objection, so ordered.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit on the subcommittee for 
today's hearing and ask questions. Without objection, so 
ordered.
    Good morning, and thank you to today's witnesses for 
joining the subcommittee's hearing today on the state of 
aviation safety.
    Recent tragic aviation incidents at home and abroad have 
shed new light on what is required to ensure the safety of the 
traveling public.
    In addition, the integration of new entrants, such as 
drones, into the national airspace now present new safety and 
security challenges.
    Last Congress this committee passed the Federal Aviation 
Administration or the FAA Reauthorization Act of 2018, 
bipartisan legislation which set a solid foundation to improve 
the safety of the Nation's airports, pilots, crew, and 
passengers.
    Today's hearing is an opportunity to get the public's 
perspective on current risks and challenges facing our aviation 
system and necessary safety improvements.
    This testimony will also shape our priorities as we 
continue our investigation into the Boeing 737 MAX and the 
oversight of the FAA's implementation of last year's FAA 
reauthorization bill.
    For the sake of time, I am just going to speak first about 
panel two, and then shift to the first panel.
    So later this morning, we are going to hear from a second 
panel, and this fall the committee will discuss the 
implementation of the FAA Reauthorization Act.
    So later at today's hearing, the subcommittee will hear 
from witnesses on that second panel who are on the front lines 
of aviation and are critical to ensuring the safety of U.S. 
aviation. Their testimony will help us prioritize issues for 
oversight on that legislation.
    So from the NTSB, when they testify about recommendations 
outlined in the NTSB Most Wanted List of Transportation Safety 
Improvements, I particularly want to hear about part 135 flight 
ops and ensuring the safe integration of new technologies.
    As Congress works to improve the pipeline for the next 
generation of pilots, debate continues on the strong pilot 
training rules requiring 1,500 hours of flight time mandated 
after the Colgan crash.
    Congress cannot undermine our safety rules simply to 
respond to market forces of supply and demand. If there is a 
pilot shortage, I am interested in hearing ALPA's thoughts on 
ways to address that without sacrificing safety.
    Flight attendant fatigue is a pressing aviation issue; 
however, the FAA continues to delay the implementation of a 
mandate requiring at least 10 consecutive hours of rest for 
flight attendants between duty periods. So I want hear from the 
Association of Professional Flight Attendants about the 
immediate and long-term impacts of that inaction.
    And as evidenced by recent events, the FAA certification 
process is critical to aviation safety. So Professional 
Aviation Safety Specialists can shed more light about that role 
of safety inspectors and engineers in the process and 
improvements that are necessary to ensure the safety of U.S. 
aircraft.
    And last week Chair DeFazio and Vice Chair Davids, 
Congressmen Davis and Ferguson and I introduced the Fair and 
Open Skies Act to prevent foreign air carriers from exploiting 
a ``flag of convenience'' to avoid the regulation of the home 
countries or otherwise undermine labor standards.
    So when we get to the panel, I would appreciate 
Transportation Workers Union, as well as ALPA and APFA's, 
support of this bill and on behalf of the committee would like 
to hear more about the importance of maintaining strong labor 
protections on safety.
    I now want to turn to the first panel.
    The issue of the 737 MAX is not just about stakeholders in 
the aviation industry. This committee is a public body and 
therefore has a responsibility to hear from those most 
impacted, which, unfortunately, includes at times of tragedy.
    And on today's first panel are Mr. Paul Njoroge and Mr. 
Michael Stumo, who both lost family in the Ethiopian Airlines 
flight 302 or ET 302 crash, which itself claimed the lives of 
157 people.
    Chair DeFazio and I asked Mr. Njoroge to testify today on 
behalf of ET 302 families and to give a voice to the 157 
victims of that tragic accident.
    Mr. Njoroge and Mr. Stumo, I can't imagine the immeasurable 
grief that you and your families are experiencing. So on behalf 
of the entire committee, for Members here today and for those 
who can't join us, I want to extend our sincerest condolences 
to both of you and your families and all the families during 
this very difficult time, and we appreciate your willingness to 
come testify in front of our committee.
    Your testimony is a crucial reminder of the international 
role the U.S. aviation system operates within. These crashes 
occurred on U.S.-made, U.S.-assembled, U.S.-regulated 
airplanes. The FAA's actions and this committee's efforts 
clearly have implications for travel around the world.
    A majority of the victims of ET 302 and Lion Air 610 were 
not Americans, and therefore it is only right to hear from 
someone who can better represent the global community impacted 
by these tragedies.
    So I want to thank you, Mr. Njoroge, for coming in from 
Canada last night. Thank you for meeting with us, with Ranking 
Member Graves and I last night as well. Mr. Stumo as well.
    And I want to as well recognize Tor Stumo, who is here, 
Michael's son and Nadia's son.
    Tomra Vecere is in the audience and her husband Charles. 
She lost her brother Matthew as well.
    And there are, of course, many other family members who are 
not here but are certainly represented in our thoughts, our 
prayers, and in today's testimony.
    With that, I want to turn to the ranking member, Garret 
Graves, for opening comments.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
   from the State of Washington, and Chair, Subcommittee on Aviation
    Good morning and thank you to today's witnesses for joining the 
Subcommittee's hearing on the ``State of Aviation Safety.''
    Recent tragic aviation incidents at home and abroad have shed new 
light on what is required to ensure the traveling public's safety.
    In addition, the integration of new entrants, such as drones, into 
the national airspace presents new safety and security challenges.
    Last Congress, this Committee passed the Federal Aviation 
Administration (FAA) Reauthorization Act of 2018, bipartisan 
legislation which set a solid foundation to improve the safety of the 
nation's airports, pilots, crew and passengers.
    Today's hearing is an opportunity to get the public's perspective 
on current risks and challenges facing our aviation system and 
necessary safety improvements.
    The testimony will also help shape our priorities as we continue 
our investigation of the Boeing 737 MAX and oversight of the FAA's the 
implementation of last year's FAA reauthorization bill.
    This fall, the Committee will discuss the implementation status of 
the FAA Reauthorization Act.
    Later on during today's hearing, the Subcommittee will hear from 
witnesses on the second panel, who are on the frontlines of aviation 
and are critical to ensuring the safety of U.S. aviation. Their 
testimony will help us prioritize issues for oversight on the 
legislation.
    I look forward to hearing more from the National Transportation 
Safety Board (NTSB) about the recommendations outlined in the NTSB Most 
Wanted List of Transportation Safety Improvements for 2019-2020, 
particularly on Part 135 flight operations and ensuring the safe 
integration of new technologies.
    As Congress works to improve the pipeline for the next generation 
of pilots, debate continues on the strong pilot training rules 
requiring 1,500 hours of flight time mandated after the Colgan crash.
    Congress cannot undermine an airline safety rule simply to respond 
to the market forces of supply and demand.
    If there is a pilot shortage, I am interested in the Air Line 
Pilots Association (ALPA)'s thoughts on ways to address it without 
sacrificing safety.
    Flight attendant fatigue is a pressing aviation safety issue. 
However, the FAA continues to delay the implementation of mandate 
requiring at least 10 consecutive hours of rest for flight attendants 
between duty periods.
    I would like to hear more from the Association of Professional 
Flight Attendants (APFA) about the immediate and long-term impacts of 
this inaction.
    As evidenced by recent events, the FAA's certification process is 
critical to aviation safety. Professional Aviation Safety Specialists 
(PASS) can shed more light about the role safety inspectors and 
engineers in this process and improvements that are necessary to ensure 
the safety of U.S. aircraft.
    Last week, Chair DeFazio, Vice Chair Davids, Congressmen Davis and 
Ferguson and I introduced the Fair and Open Skies Act, to prevent 
foreign air carriers from exploiting a ``flag of convenience'' to avoid 
the regulations of their home countries, or otherwise undermining labor 
standards.
    I appreciate TWU's, as well as ALPA and APFA's, support of this 
bill and the Committee will hear more about the importance of 
maintaining strong labor protections on safety.
    The issue of the 737 MAX is not just about stakeholders in the 
aviation industry.
    This Committee is a public body and therefore has a responsibility 
to hear from those most impacted, which unfortunately includes at times 
of tragedy.
    On today's first panel are Mr. Paul Njoroge and Mr. Michael Stumo, 
who both lost family in the Ethiopian Airlines flight 302 (ET302) 
crash, which claimed the lives of 157 people.
    Chair DeFazio and I asked Mr. Njoroge to testify today on behalf of 
the ET302 families and to give a voice to the 157 victims of that 
tragic accident.
    Mr. Njoroge and Mr. Stumo, I cannot begin to imagine the 
immeasurable grief you and your families are experiencing.
    On behalf of the entire Subcommittee, for Members here today and 
those who cannot join us, I extend our sincerest condolences to you and 
your family during this difficult time.
    We appreciate your willingness to join our discussion on this 
important issue.
    Your testimony is a crucial reminder of the international role the 
U.S. aviation system operates within.
    The crashes occurred on U.S.-made, assembled and regulated 
airplanes.
    The FAA's actions and this Committee's efforts have implications 
for travel around the world.
    A majority of victims of the ET302 and Lion Air JT610 crashes were 
not Americans, and therefore it is only right to hear from someone who 
can represent the global community impacted by these tragedies.
    Thank you for your advocacy.
    As always, this Subcommittee's top priority is safety.
    It is our job to provide the resources and oversight necessary to 
ensure the safety of the U.S. aviation system.
    Again, thank you again to today's witnesses and I look forward to 
your insights.

    Mr. Graves of Louisiana. Thank you, Mr. Chairman, and thank 
you for holding this hearing today.
    First, and most importantly, I want to express my 
condolences, and I think on behalf of everyone here, for the 
loss that you have experienced. And I appreciate the time and 
dedication that you have committed yourself to, to ensuring 
that every single lesson learned from this can be extracted, 
and, most importantly, that no one ever has to go through this 
again.
    You know, there are some amazing statistics about aviation 
travel. We can sit here and talk about how since 2000, I think 
it was--no, excuse me--since 1997--since 1997 there has been a 
95-percent reduction in aviation accidents. And you can look at 
the World Health Organization statistics talking about how 
there are 1.35 million deaths and up to 50 million injuries due 
annually to road crashes. In comparison, there was 1 death for 
every 3 million flights in aviation.
    And so we could sit back and say, look, these statistics 
are great, things are going well. But that is absolutely, 
absolutely not appropriate. And we are going to continue to 
ensure that we learn every single thing that we can, because 
the hundreds, over 300 lives that were lost and the experience 
that you all are going through is completely unimaginable to 
me.
    We met last night and I made a commitment to you that the 
process that was used to certify this aircraft will not in any 
way be used to unground these aircraft.
    And I look forward to hearing from you. I know that you all 
have committed an extraordinary amount of time to ensuring that 
every single thing that we can learn from this, every single 
step in this process, can be thoroughly examined to ensure that 
as we move forward, that no other family has to go through this 
again. And I just want to reiterate the commitment that we 
made.
    We are going to take every lesson learned, no matter how 
painful, no matter the change that it requires, and ensure that 
appropriate solutions are put in place, not just for this 
aircraft but for all aircraft moving forward, and ensuring that 
these lessons learned are shared with the international 
community.
    I know we have a number of stakeholders that are here 
today, pilots, we have some of the service technicians, we have 
the flight attendants and others that are represented, a lot of 
other stakeholders that I think have important perspective.
    But I want to thank you very much for being here today. 
Your all's strength and power has been absolutely amazing 
through this.
    And, Tor, thank you for being here as well. It was great to 
meet with you last night.
    And I look forward to hearing from your testimony in the 
second panel as well.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    Thank you, Mr. Chairman, for calling today's hearing.
    I want to express my condolences, on behalf of everyone here today, 
to the witnesses, families, and friends of those lost in the two Boeing 
737 MAX accidents. We appreciate your time and dedication in working to 
ensure no one else ever has to go through the unimaginable experience 
you are enduring.
    We are all aware of how safe aviation is--in general. For example, 
according to the World Health Organization, worldwide there are 1.35 
million deaths and up to 50 million injuries annually due to road 
crashes. In comparison, worldwide there was one fatality for every 
three million commercial passenger flights in 2018.
    And we could sit here all day and talk about statistics, but that 
absolutely is not appropriate today, and that's not why we are here. 
Our witnesses today didn't lose statistics.
    I maintain my promise to those here today and others, we will leave 
no stone unturned in the process for safely ungrounding these aircraft 
and ensuring this doesn't happen again.
    We need to learn every lesson possible from these accidents and put 
in place any solutions necessary, not just for this aircraft, but for 
the aviation system as a whole. Despite the progress we have made in 
safety, we can never stop striving for safer skies in the United States 
and around the world.
    Thank you again, Mr. Chairman, for holding today's hearing.

    Mr. Larsen. Thank you, Representative Graves.
    The Chair recognizes the chairman of the full committee, 
Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    And again, thanks, to the families who are here today for 
having the bravery to testify and to persevere as we move 
forward.
    We lost 346 lives in 2 flights in 5 months, and that is why 
it is so fitting that you are here today to represent those 
lives, those families.
    You know, I have been on this subcommittee a long time. And 
back when I was first on the subcommittee, we had what we 
called the tombstone mentality at the FAA. Too often we were 
chasing after an accident to figure out what steps should have 
been taken, what maintenance should have been required, what 
went wrong.
    And I tried for a number of years to say, you have got this 
archaic mandate from the thirties that was moved over from the 
Civil Aeronautics Board to the FAA, that you both promote and 
regulate the industry. That was when it was a nascent industry. 
It is a mature industry, I would say, and I think that there is 
a conflict. And I was told, no, there is no conflict, no 
conflict.
    And then I had--we were doing an FAA bill, and actually I 
offered an amendment to strip the promotional authority. I lost 
here in the committee. It was not in the Senate bill either. 
But then ValuJet went down, and suddenly it was, hmm, there are 
some problems here with oversight, maintenance, sub-
subcontracting, all these things.
    And I got a phone call--I was a pretty junior Member--
saying, you know that amendment you offered?
    Yeah, I said, the one that was rejected.
    Well, where would we put it in the bill?
    And I got about 90 percent of what I wanted in that bill to 
strip FAA of its promotional duties and focus them on what they 
are supposed to be doing, is keeping people safe.
    And it took a number of years, really, for that to--you 
know, there is like the agency--you know, it has memories, and 
there were people there. It took a while. But we had been doing 
pretty well.
    And then along comes ODA. And when it was first offered, I 
said, I don't understand how this is going to work, and what 
are the firewalls between the Boeing person who works for 
Boeing and the Boeing person who works supposedly in the public 
interest for the FAA?
    I voted against it when it first went forward, but then 
when we got around to reauthorization, it seemed like it was 
working pretty well. We knew we didn't have enough FAA 
inspectors to do proper oversight. We raised concerns about 
that during the reauthorization.
    But now we see that there are very, very significant 
questions being raised in this matter. The committee is 
involved in a very in-depth investigation, in addition to other 
investigations, and the Justice Department and inspector 
general and others are undertaking into how this all happened.
    And we will be hearing from Boeing in the future when we 
finish going--we have received a trove of documents, and we are 
poring through them. So that is a work in progress.
    But we are here today to talk about some concerns that are 
ongoing and hear from the families.
    There are a few other things in that bill that the FAA has 
stonewalled. Flight attendant rest, fought for that for years. 
Mike Capuano did a great job, got it in the bill. We held it, 
against the wishes of some of the airlines and those in the 
Senate, and we persevered.
    But now the FAA is slow-walking that, saying, well, gee, we 
can't do that until 2020. I understand one of the airlines is 
pushing really, really hard to not allow flight attendants to 
get proper rest.
    Secondary barriers, we got that in. We know now, which I 
guess a lot of us hadn't thought about, that you hardly ever 
have a new type. I mean, there is a 50-year-old plane, and it 
is still the same type. And the industry tried to say, we will 
only have secondary barriers in new types of planes.
    You know, I fly a lot, and the flight attendant behind the 
food cart with their arms crossed is not much of an obstacle to 
getting into the flight deck.
    So, again, we are pushing hard to make certain that the FAA 
goes forward.
    There are others that weren't properly addressed. Lithium 
batteries. We have already lost two freighters to lithium 
battery fires.
    Foreign repair stations, been raising that issue for a 
couple of decades now. They are not properly overseen by the 
FAA. Some problems with the State Department, other issues. 
They don't have drug testing, they don't have alcohol testing, 
they don't have background checks.
    And then finally, of course, the stupid Government shutdown 
and all the damage that caused at the FAA, the disruption it 
caused at the FAA. And we had legislation that would rectify 
that to draw on the Airport and Airway Trust Fund, which has 
more than $7 billion in it, and not have more dumb shutdowns of 
the FAA.
    So there is still work to be done, and this committee will 
leave no stone unturned as we go forward to make things better 
and safer in the future.
    Thank you, Mr. Chairman.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Larsen, for calling today's hearing on aviation 
safety.
    Ensuring the safety of our nation's transportation systems is the 
most important job of this Committee, and today we will hear about many 
areas in which safety needs to be improved.
    Although fatal commercial aviation accidents in the United States 
have fallen by 95 percent since 1997, we must do better. In the span of 
five months, 346 lives were tragically lost abroad in the Lion Air 
Flight 610 and Ethiopian Airlines Flight 302 accidents, both involving 
U.S.-manufactured aircraft. That is why it is fitting that we will 
begin today's hearing with testimony offered on behalf of the families 
of those whose lives were lost on Ethiopian Airlines flight 302.
    To that end, I would like to welcome Mr. Paul Njoroge and Mr. 
Michael Stumo.
    It is important this Committee and the public hear from those whose 
lives have been forever altered by these accidents. I know that Chair 
Larsen will introduce you both in just a moment, but I wanted to 
express my heartfelt condolences for your loss. Thank you for being 
here on behalf of the families of those who died on Ethiopian Airlines 
flight 302. I sincerely admire your bravery and appreciate your 
advocacy before Congress.
    Please know that for decades I have been a staunch safety advocate, 
and have time and time again opposed the ``tombstone mentality'' in 
transportation. Meaning, we cannot afford to wait for accidents to 
occur to make travel and our transportation system safer, across all 
modes.
    As Chairman, I will always remain vigilant and make certain the 
Committee conducts vigorous oversight of the Federal Aviation 
Administration (FAA) and the aviation industry, and is prepared to 
respond when needed to protect the safety of our airspace, its users, 
and those on the ground. And our work extends across borders; we must 
ensure the safety and integrity of products designed and made in the 
United States to be shared with those around the world.
    So as the investigations into the probable cause or causes of the 
Ethiopian Airlines flight 302 and Lion Air flight 610 accidents 
continue, and this Committee continues examining the role of the FAA's 
oversight, certification, and delegation processes in these events, we 
cannot and must not stop there.
    Twenty-three years ago today I (along with Congressman Lipinski's 
father) introduced a bill that would strip the FAA's authority to 
``promote'' the industry. It is also 23 years ago to the day that TWA 
flight 800 crashed into the Atlantic killing all 230 crew and 
passengers onboard.
    I said then, and I will say it now, that the FAA's primary mission 
must be to ensure the safety of aviation--our skies, planes, crews and 
the flying public. My bill became law, but it unfortunately took a 
tragic accident and loss of lives. I think it is worth noting that this 
is something that the Committee is investigating now. As a critical 
safety regulator, the FAA must not promote the industry it oversees, 
but the recent events into the fatal MAX accidents on U.S.-certified 
aircraft call this into question: is FAA still playing a role to 
``promote''?
    This Committee is committed to ensuring the highest level of 
aviation safety and will strive for zero deaths in air transportation. 
We must continuously explore ways to identify and address other safety 
challenges facing our aviation system.
    To this end, just last year, we were able to enact the longest FAA 
reauthorization in decades that included dozens of provisions that will 
enhance aviation safety. We will have an opportunity today to hear from 
some stakeholders on what progress has been made--and where the FAA is 
falling short in meeting its statutory mandates.
    Some of these key safety provisions include a mandate that flight 
attendants receive a minimum of 10 hours of rest between duty periods 
and a requirement that the FAA review its cabin evacuation assumptions 
to ensure safe evacuation during an emergency.
    Flight attendant rest: While pilots for U.S. commercial airlines 
must be provided a rest period of at least 10 consecutive hours 
preceding a flight duty period, the same is not true for flight 
attendants, despite their important safety duties.
    The law requires the FAA to close this gap, ensuring flight 
attendant rest is on par with commercial airline pilots. However, the 
FAA has not yet implemented this mandate and doesn't plan to take 
action until the spring of 2020 despite being directed to implement the 
provision more than eight months ago. While the FAA is not here to 
defend its delays today, we will bring the agency up very soon. As 
Chairman of this Committee, I will not sit by idly and watch the FAA 
fail to act.
    Secondary barriers: Another key provision requires all newly 
manufactured aircraft to have a secondary cockpit barrier. I am pleased 
to hear that the FAA is interpreting this provision as Congress 
intended--in that it applies to every new plane rolling off the 
assembly line, and not just newly type-certificated aircraft as some in 
industry have proffered. We have learned during our investigation into 
the 737 MAX that seldom is a transport category aircraft given a new 
type-certificate. So it would not make sense to have this critical 
safety and security provision tied only to a new plane certified a 
decade from now. It must be apply to every plane that is manufactured. 
And while the FAA agrees with this interpretation, I am concerned that 
the agency is slow-walking this mandate.
    Our work does not stop here. There were many critical issues--for 
which I have been advocating for years--that were not included or 
adequately addressed in last year's law, such as the risks posed by 
lithium batteries.
    Lithium batteries: Current law foolishly prohibits the FAA from 
imposing regulations greater than the lowest common denominator of 
international guidelines unless there has been an accident. This is the 
perfect example of the ``tombstone mentality'' that we should not 
tolerate.
    If ignited, just eight lithium batteries at half-charge can bring 
down an airplane, according to the FAA's own testing. In fact, I went 
up to the FAA Technical Center in New Jersey with the Committee earlier 
this year and saw first-hand what these batteries can do. You don't 
need 800 pounds of lithium batteries to bring down a plane. You just 
need eight. I will not give up this fight until this prohibition is 
repealed.
    Foreign repair stations: In addition, I have been concerned for 
years over the FAA's lax oversight over overseas aircraft repair 
stations. Report after report from the Department of Transportation 
Inspector General has detailed deficiencies in FAA oversight and 
monitoring of foreign repair stations that continually perform more and 
more critical safety work on U.S.-registered aircraft.
    Congress included in the 2012 and 2016 reauthorization laws 
requirements that the FAA issue rules requiring safety-sensitive 
workers at foreign repair stations be subject to alcohol and substance 
abuse screening and background investigations, just as workers at U.S. 
facilities are. However, to date, the FAA has failed to implement these 
important mandates. We will continue to explore ways to ensure parity 
between U.S. and foreign entities, which will enhance the overall 
safety of our system.
    Shutdown bill: I would also like to take this opportunity to talk 
about legislation that Chairman Larsen and I introduced earlier this 
year, H.R. 1108, the ``Aviation Funding Stability Act of 2019.'' This 
bill would ensure all FAA programs function uninterrupted and that all 
FAA employees remain at work and paid during any future lapse in 
appropriations.
    Our aviation system is the largest, busiest, and safest system in 
the world. I can say, without a doubt, that our system was weakened 
each day the FAA was shut down earlier this year--the safety; the 
security; and the overall health of U.S. aviation was put at risk. And 
unfortunately, the effects of the shutdown--the longest in U.S. 
history--will be felt for years to come.
    The FAA plays too critical of a role in ensuring the safety of the 
traveling public to be shut down again, and it is our responsibility to 
make sure that nothing stalls the FAA's safety efforts, particularly 
the failure of Congress to do its job.
    I will conclude by saying that there is nothing that this Committee 
does that is more important than its safety work. I look forward to 
hearing from the witnesses. Thank you and I yield back.

    Mr. Larsen. Thank you.
    The Chair recognizes the ranking member of the full 
committee, Mr. Graves of Missouri.
    Mr. Graves of Missouri. Thank you, Mr. Chairman, for 
calling the hearing.
    I want to join my colleagues in expressing my sincere 
condolences to the family and to the friends of the victims of 
both Lion Air flight 610 and Ethiopian Airlines flight 302.
    You know, none of us can truly understand the pain and 
sorrow that they are going through. And we thank you for being 
here today to share your perspective with the subcommittee as 
we continue to review the impacts of these two terrible 
tragedies.
    There is no doubt in my mind that all of us share the 
common goal of seeking the safest aviation system and striving 
to improve it here in the United States, and all over the 
world, for that matter. And our efforts in this regard, they 
have to be constant, they have to be consistent, and they have 
to be constructive. This means mitigating risks and developing 
contingencies in all of the areas.
    And to this end, I am pleased that we will also hear today 
from the NTSB as well as labor organizations. These unions 
represent the men and women who are operating, maintaining, and 
servicing U.S. airlines, as well as those regulating and 
inspecting U.S. airlines and manufacturers every single day. 
Their views are going to assist us in our understanding of the 
state of aviation safety in the United States and abroad.
    And I also look forward to testimony from the many other 
aviation stakeholders and from the Federal Aviation 
Administration directly on the state of aviation safety that is 
coming up at a future hearing.
    Again, I want to thank the family members for being here 
and express my condolences.
    And with that, I yield back.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Mr. Chairman, for calling today's hearing.
    I want to join my colleagues in expressing my sincere condolences 
to the families and friends of the victims of both Lion Air flight 610 
and Ethiopian Airlines flight 302. None of us can truly understand the 
pain and sorrow you are enduring. We thank you for being here today to 
share your perspective with the Subcommittee as we continue to review 
the impacts of these two terrible tragedies.
    There is no doubt in my mind that all of us share the common goal 
of seeking the safest aviation system and striving to improve it here 
in the United States and around the world. Our efforts in this regard 
must be constant, consistent, and constructive.
    This means mitigating risks and developing contingencies in all 
areas. To this end, I am pleased that we will also hear from the 
National Transportation Safety Board as well as labor organizations. 
These unions represent the men and women operating, maintaining, and 
servicing U.S. airlines, as well as those regulating and inspecting 
U.S. airlines and manufacturers every day. Their views will assist our 
understanding of the state of aviation safety in the U.S. and abroad.
    I also look forward to testimony from the many other aviation 
stakeholders and from the Federal Aviation Administration directly on 
the state of aviation safety at a future hearing.
    I again want to thank the family members for being here and express 
my condolences.

    Mr. Larsen. Thank you.
    We will now move to testimony.
    Just for the committee members, Mr. Njoroge will be 
testifying, and Mr. Stumo will be here in support and may be 
available to answer questions as well. Mr. Njoroge will be 
testifying.
    Just since this is your kind of first time--first time for 
everybody--be sure you are up to the microphone, that it is 
turned on. And if it is pointed at your chin, it is probably 
better for the sound.
    And then as well, although we tend to limit to 5 minutes, 
in agreement with talking to Mr. Njoroge, if he is going to go 
over 5, we are not going to hold him to a fast 5 on this.
    So we will let you testify until you are done and then move 
to questions.
    Mr. Njoroge, you are recognized.

    TESTIMONY OF PAUL NJOROGE, ON BEHALF OF THE FAMILIES OF 
  ETHIOPIAN AIRLINES FLIGHT 302, HUSBAND OF CAROLYNE KARANJA, 
FATHER OF RYAN NJUGUNA, KELLI PAULS, RUBI PAULS, AND SON-IN-LAW 
OF ANN KARANJA, VICTIMS OF FLIGHT ET302, ACCOMPANIED BY MICHAEL 
      STUMO, FATHER OF SAMYA STUMO, VICTIM OF FLIGHT ET302

    Mr. Njoroge. Thank you, Chairmen Larsen and DeFazio and 
Ranking Members Graves and Graves, for allowing me to testify 
today.
    The Boeing 737 MAX crashes killed my wife, my three 
children, my mom-in-law, and 341 others. Today I speak not only 
with my voice, but the voices of my departed family, my mom-in-
law, and the other 341 victims.
    My wife Carol was a dedicated homemaker and a full-time 
accountant who wanted to change the world through God's Child 
education in marginalized communities of Kenya.
    My 6-year-old son Ryan was a super intelligent boy who was 
fascinated by the galaxy and aspired to be an astronaut.
    My 4-year-old daughter Kelli's singing delighted everyone.
    My 9-month-old daughter Rubi was bubbly and a joy in our 
family.
    And my mom-in-law Ann was a retired teacher who for over 40 
years who has shaped the world of young men and women through 
her teaching and counseling.
    I think about their last 6 minutes a lot. My wife and my 
mom-in-law knew they were going to die. They had to somehow 
comfort the children during those final moments, knowing they 
were all their last. I wish I was there with them.
    It never leaves me that my family's flesh is there in 
Ethiopia mixed with the soil, jet fuel, and pieces of the 
aircraft.
    In Canada, Independence Day was celebrated on July 1. I 
stayed buried in my little house in my grief, hearing the 
sounds of celebration and fireworks in the sky, but all I could 
think about was the 737 MAX struggling to gain height and 
eventually diving to the ground, killing my whole family and 
152 others.
    If my wife, my children, and my mom-in-law were alive, they 
would have enjoyed all family activities on Canada Day. Every 
minute of every day, they would be all around me full of life 
and health. I miss them every minute of every day.
    On April 4, 3 weeks after the deaths of my family in what I 
have since learned is a shameful pattern of behavior by Boeing 
and airplane manufacturers, Boeing shifted focus from the root 
cause of the crashes, which is the design flaws in the 737 MAX 
and MCAS, and started talking about foreign pilot error. This 
distracted from correcting the real causes of the crashes and 
is an insult to humanity.
    Boeing and their apologists want to shift scrutiny from 
their single-minded quest for short-time profits over safety 
and place it on foreign pilots who, like domestic American 
pilots, were left in the dark by Boeing.
    Would they have used the term ``domestic pilot error'' if 
the crash happened in the United States? The term ``foreign 
pilot error'' is utter prejudice and a disrespect to pilots and 
Boeing customers across the world.
    Boeing used this fallacy of foreign pilot error to avoid 
the grounding of the 737 MAX after the crash of Lion Air flight 
610 on October 29 last year. That decision killed my family and 
152 others in the crash of Ethiopian Airlines flight 302 4 
months later.
    The FAA should have known that the failure to have triple 
redundancy in critical safety systems could cause crashes and 
death. They recklessly left Boeing to police itself.
    The families demand that the 737 MAX8 be fully recertified 
as a new plane because it is too different from the original 
certified plane. We demand that simulator training be required. 
Recertification must take place in combination with a full 
legislative fix for the aviation safety system.
    The FAA clearly needs a budget sufficient to fulfill safety 
obligations. The U.S. Senate should only confirm a new FAA 
Administrator if that person agrees to safety reforms.
    Boeing should not be allowed to act like a mere investment 
company extracting wealth to supercharge their holder returns 
at the expenses of safety and quality. Their leadership should 
change in favor of engineering safety focus.
    Other safety critical industries have early warning system 
data collection with immediate responsiveness. The FAA and 
aviation industry need to have such systems in place.
    If Boeing's wrongful conduct continues, another plane will 
dive to the ground killing me, you, all your children, all the 
other members of your family. It is you who must be the leaders 
in this fight for aviation safety in the world.
    Now, future hearings of this committee should include those 
who wrote the MCAS software, technical dissenters, 
whistleblowers, safety engineers, and families. You hear 
multiple testimony from pilots and unions. We, the victims' 
families, need to continue to be included in these hearings.
    Thank you for allowing me to speak today.
    [Mr. Njoroge's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Paul Njoroge, on behalf of the families of 
 Ethiopian Airlines flight 302, husband of Carolyne Karanja, father of 
 Ryan Njuguna, Kelli Pauls, Rubi Pauls, and son-in-law of Ann Karanja, 
                        victims of flight ET302
    Thank you Chairman Larsen and Chairman DeFazio, and thank you 
Ranking Members Sam Graves and Garret Graves, and all Distinguished 
Members of this Committee for allowing me to testify before you today.
    My name is Paul Njoroge and I come before you with a broken heart. 
It is not something that this Committee or that Congress can fix, but I 
push myself every day to try to do something in the memory of my 
family, my entire family that was killed in the second Boeing crash in 
Ethiopia. My wife, Carolyne, a wonderful mother to our children, and 
who we talked about getting old together. Our three children, Ryan, six 
years old with the whole world ahead of him as he dreamed of being an 
astronaut one day. Kelli, just four years old, and the light of 
everyone's eye. And little nine-month-old Rubi, a baby who sat on her 
mommy's lap who I wish I could hold just one more time. I have 
nightmares about how they must have clung to their mother, crying, 
seeing the fright in her eyes as they sat there helplessly. And there 
was nothing I could do to save them. My mom in law sat beside them with 
tickets I had purchased for them that was to be a trip of a lifetime. I 
paid for plane tickets that was to be a safe flight. I did not know all 
of the information of which Boeing knew about how dangerous that plane 
was yet the corporation allowed 157 people to board that dangerous 
plane that could not land safely. I never knew it would be the last 
time I would ever see them.
    I miss their laughter, their playfulness, their touch. I am empty. 
I feel that I should have been on that plane with them. My life has no 
meaning. It is difficult for me to think of anything else but the 
horror they must have felt. I cannot get it out of my mind.
    But I speak for more than myself who are trying to cope with this 
insufferable loss. I speak for all of the families who lost loved ones 
whom they will never see again and who were tragically torn from their 
lives because of reckless conduct on the part of so many, particularly 
Boeing, a company who became steadfast in its single-minded quest to 
place blame on so-called ``foreign pilots.'' Since the first Max8 crash 
in October, Boeing began a pattern of behavior blaming innocent pilots 
who had no knowledge and were given no information of the new and 
flawed MCAS system that could overpower pilots. No manual, no training, 
no information was provided to pilots on how that new MCAS system 
worked, yet they were put in those cockpits and expected to know what 
to do. Instead of accepting responsibility and informing pilots around 
the word, Boeing continued its blame game on pilots, to shift focus 
from its own responsibilities until the second plane crashed. Then the 
world turned its focus on those who were really culpable. It could no 
longer be denied by Boeing.
    Little did passengers around the world know of the close 
relationship that Boeing had with the FAA. So close that apparently the 
FAA was allowing Boeing to certify planes, like the Max8, for flying 
without supervising those doing the certification. The FAA should have 
known that the failure to have triple redundancy in critical safety 
systems could cause crashes and death. This has to become part of an 
improved FAA, checking safety and certification requirements. No 
excuses can replace this necessity. The FAA allowed a flawed software 
package to rely upon data from a single angle of attack sensor. These 
sensors have a relatively high rate of error, a rate that normally 
would require at least two levels of redundancy. Not only was this 
redundancy mandate not followed, the FAA and Boeing did not simulate 
sensor failures when testing the 737 MAX8.
    The families demand that the 737 Max8 be fully recertified as a new 
plane because it is too different from the original plane designed at 
the beginning of the Vietnam War. The FAA's practice of grandfathering 
old designs and granting waivers on new designs has significant human 
costs. Boeing persuaded the FAA to certify the Boeing 737 MAX8 as a 
737, a plane designed in 1966. The 737 has a low fuselage compared to 
modern planes. The low fuselage is a relic from more than 50 years ago 
when staircases to the tarmac were the method of getting passengers on 
and off planes. Boeing wanted to incorporate bigger and more fuel-
efficient engines to compete with Airbus. But it also wanted to 
minimize its certification and training costs. The problem with these 
new engines was that they could not fit under the 737's wings. Rather 
than scrapping the 1960's design in favor of a modern design, Boeing 
fit the engines onto the old fuselage by moving them up and forward. 
This caused the plane to be prone to handle differently than the older 
737s and nose up in unfamiliar ways. Boeing's response was the now-
infamous MCAS software to take control of the plane in ways the pilot 
would not detect.
    We demand that the FAA require simulator training, as do airline 
passenger groups, and the famous pilot, Captain Chesley ``Sully'' 
Sullenberger. After the two crashes, the FAA surprisingly proposed only 
requiring an hour-long iPad tutorial for cost reasons and the simple 
fact that only two 737 MAX simulators exist in North America, Boeing 
and the FAA are resisting this basic requirement that could have 
prevented these two crashes. The lack of foresight and greed behind 
this inadequate training hurts the core of my very being. I will never 
understand how any person, how any corporation, can be so selfish and 
so sightless in its duty to allow passengers to travel safely from one 
place to another.
    As an investment professional, allow me to inform Congress as to 
how Boeing has viewed this whole crisis--only through the lens of its 
stock price and the security of their executives' jobs. By focusing 
only on cutting costs and spending profits to pump up the stock price, 
rather than reinvesting in safety, Boeing's CEO has managed to steer 
the company's stock (NYSE:BA) from a price of $140 on July 1, 2015 to 
last week closing price of $365. Some investors and traders might have 
even banked higher profits when the price reached $446 some days before 
the second March 10 crash of its Boeing 737 Max8 in Ethiopia.
    But, let me give my thoughts about how the stock price has moved 
exponentially since late 2016. Although the first 737 MAX planes were 
delivered in May 2017, by the end of 2012, the company had received 
2,500 orders for these planes. This translated to expected revenues 
totaling to $140 billion. Boeing's executives at the time started 
employing an aggressive equity-repurchase program; $2.8 billion in 2013 
and $6.0 billion in 2014. And when Boeing's current CEO took over in 
2015, the stock-repurchase dollar values started to swell even 
further--$6.8 billion in 2015, $7.0 billion in 2016, $9.2 billion in 
2017, and $9.0 billion in 2018. And in December 2018, barely two months 
after the crash of the Boeing 737 Max8 in the Java Sea., the board 
authorized repurchase of NYSE:BA stock worth $20 billion in 2019. By 
March 10, $2.3 billion worth of stock had been repurchased. And after 
the 737 MAX was grounded, on April 24, 2019, Boeing's CEO and his 
executive team realized that the company's revenues were at risk, and 
so they suspended the stock repurchase program.
    Boeing increased dividends by 10.2 percent in Q1 2013, 50.5 percent 
in Q1 2014, 24.7 percent in Q1 2015, 19.8 percent in Q1 2016, 30.3 
percent in Q1 2017, 20.4 percent in Q1 2018 and 20.2 percent in Q1 
2019. Over the last six years, Boeing has revised the revenues and 
earnings guidance a number of times; all these based on the expected 
and realized revenues from the sale of the poorly designed 737 MAX 
plans. All these actions; the aggressive share-repurchase program, the 
dividends increase, the revisions of revenues and earnings guidance, 
had an enormous signaling effect to investors. The Boeing executive 
team knew that such actions would cause excitement on Wall Street, and 
continually increase the company's stock price. Boeing acted as a 
financial company rather than a provider of safe and innovative 
airplanes. Management cut safety engineers, captured the FAA, 
outsourced aggressively to foreign countries, and avoided 
recertification of the 737 MAX as a new plane.
    I know that CEO Dennis Muilenberg and Boeing's executive team have 
been the primary beneficiaries of this strategy to extract wealth from 
this storied company. They have benefited from the stock-based 
compensations. They also have benefited from bonuses based on company 
performance; with this performance significantly being boosted by the 
revenues from the sale of the 737 MAX planes. Could that be the reason 
Boeing did not feel obliged to ground the MAX even after the second 
crash of the Boeing 737 Max8? Do Boeing executives now understand why I 
and many others across the world have said that the entire Boeing team 
focused on profits, stock price and overall company financial 
performance at the expense of the safety of human life? Did the lure of 
numbers make Boeing lose sight of its fundamental responsibility, which 
is to ensure that all of its planes are safe to fly? Back to my very 
essential question; why wasn't the Max8 grounded in November after the 
first crash in the Java Sea? One hundred and eight nine lives were 
lost, and executives at Boeing cared more about its stock price than 
from such a tragedy occurring again.
    I and other families want any recertification to take place only 
after all investigations are completed. Any future ungrounding must not 
precede a full legislative fix of the FAA and the aviation safety 
system. Indeed the FAA should be taking the lead to fix its captured 
status. Recertifying the MAX without a legislative fix would represent 
Congress' and the FAA's endorsement of the system as is. Congress 
cannot continue allowing Boeing to unduly influence the FAA, avoiding 
safety engineering oversight and cutting corners.
    FAA has jeopardized its standing as the global leader in aviation 
safety. Boeing has surrendered its top spot in global commercial 
airplane manufacturing to Airbus. How else can the FAA and Boeing 
regain its status in the world of aviation unless it has guaranteed a 
full investigation and a full fix of these issues?
    The Congress should require that the FAA return to the Designate 
Engineering Representative (DER) which existed before the supervision-
free delegation of the Organization Designation Authorization (ODA) 
system was implemented in 2005. The DER system allowed the safety 
culture of aviation engineering be supervised by and to report problems 
directly to FAA, without being silenced or intimidated by company 
managers and their timeline and financial pressures. While the Acting 
FAA Administrator estimated that eliminating the entire Organization 
Designation Authorization system would cost the FAA $1.8 billion and 
would require 10,000 more employees, but that cost estimate is not 
relevant to returning to the DER system. But if an even more 
substantial FAA overhaul costed $1.8 billion per year, with over 950 
million flights per year in the United States alone, that cost 
represents less than $2 per flight. My point is that fundamental safety 
improvements are affordable and well within our reach.
    The U.S. Senate should only confirm a new FAA Administrator if the 
nominee agrees to safety reforms. Any nominee for FAA Administrator who 
does not unequivocally agree to safety reforms at the FAA is not 
qualified to serve as the leader of this critical organization. The FAA 
surrenders too much of its authority to Boeing, and if Congress decides 
to endorse the FAA's status quo, Congress would be surrendering its 
authority to Boeing as well. The problems are known. Congress cannot 
punt on this issue any longer. The credibility of the US aviation 
system, and perhaps Boeing itself, cannot survive a third crash.
    FAA should establish an effective system requiring manufacturers, 
airlines, pilots and others in the industry to report potential safety 
problems or defects as an ``early warning system.'' Other safety 
critical industries have early warning system data collection with 
immediate responsiveness, so those industries can prevent deaths rather 
than respond to them. In 2002, Congress required the National Highway 
Traffic Safety Administration to enact early warning procedures. Motor 
vehicle manufacturers and equipment manufacturers are required to 
report information that will help NHTSA identify defects related to 
motor vehicle safety. The FAA and aviation industry need to mandate 
such systems in place.
    As the Boeing CEO and other senior executives certainly enjoyed 
their July 4th holiday watching fireworks in the skies with their 
families. All I could think of in Canada on July 1, a day celebrated 
much like July 4th in America, was of the deadly skies of Bishoftu, 
Ethiopia, of a 737 Boeing Max plane repeatedly taking control from the 
pilots to push the nose down and eventually crashing into the ground at 
500 miles an hour. Nothing was left but a crater. I sat huddled in a 
small apartment, not being able to return to my house ever. I thought 
of all the celebrations I will be missing with my family. No more 
birthdays, no more anniversaries, no more holidays, no weddings for my 
children, no grandchildren. Boeing has never reached out to families 
about the impossible sorrow and grief we will carry for our entire 
lives. Instead they have a press relations strategy to apologize to 
cameras and propose half-baked promises to give $100 million to local 
governments and nonprofit organizations.
    Future hearings of this Committee should include testimony from 
those who wrote the MCAS software, technical dissenters, whistle 
blowers, safety engineers and, in every hearing, families who each have 
their own grief to explain to this Committee. You hear multiple 
testimony from pilots, associations, unions, and government agencies. A 
true investigative hearing would include these persons with direct 
knowledge who are not presenting oral organizational press releases.
    Thank you.

    Mr. Larsen. Thank you, Mr. Njoroge, for your testimony, 
your moving testimony, and your recommendations.
    We are going to now, as we discussed yesterday, we will 
move to questions. And we will go one at a time, each side. I 
am not sure if all Members have questions for you, but I will 
start.
    And I know you have come with some recommendations for the 
committee to consider, and I wanted to ask you specifically 
about your written testimony and the issue of the changes that 
we have made about 14 years ago in what we call the ODA, in the 
Organization Designation Authorization. And I wanted to give 
you a chance to amplify your oral testimony with your written 
testimony.
    Can you explain, at least in your mind, the change that you 
think the committee ought to be making and why we ought to be 
making any changes to that authority.
    Mr. Njoroge. Michael, do you want to----
    Mr. Larsen. And it is fine if Michael wants to answer as 
well, that is fine.
    Mr. Njoroge. Then I will supplement it later.
    Mr. Larsen. That is fine.
    Mr. Njoroge. Thank you.
    Mr. Stumo. Thank you, Mr. Chairman.
    We, as families, have become not experts, but we do have 
some opinions. And we are in touch with a lot of the families 
from both crashes all over the world, and we will continue 
providing input and recommendations. It is not just us, but all 
the families, because we want to include all of them.
    And our understanding at this point--and I have talked to 
Boeing safety engineers who have been in the system back in the 
DER program versus--and through the transition to ODA. It was 
explained to me like this.
    There have always been timeline pressures and financial 
pressures, but under the older DER program, when, of course, 
Boeing still paid these engineers but they reported to FAA, 
there were two lines of authority, two chains of command, one 
up through the FAA side, one through the Boeing side, and the 
safety culture could put a stop to things if something looked 
wrong.
    After the ODA system--and I am not sure this is entirely 
clear from the black-and-white text of reading about these 
systems--after the ODA system there was only one chain of 
command up through Boeing. It was very difficult for the safety 
culture to stop something, and that was a big change.
    Group think was encouraged. Being creative in fault tree 
analysis, thinking about what could go wrong and documenting it 
and preventing against it, you were encouraged not to be 
terribly creative or you might have to find another--they might 
encourage you to go find another place to work elsewhere maybe 
in the company.
    So that is our understanding of going back to ODA, is that 
dual chain of command. There may be others.
    Mr. Larsen. Thank you.
    Anything to add, Mr. Njoroge?
    Mr. Stumo. Sorry?
    Mr. Larsen. Anything to add, Mr. Njoroge?
    Mr. Njoroge. Well, yeah, essentially what we are saying 
with the ODA program, it is that Boeing has an oversight of 
itself.
    Mr. Larsen. Thank you.
    I am going to turn to Mr. Graves, recognized for 5 minutes.
    Mr. Graves of Louisiana. Thank you.
    When I gave an opening statement, I talked about 
statistics. You both being here today and the conversations 
that we have had make it clear that these aren't statistics, 
that these are lives, these are family members, and it is 
something that--it is a message that cannot be overstated to 
us.
    Again, I want to thank you for your strength. I want to 
thank you for your resilience and your commitment to ensuring 
that no family has to go through this ever again. And it 
doesn't matter if we get to 99.9 percent improvements. If there 
is one life, if there is one injury, we need to keep striving 
to make sure that we get to perfection.
    And I just want to say it again, any process to unground 
this aircraft, as far as I am concerned, will not be allowed to 
resemble the process that was allowed for these accidents to 
occur. In fact, I can't even call them accidents. These 
disasters.
    So thank you very much, both, for being here. And I want to 
remind you that my door is open, my phone is open at any time, 
and I look forward to continuing a dialogue with you. But thank 
you very much for your recommendations.
    Mr. Njoroge. Thank you.
    Mr. Larsen. Thank you.
    The Chair recognizes Mr. DeFazio for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Njoroge, I read your entire testimony. It is very, very 
thoughtful, compelling.
    And you are an investment professional, and one of your 
observations is about the pressures from Wall Street, the 
concerns regarding how executive compensation is determined on 
stock price and stock buybacks.
    Would you like to just comment on that a little bit, since 
you didn't--you abbreviated your testimony for oral purposes, 
which we appreciate. But would you like to perhaps elaborate on 
that a little bit or at least make that point?
    Mr. Njoroge. Sure. Thank you.
    Basically, when companies repurchase their own stock, they 
try to send a message out there to the investors that, we are 
bullish about our own company, we believe that our financial 
performance is good.
    And it seems that since the CEO, Dennis Muilenburg--
obviously, before that, they still had the equity repurchase 
program going on. But since he took over, the numbers, the 
dollar values of the repurchase of the stock went up.
    And I do believe it is in 2017 when they started selling 
the 737 MAXes, their revenues swelled, the revenues were 
growing. And earnings were growing as well. And they decided, 
while we have a good amount of retained earnings, we can throw 
the money out there. And the stock price--obviously, when you 
send those--the signal, in effect, to the Wall Street, the 
stock price will keep going, because investors will keep buying 
the stock.
    And the beneficiaries of these are actually the executives, 
because they benefit from equity compensation; that is, the 
exercise of stock options.
    We also saw them raising their revenues and earnings 
guidance. And obviously this was based on the expectations of 
the sale of the 737 MAX. We saw them increase dividends.
    You rarely see a company that increases dividends and at 
the same time continues to repurchase their own stock. When 
that happens, then the company is so bullish about their own 
achievements, and they just want the stock to keep going.
    Mr. DeFazio. Thank you for that.
    So the money that they used for repurchasing, it is not 
constrained in any way, they could spend that money for--on 
personnel or plant equipment or anything else. Is that correct?
    Mr. Njoroge. Well, yeah. And I really felt that when the 
board of directors authorized the repurchase of stock, what, 
$20 billion, that was in December of 2017--December of 2018--
that is just a couple of months ago, about 6 months ago, that 
was barely 2 months after the crash of Lion Air flight 610. So 
at that point, they knew that there were safety concerns with 
their jet, and they should have invested on safety instead of 
repurchasing stock.
    Mr. DeFazio. Yeah. I recently read--and this is something 
we are looking into--but a news story where they were laying 
off senior engineers and hiring contractors, some paid less 
than $10 an hour, in dispersed locations around the world, 
which is obviously hard to supervise and integrate in 
developing software for this airplane.
    And that, when you talk about the amount of money that they 
had on a discretionary basis that they could use for bonuses or 
dividends or buybacks, it raises some real concerns. So thank 
you for expanding on that.
    I yield back, Mr. Chairman.
    Mr. Larsen. Thank you.
    What we have now going forward is a few other Members have 
some questions for you. And so we are going to go a little out 
of order in that regard.
    Ms. Davids from Kansas, who is the vice chair of the 
subcommittee.
    Ms. Davids. Thank you, Mr. Chairman, and to the ranking 
member of the committee and the full committee.
    First I want to start off by saying thank you to everybody, 
who I know is in the middle of a grieving process right now, 
for being here.
    This is an intimidating place to be in general, and to take 
the time to come and force everyone who sits on this committee 
and all of us who sit in Congress to stop and think about--we 
hear a lot about the stakeholders in this. Certainly everyone 
who gets onto a plane is a stakeholder in this.
    And so your voice is just as important here as the people 
who are in the industry, making money, and running businesses. 
So I appreciate you.
    Mr. Njoroge. Thank you.
    Ms. Davids. As someone who is on this committee, I am very 
committed to a thoughtful review of the entire process that is 
going on for us to--you know, the responsibility that we have 
as Members of Congress is not just to legislate, but also to 
perform oversight functions to keep people safe.
    And when I read through your testimony, there are two 
things I would love to hear. Both of you speak about actually, 
one, you talked a little bit already about who we should hear 
from, that the testimony should be from, the engineers and from 
executives and whistleblowers and everybody.
    I would love to hear you talk a little bit more about that 
in the context of how do we make sure that you have the trust 
of the industry? Because so much of this is built on trust. And 
this is where we see a breakdown of that trust?
    The fact that you have to talk about earnings and 
statements and bringing your professional capacity of 
understanding that stuff into a conversation that really 
centers on how do we keep people safe is, I think, part of the 
trust conversation.
    And then the other thing, when I read your testimony, the 
fact that you said that Boeing has never reached out to the 
families really stuck out to me. And I would like to hear you 
comment on that publicly, because I think that is really 
important.
    Mr. Njoroge. Well, I will answer the second question first.
    Boeing, they have been in front of cameras acknowledging 
that there were mistakes in the installation of MCAS. Obviously 
they don't talk about the flaws in the design of the 737 MAX. 
And they have apologized to the families in front of cameras.
    Now, they know who the next of kin of these victims are, 
but they have not come to us and they have not apologized in 
person. Ethiopian Airlines did send letters to us, not to 
apologize, but to offer their sympathies and their messages of 
condolence.
    So the expectation is--you know, it is hard to trust Boeing 
with their apologies, given that they have not reached out to 
us. And I do believe that they did that in the days leading up 
to the Paris Air Show, because it is for commercial reasons. I 
believe it is a publicity stunt, that they just appeared on 
cameras to apologize to the families.
    Mr. Stumo. I think the families are in agreement that 
Boeing's apologies to cameras have not been apologies to the 
families.
    We were in Ethiopia, our family, after the crash, and the 
Ethiopian Airlines sent letters, they invited us in, they were 
reaching out directly. And so it was very much warmer.
    And the recent offer of $100 million to something seemed 
like a PR stunt to us. They never reached out to families to 
discuss what the needs of the families are.
    And on the future hearings, the technical dissenters should 
be heard from, those who dissented from a potential group think 
force consensus process at FAA, if any. If the committee has 
identified any, the public should hear them, not just the 
investigators.
    Any whistleblowers who may have been fired and maybe have a 
gag order pursuant to a settlement, who have complained about 
safety issues with regard to the 737 MAX should be called to 
testify with protective subpoenas so the public can hear what 
they had to say and what their experience is.
    And the aviation software writers, do they have the same 
level of engineering safety culture that regular engineers, 
aviation safety engineers. We are getting more software in 
these planes. In this case it took control of the plane and 
pushed it into the ground.
    We need triple redundancy in every part of these systems as 
they merge with software and hardware. And do software writers 
really have that kind of culture? We need to hear who wrote 
that software and what they have to say and what their culture 
is.
    Mr. Njoroge. And, well, to just reinforce what Michael 
said, for this committee to have achieved its objective, and 
that objective is to do a thorough investigation as to what 
happened within Boeing and the FAA, the weakness in their 
internal oversight processes that a jet that is flawed was 
designed, certified, and allowed to fly. Then we need to hear 
from the technical dissenters, from the whistleblowers, the 
safety engineers as well.
    Ms. Davids. Well, I will just close by saying thank you, 
again, Mr. Njoroge and Mr. Stumo, for coming here and being the 
voices that are sharing with the Members of Congress what we 
need to do to make sure that the trust of the folks who are 
getting onto planes exists.
    Thank you.
    Mr. Njoroge. Thank you.
    Mr. Larsen. Just two more Members, Mr. Lynch and Ms. Craig. 
So I will call on Mr. Lynch for 5 minutes from Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman, and thanks for holding 
this hearing. And I thank the ranking member as well.
    Mr. Njoroge, thank you so much for coming here, and Mr. 
Stumo, for giving voice to your loved ones who cannot speak for 
themselves.
    I also want to thank Ms. Milleron, Nadia, Michael's wife, 
for spending about an hour with me after the last hearing and 
talking about her daughter Samya.
    I know that Tor and Adnaan are here, Samya's brothers.
    And I know that Tomra Vecere is here on behalf of her 
brother Matt, who also perished.
    I want to thank you all for, first of all, being willing to 
come here and express your grief and trying to hold us all 
accountable--Boeing, the FAA, and Congress--for our 
responsibility in this.
    I also want to thank you for your courage, in turning your 
tragedy, your loss, into something that might benefit the 
general public, by making this real, by putting this on us and 
holding our feet to the fire to make sure that we take every 
step possible to correct this situation going forward.
    In my earlier conversations with Nadia, Michael--and I know 
this is something that Mr. Njoroge has raised as well--at our 
last hearing, we heard from Captain Sullenberger regarding the 
retraining of pilots during the recertification process and 
once that certification process begins, if and when this 737 
MAX8 is allowed to resume flights.
    And there is a controversy or some difference of opinion of 
whether the training for those pilots--or retraining for those 
pilots--should be conducted by simulator or--which is what 
Captain Sullenberger recommended--or whether it should be 
allowed to occur by computer, a simple computer program.
    And I know that Nadia had some strong opinion on it. I 
think there is a need to make sure we get this right. And I am 
not sure--I know that inadvertently, you have delved into some 
of the issues. I see some of the recommendations that you have 
made here in your opening testimony.
    What are your thoughts on the requirement that we make sure 
that, in light of the fact that we had reports that the 
aircraft was acting like a bucking bronco, how important do you 
think it is that we give each and every pilot the full 
knowledge and experience on a simulator versus allowing them to 
be retrained on a computer, if you will?
    Mr. Njoroge. Well, first of all, Boeing should never be 
allowed to conceal information from the aviation industry, from 
the pilots and the public, because they did that with MCAS.
    Eight days after the crash of Lion Air flight 610, they 
issued a flight operations manual bulletin. And even after, 
knowing that 189 people died, they did not mention MCAS, they 
did not want to mention the software.
    And that means they were just trying to conceal the 
information, because when you talk of MCAS, then you talk of 
the design flaws in the 737 MAX.
    And a lot of times in our lives, we tend to rely on 
experiences of other people. And when Captain Sullenberger 
spoke, he said that even knowing that--even--he knew that 
what--he knew what would happen. And so when he was trying to 
do the simulator thing, he got to understand why the pilots 
could not control that aircraft. And that means that just that 
iPad training is not enough at all.
    And so what I would like--my recommendation is that the 
pilots should go through a simulator training, and the flights 
operations manual should always disclose everything that is in 
an aircraft.
    And that should never happen again. I mean, that is 
criminal. Why would you conceal information of an important 
software that can take control of the plane? And that is what 
happened, MCAS took control of that plane, the pilots could not 
recover it, and it just dived to the ground.
    So that is something that this committee should look into.
    Mr. Lynch. Michael.
    Mr. Stumo. Thank you for the question.
    You know, this plane, we definitely want simulator 
training, as families. My wife and I came to Washington after 
Samya's death far earlier than we would ever want to, because 
we heard that the Flight Standardization Board was proposing 
another hour of computer or iPad training as the remedy for 
pilot training after our daughter died. And we were very 
unhappy and worried that there was going to be a rush to 
unground this plane. Plus the comment period, instead of 30 
days, was 14 days.
    And so we got involved then, even though we weren't ready 
to do so. And we had a meeting with FAA early, and we got 
families to sign a letter requesting that that comment period 
be extended so that we could comment and say this is 
insufficient, we need simulator training. And the FAA was 
gracious enough to grant that extension of time to comment. And 
we did, and other members of the public submitted comments that 
simulator training is needed.
    And as Captain Sullenberger said, when you have an 
undisclosed, or at the very most, partially disclosed, software 
system that can take control from the pilots and cause 
startling things to happen in the cockpit, the simulator didn't 
make sense to me. What he said, that doing the simulator 
training is far better than one of many checklists; you have to 
get it into your muscle memory when those startling things 
happen, and you don't have much time to react.
    Mr. Lynch. Thank you.
    I thank the chairman for his indulgence, and I yield back.
    Mr. Larsen. Thank you.
    We have one more Member. It is Ms. Craig from Minnesota. 
And after she is done, we are just going to do a 5-minute 
transition to the next panel.
    So Representative Craig from Minnesota, 5 minutes.
    Ms. Craig. Thank you so much, Mr. Chairman.
    Mr. Stumo and Nadia, it is great to see you here again. 
Thank you for giving me time to speak with you and to talk 
about how we honor your daughter Samya's memory with action, 
because that is what we need to do.
    Mr. Njoroge, I can't imagine the pain that you are enduring 
with the loss of your wife and your children. But thank you for 
finding the strength to testify here today.
    I want to continue focusing on what more we can do to 
develop those robust post-market--after these planes are out 
and they are bucking like broncos, as my colleague said, what 
more we can do to make sure that we have a robust system for 
identifying these red flags before crashes occur.
    I keep wondering how an industry fundamentally rooted in 
safety can lack robust mandatory reporting requirements by 
manufacturers, pilots, mechanics, et cetera.
    In the last hearing, I asked about the Aviation Safety 
Action Program and the Flight Operations Quality Assurance and 
whether these operational reporting schemes were catching the 
mechanical malfunctions or red flags in this country.
    I also have wondered how Boeing could not be required by 
law to compile and publish near-miss malfunctions. It is hard 
to believe that not a single pilot anywhere in the world went 
head to head with this malfunctioning MCAS system, overcame the 
software, landed with information about that experience, and 
that the public did not know that.
    I worked for a company that produced pacemakers, before I 
came here, that control irregular heart palpitations, machines 
that by design are there to save lives. Yet we had those kind 
of robust reporting requirements. Why don't the airlines and 
manufacturers?
    Mr. Njoroge and Mr. Stumo, you testified in support of the 
FAA creating a system that would require manufacturers, 
airlines, pilots, and others to develop this kind of early 
warning system.
    The industry, though, has advocated in favor of the 
Aviation Safety Action Program and the Flight Operations 
Quality Assurance Reporting Systems.
    Do you think these are currently enough? And what other 
changes do you think the FAA must incorporate for all parties 
to be held accountable for putting safety first and make sure 
adverse events don't go unreported or unnoticed?
    Mr. Stumo. Thank you for that question.
    We, as the families, at least my family and others we have 
talked to, do think that a more robust early warning system is 
necessary, rather than to state, oh, it has been a long time 
since there has been a crash, that is really good. But if you 
have a 99.9-percent safety record, that is 1 crash every 1,000 
flights, which we don't have. But that is not good enough.
    And I know that in other critical safety industries--or I 
have heard, I am not an expert--that there is that mandatory 
reporting. There is not only the reporting, but you need a 
system that can analyze and recognize patterns and then have 
some ability to get in front of those patterns.
    And I know you have had experience with that in the medical 
device industry, where the combination of software and hardware 
interact, indeed more often the software fails than the 
hardware.
    We have talked to a former Administrator of NHTSA who said 
that there was some sort of an auto--mandatory reporting in the 
auto industry and an analyzing of those records. It may very 
well be, I don't know, that there is a more mature reporting 
and analysis on the auto side. I don't know the state of that 
program right now.
    But there is a lot of information to collect besides GPS 
data and where these planes are on these functions. And for us, 
we wish the FAA had gotten ahead of it and not--you know, I am 
sure they are doing their job as best they can, but to get 
ahead of it. And like it was said, that it was Mr. DeFazio 
said, we now have 346 tombstones. If it is a tombstone agency, 
let's make some changes, and that is part of it.
    Ms. Craig. Thank you.
    Mr. Njoroge, do you have anything to add?
    Mr. Njoroge. Not at the moment. Thank you.
    Ms. Craig. Thank you.
    Mr. Chairman, I yield back.
    Mr. Larsen. Mr. Njoroge, Mr. Stumo, and the families, thank 
you very much for being willing to testify today. I want to 
commend to the Members your written testimony. If everyone has 
not had a chance to read the written testimony, it is equally 
compelling.
    What you offered us today is not just additional pathways 
for us as a committee to explore in our oversight. More 
importantly, you are putting a face to what can seem to the 
outside to be a very bureaucratic, very step-by-step, very 
incremental investigation.
    But your presence is a reminder to all of us that the 
flying public, the individuals who get on these airplanes, the 
families who get on these airplanes, are much more important 
than the other folks that we tend to listen to around here. And 
I appreciate your willingness to spend some time with us to 
remind us of that.
    Thank you very much.
    With that, the committee will excuse, and we will do a 
transition for 5 minutes.
    Thank you.
    Mr. Stumo. Thank you, Mr. Chairman.
    Mr. Njoroge. Thank you.
    [Recess.]
    Mr. Larsen. We will get started.
    I would like to welcome our witnesses to the second panel.
    Ms. Dana Schulze, Acting Director, Office of Aviation 
Safety of the NTSB; Captain Joe DePete, president of Air Line 
Pilots Association, International; Ms. Lori Bassani, national 
president, the Association of Professional Flight Attendants; 
Mr. Mike Perrone, national president, Professional Aviation 
Safety Specialists; and Mr. John Samuelsen, international 
president, Transport Workers Union.
    Thank you for being here today. We do look forward to your 
testimony.
    In my opening statement, I made comments about what I would 
like to hear from each of you. And without objection, though, 
our witnesses' full statements will be included in the record. 
And since your written testimony has been made part of the 
record, the subcommittee requests that you limit your oral 
testimony to 5 minutes.
    With that, Ms. Schulze, you may now proceed.

TESTIMONY OF DANA SCHULZE, ACTING DIRECTOR, OFFICE OF AVIATION 
SAFETY, NATIONAL TRANSPORTATION SAFETY BOARD; CAPTAIN JOSEPH G. 
DePETE, PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; 
 LORI BASSANI, NATIONAL PRESIDENT, ASSOCIATION OF PROFESSIONAL 
  FLIGHT ATTENDANTS; MICHAEL PERRONE, PRESIDENT, PROFESSIONAL 
   AVIATION SAFETY SPECIALISTS, AFL-CIO; AND JOHN SAMUELSEN, 
     INTERNATIONAL PRESIDENT, TRANSPORT WORKERS OF AMERICA

    Ms. Schulze. Thank you. Good morning, Chairman Larsen, 
Ranking Member Graves, and members of the subcommittee. Thank 
you for inviting the National Transportation Safety Board to 
testify. I am the Acting Director of the Office of Aviation 
Safety within the NTSB.
    First, I would like to express my condolences to the loved 
ones of those lost in recent aviation disasters. We must learn 
from their pain and strive to close the gaps in safety that 
allowed these tragedies to happen.
    The NTSB is an independent Federal agency charged by 
Congress with investigating every civil aviation accident and 
certain incidents in the United States and issuing safety 
recommendations aimed at preventing future accidents. We 
conduct about 1,400 investigations each year.
    In the last decade, the number of aviation accidents and 
deaths have declined overall, from 539 fatalities in 2009 to 
401 in 2018. Nearly 92 percent were in general aviation. The 
remainder, primarily part 135 operations, represent a prominent 
gap in aviation safety that is on our Most Wanted List.
    Currently, air medical, air taxi, charter, and on-demand 
operators are not required to meet some of the same safety 
requirements that have proven effective at enhancing the safety 
of commercial airline operations.
    In March, the board completed an investigation of a part 
135 Learjet that crashed in Teterboro, New Jersey. Based on the 
findings, the NTSB again reiterated recommendations to the FAA 
to require flight data monitoring programs and safety 
management systems for part 135 operations.
    Since completing this investigation, we have initiated 
another 13 investigations into part 135 accidents and 
incidents.
    The safety issues were not new to the Teterboro accident. 
The NTSB had originally issued these recommendations following 
a 2015 crash in Akron, Ohio, reiterated them following a 2016 
accident in Togiak, Alaska, and again following the Teterboro 
accident.
    We have also made recommendations to the FAA that aircraft 
operating under part 121 and 135 be equipped with a crash-
protected cockpit image recording system. These recorders would 
help focus and expedite investigations and the development of 
targeted safety recommendations to reduce risks to the 
traveling public. These recommendations are currently open--
unacceptable response.
    Unfortunately, there are also cases of paying passengers 
aboard aircraft where the operation is exempt from part 135. On 
June 21, a skydiving flight crashed in Hawaii, killing 11. In 
March 2018, a sightseeing flight crashed in New York, killing 
five. Both flights were operating under less stringent part 91.
    Regardless of the purpose of the flight or the type of 
aircraft, commercial aviation should be safe.
    Our Most Wanted List also includes strengthening occupant 
protection. Seatbelts and restraints do reduce injury and 
death. Without their use, preventable deaths will continue to 
occur.
    We have recommended that the FAA require all general 
aviation airplanes be retrofitted with shoulder harnesses. The 
FAA has not required them on aircraft manufactured before 1986 
for economic reasons. This recommendation was closed--
unacceptable action.
    This week marks the 30th anniversary of the United flight 
232 crash in Sioux City, Iowa, where 111 were killed and 172 
injured. Four infants were on board that aircraft. In 
preparation for the emergency landing, all were held by adults 
as instructed by the crew. The forces were too great, all were 
ejected from the adults' grip and injured, one fatally.
    We recommended the FAA prohibit children from being lap 
held on commercial flights. Children are safest when they are 
properly secured in their own seat.
    Even when occupants use appropriate restraints, inadequate 
evacuation procedures can also cause otherwise survivable 
crashes to turn fatal.
    Evidence of passengers retrieving carry-on baggage during 
recent emergency evacuations demonstrates that previous actions 
to mitigate this potential safety hazard have not been 
effective.
    We recommended the FAA develop best practices through an 
industry working group for evacuation. This recommendation is 
currently open--unacceptable response.
    Last, another area of concern for emerging transportation 
technologies, such as unmanned aircraft and commercial space 
systems operations. The NTSB continues to grow its expertise in 
both areas, completing our first commercial space investigation 
in 1993 and first investigation of a mid-air collision between 
an aircraft and a drone in 2016.
    As the number of these operations grow, it is inevitable 
that the need for our investigations will, too. We continue our 
focus in these areas and appreciate this committee's commitment 
to ensuring we have the resources to proactively be ready to 
advance safety into the future.
    Thank you again for the opportunity to discuss the work 
that the NTSB is doing to make transportation safer. There 
continues to be room for improvement, and the NTSB stands ready 
to work with you to improve the safety of our Nation's aviation 
systems for all users.
    I am happy to take your questions.
    [Ms. Schulze's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Dana Schulze, Acting Director, Office of Aviation 
              Safety, National Transportation Safety Board
    Good morning, Chairman Larsen, Ranking Member Graves, and Members 
of the Subcommittee. Thank you for inviting the National Transportation 
Safety Board (NTSB) to testify before you today. I am the Acting 
Director of the Office of Aviation Safety within the NTSB.
    The NTSB is an independent federal agency charged by Congress with 
investigating every civil aviation accident in the United States and 
significant accidents in other modes of transportation--highway, rail, 
marine, and pipeline. We determine the probable cause of the accidents 
we investigate, and we issue safety recommendations aimed at preventing 
future accidents. In addition, we conduct special transportation safety 
studies and special investigations and coordinate the resources of the 
federal government and other organizations to assist victims and their 
family members who have been impacted by major transportation 
disasters. The NTSB is not a regulatory agency--we do not promulgate 
operating standards nor do we certificate organizations and 
individuals. The goal of our work is to foster safety improvements, 
through formal and informal safety recommendations, for the traveling 
public.
    We investigate all civil domestic air carrier, commuter, and air 
taxi accidents; general aviation accidents; and certain public-use 
aircraft accidents, amounting to approximately 1,400 investigations of 
accidents and incidents annually. We also participate in investigations 
of airline accidents and incidents in foreign countries that involve US 
carriers, US-manufactured or -designed equipment, or US-registered 
aircraft.
    I would like to thank the committee for being a continued partner 
in safety. Last year, you addressed multiple NTSB safety 
recommendations in the FAA Reauthorization Act of 2018. Based on our 
investigations, the NTSB recommended applying second-class medical 
requirements to commercial balloon operators, requiring all rotorcraft 
to meet certain minimum crashworthiness requirements to protect fuel 
systems, and sufficiently marking and maintaining in a database all 
meteorological evaluation towers.\1\ When Congress passed the FAA 
Reauthorization Act of 2018 you required the Federal Aviation 
Administration (FAA) to close these safety gaps.\2\
---------------------------------------------------------------------------
    \1\  National Transportation Safety Board, Safety Recommendations 
A-17-034, A-15-012, A-13-016, and A-13-017.
    \2\  Public Law 115-254.
---------------------------------------------------------------------------
    This testimony will address the state of aviation safety from the 
NTSB's perspective and is based on our investigations. It will include 
a description of safety issues we have identified and recommendations 
we have made, and will conclude with a description of the work we are 
doing with emerging transportation technologies in aviation.
    For the last decade, the US aviation system has experienced a 
record level of safety, and the number of US-registered civil aviation 
accidents has declined overall.\3\ Deaths associated with US civil 
aviation accidents decreased from 539 in 2009 to preliminarily 401 in 
2018. Nearly 92 percent of aviation fatalities in 2018 occurred in 
general aviation and non-commercial accidents, with the remainder 
primarily in Title 14 Code of Federal Regulations (CFR) Part 135 
operations, which include charters, air taxis, and air medical services 
flights. Until 2018, there had been no passenger fatalities as a result 
of accidents involving US air carriers operating under the provisions 
of 14 CFR Part 121 since the crash of Colgan Air flight 3407 in 
2009.\4\ This unprecedented period of safety came to an end on April 
17, 2018, when the Southwest Airlines Flight 1380 accident involving an 
uncontained engine failure resulted in a first passenger.\5\ Over the 
last several decades, significant advances in technology, important 
legislative and regulatory changes, and more comprehensive crew 
training have contributed to the current level of aviation safety. 
However, we continue to see accidents and incidents that remind us of 
the need to be ever vigilant.
---------------------------------------------------------------------------
    \3\  National Transportation Safety Board, 2017 preliminary 
aviation statistics. Accident data for calendar year 2018 are still 
being validated and have not yet been released.
    \4\  National Transportation Safety Board, Loss of Control on 
Approach, Colgan Air, Inc., Operating as Continental Connection Flight 
3407, Bombardier DHC 8 400, N200WQ, Rpt. No. AAR-10/01 (Washington, DC: 
NTSB, 2012). In 2013, there were two fatal accidents involving 
nonscheduled cargo flights operating under Part 121--National Air Cargo 
crash after takeoff at Bagram Air Base, Afghanistan, and United Parcel 
Service flight 1354 crash during approach in Birmingham, Alabama.
    \5\  The Southwest Airlines flight 1380 investigation is ongoing. 
An investigative hearing was conducted on November 14, 2018.
---------------------------------------------------------------------------
    On February 4, 2019, we announced our Most Wanted List of 
Transportation Safety Improvements for 2019-2020.\6\ This list 
identifies 10 focus areas for transportation safety improvements based 
on issues identified through our investigations. Many of the issues on 
the Most Wanted List address multimodal challenges for improving 
safety, including many that have been identified in some of our 
aviation accident investigations, such as alcohol and other drug 
impairment, distraction, occupant protection, fatigue, medical fitness, 
and safe shipment of hazardous materials.
---------------------------------------------------------------------------
    \6\  National Transportation Safety Board, 2019-2020 Most Wanted 
List.
---------------------------------------------------------------------------
   most wanted list--improve the safety of part 135 flight operations
    On the Most Wanted List, one issue area is specific to aviation: 
improving the safety of Part 135 flight operations. Regardless of the 
purpose of the flight or the type of aircraft, all passenger-carrying 
flights should be safe. However, currently, air medical service, air 
taxi, charter, and on-demand operators are not required to meet some of 
the same safety requirements that have proven effective at enhancing 
the safety of commercial airline operations. On March 12, 2019, the 
NTSB issued three new safety recommendations and reiterated six 
previous safety recommendations to the FAA as a result of the 
investigation of an accident that occurred on May 15, 2017, in 
Teterboro, New Jersey.\7\ In this accident, a Learjet 35A, operated by 
a Part 135 operator, Trans-Pacific Air Charter, departed controlled 
flight while on a circling approach to Teterboro Airport and impacted a 
commercial building and parking lot. The pilot-in-command and the 
second-in-command died; there were no passengers on the aircraft and no 
one on the ground was injured. While the aircraft was operating as a 
Part 91 positioning flight at the time of the accident, the accident 
raised concerns about the safety of Part 135 operations and the need 
for effective flight data monitoring (FDM) programs, safety management 
systems (SMS), procedures to identify pilots who do not comply with 
standard operating procedures, programs to address pilots with 
performance deficiencies, and the need for enhanced guidance for crew 
resource management training and leadership training for upgrading 
captains.
---------------------------------------------------------------------------
    \7\  National Transportation Safety Board, Departure From 
Controlled Flight, Trans-Pacific Air Charter, LLC, Learjet 35A, N452DA, 
Teterboro, New Jersey (Abstract), Rpt. No. AAR-19/02 (Washington, DC: 
NTSB, 2019).
---------------------------------------------------------------------------
    The safety issues identified in the Teterboro accident were not 
new; the NTSB had previously identified these issues and made 
recommendations to address FDM equipment and programs and SMS as a 
result of the investigation of the November 10, 2015, crash of 
Execuflight flight 1526 in Akron, Ohio.\8\ The recommendations were 
reiterated following the October 26, 2016, crash of Ravn Connect flight 
3153 in Togiak, Alaska, and again following the Teterboro accident.\9\
---------------------------------------------------------------------------
    \8\  National Transportation Safety Board, Crash During 
Nonprecision Instrument Approach to Landing, Execuflight Flight 1526, 
British Aerospace HS 125-700A, N237WR, Rpt. No. AAR 16/02 (Washington, 
DC: NTSB 2016).
    \9\  National Transportation Safety Board, Collision with Terrain, 
Hageland Aviation Services, Inc., dba Ravn Connect Flight 3153, Cessna 
208B, N208SD, Rpt. No. AAR 18/02 (Washington, DC: NTSB 2018).
---------------------------------------------------------------------------
    Since completing the investigation in Teterboro, New Jersey and 
issuing safety recommendations, the NTSB has initiated another 13 
investigations into Part 135 accidents and incidents, of which five 
were fatal crashes--including the May 13 midair collision between two 
aircraft on sightseeing flights in Ketchikan, Alaska.\10\ Further, 
there are cases of paying passengers aboard aircraft where the 
operation is exempt from Part 135, such as the June 21 crash of an Oahu 
Parachute Center skydiving flight in Mokuleia, Hawaii, where all 10 
passengers and one crewmember were fatally injured, and the March 11, 
2018, crash of a FlyNYON sightseeing flight in New York City where five 
passengers were fatally injured. Both flights were operating under Part 
91.
---------------------------------------------------------------------------
    \10\  See Appendix for list of open Part 135 investigations.
---------------------------------------------------------------------------
    A list of the safety recommendations we have made regarding Part 
135 operations is appended to this testimony. Implementation of these 
and other recommendations could prevent or mitigate many of the Part 
135 crashes that the NTSB investigates, and that is why ``Improve the 
Safety of Part 135 Aircraft Operations'' is included on the Most Wanted 
List.
           most wanted list--reduce fatigue-related accidents
    Fatigue is a pervasive problem in transportation that degrades a 
person's ability to stay awake, alert, and attentive to the demands of 
safely controlling a vehicle, vessel, aircraft, or train. By including 
``Reduce Fatigue-Related Accidents'' on our Most Wanted List, we are 
calling for a comprehensive approach to combatting fatigue in 
transportation, focusing on research, education, and training; 
technology; sleep disorder treatment; hours-of-service regulations; and 
on- and off-duty scheduling policies and practices.
    Over the last 20 years, the NTSB has investigated many air carrier 
accidents involving fatigued flight crews, including Colgan Air flight 
3407. As a result of that investigation, we recommended that the FAA 
require operators to address fatigue risks associated with 
commuting.\11\ The FAA's final rule for Fatigue Risk Management Plans 
for Part 121 Air Carriers did not address this recommendation. In 2006, 
we issued a safety recommendation to the FAA as a result of our 
investigation of the October 19, 2004, crash of Corporate Airlines 
Flight 5966 in Kirksville, Missouri, to ``modify and simplify the 
flight crew hours-of-service regulations to take into consideration 
factors such as length of duty day, starting time, workload and other 
factors shown by recent research, scientific evidence, and current 
industry experience to affect crew alertness.'' \12\ On January 4, 
2012, the FAA published a final rule that prescribed new flight- and 
duty-time regulations for all flight crewmembers and certificate 
holders conducting passenger operations under Part 121, but excluded 
operators who conduct cargo operations.\13\ The NTSB disagrees with 
this exclusion, as many of the fatigue-related accidents that we have 
investigated over the years involved cargo operators. We also believe 
that, because of the time of day that cargo operations typically occur, 
such operations are in greater need of these requirements. The NTSB 
believes that the FAA should include all Part 121 operations, including 
cargo operations, under these requirements.
---------------------------------------------------------------------------
    \11\  National Transportation Safety Board, Safety Recommendation 
A-10-016.
    \12\  National Transportation Safety Board, Collision with Trees 
and Crash Short of the Runway, Corporate Airlines Flight 5966 BAE 
Systems BAE-J3201, N875JX Kirksville, Missouri, Rpt. No. AAR-06/01 
(Washington, DC: NTSB, 2006). National Transportation Safety Board, 
Safety Recommendation A-06-010.
    \13\  Federal Aviation Administration, Flightcrew Member Duty and 
Rest Requirements, 14 CFR Parts 117, 119, and 121.
---------------------------------------------------------------------------
            most wanted list--strengthen occupant protection
    Seat belts and restraints reduce the risk of injury and death to 
pilots and passengers in the event of an accident. To minimize deaths 
and injuries, we must increase the use of existing restraint systems, 
otherwise preventable deaths will continue to occur. In 2011, we 
conducted a study on airbag performance in general aviation, which 
supported the idea that shoulder harnesses can reduce injury in an 
accident.\14\ As a result of that study, we recommended that the FAA 
require that all general aviation airplanes be retrofitted with 
shoulder harnesses if they don't already have them. In 2013, the FAA 
reported that, because the economic burden on the general aviation 
community would outweigh any potential benefit, the agency would not 
mandate that aircraft manufactured before December 12, 1986, be 
retrofitted with shoulder harnesses or with a two-point inflatable lap 
restraint. The recommendation has been classified as ``Closed--
Unacceptable Action.'' \15\
---------------------------------------------------------------------------
    \14\  National Transportation Safety Board, Airbag Performance in 
General Aviation Restraint Systems, Rpt. No. SS-11/01 (Washington, DC: 
NTSB, 2011).
    \15\  National Transportation Safety Board, Safety Recommendation 
A-11-004.
---------------------------------------------------------------------------
    This week marks the 30th anniversary of the United Airlines flight 
232 crash in Sioux City, Iowa.\16\ Of the 296 people on board the 
aircraft, 110 passengers and 1 flight attendant were fatally injured, 
and another 172 sustained varying degrees of injury. On this flight, 
there were four infant passengers; all were being held by adults, as 
instructed during preparation for the emergency landing. All the 
infants were injured, one fatally. Following this crash and another in 
1994 in Charlotte, North Carolina, the NTSB recommended the FAA remove 
the exemption that allows for children to be lap-held on commercial 
aviation flights.\17\ We issued similar recommendations again in 2010. 
These recommendations are all classified as ``Closed--Unacceptable 
Action.'' \18\ Children are safest when they are properly secured in a 
child safety seat in their own seat when flying.
---------------------------------------------------------------------------
    \16\  National Transportation Safety Board, United Airlines Flight 
232 McDonnell Douglas DC-10-10, Rpt. No. AAR-90/06 (Washington, DC: 
NTSB, 1990).
    \17\  National Transportation Safety Board, Flight into Terrain 
during Missed Approach USAir 1016, DC-9-31, N954VJ, Rpt. No. AAR-95/03 
(Washington, DC: NTSB 1995).
    \18\  National Transportation Safety Board, Safety Recommendation 
A-90-078, A-95-051, A-10-121, A-10-122, and A-10-123.
---------------------------------------------------------------------------
Airplane Evacuations
    Additionally, even when occupants use appropriate restraints, 
deaths and injuries may still occur because of inadequate evacuation 
procedures. In many cases, otherwise survivable crashes turn fatal 
because occupants cannot evacuate before a postcrash fire consumes the 
aircraft. On October 28, 2016, American Airlines flight 383, bound for 
Miami, Florida, experienced a right engine uncontained failure and 
subsequent fire during takeoff at Chicago O'Hare International 
Airport.\19\ The flight crew aborted the takeoff and stopped the 
aircraft on the runway, and an emergency evacuation was conducted. Of 
the 161 passengers and 9 crewmembers onboard, one passenger was 
seriously injured during the evacuation. A turbine disk in the right 
engine fractured into at least four pieces, with one piece going 
through the inboard section of the right wing, over the fuselage, and 
into a warehouse facility a half mile away. The airplane was 
substantially damaged by the fire, which was caused by a fuel leak from 
the right wing fuel tank that resulted in a pool of fire under the 
right wing.
---------------------------------------------------------------------------
    \19\  National Transportation Safety Board, Uncontained Engine 
Failure and Subsequent Fire, American Airlines Flight 383, Boeing 767-
323, N345AN, Rpt. No. AAR-18/01 (Washington, DC: NTSB 2018).
---------------------------------------------------------------------------
    We held a Board meeting on January 30, 2018, to determine the 
probable cause of the Chicago accident and to issue relevant safety 
recommendations. The Board determined that the failure was caused by an 
internal defect in a turbine disk, which was likely undetectable when 
the disk was manufactured in 1997 and during subsequent inspections. 
The investigation also found numerous problems with the evacuation, 
including a lack of communication between the flight deck and cabin 
crew, deviation by a flight attendant from emergency evacuation 
procedures, and the crew's lack of coordination following the 
evacuation. The Board adopted nine new recommendations--seven to the 
FAA and one each to Boeing and to American Airlines--and reiterated two 
recommendations to the FAA.
    One of the recommendations to the FAA addresses passengers 
evacuating airplanes with carry-on baggage, which has been a recurring 
concern. Flight attendants are trained to instruct passengers not to 
evacuate with carry-on baggage because doing so could potentially slow 
the egress of passengers during an evacuation and block an exit during 
an emergency. In June 2000, we released a safety study on emergency 
evacuations of commercial airplanes, which found that passengers 
exiting with carry-on baggage were ``the most frequently cited 
obstruction to evacuation.'' \20\
---------------------------------------------------------------------------
    \20\  National Transportation Safety Board, Emergency Evacuation of 
Commercial Airplanes, Rpt. No. SS-00/01, (Washington, DC: NTSB 2000).
---------------------------------------------------------------------------
    Video taken during the Chicago evacuation and postaccident 
interviews with flight attendants indicated that some passengers 
evacuated from all three usable exits with carry-on baggage. In one 
case, a flight attendant tried to take a bag away from a passenger who 
did not follow the instruction to evacuate without baggage, but the 
flight attendant realized that the struggle over the bag was prolonging 
the evacuation and allowed the passenger to take the bag. In another 
case, a passenger came to the left overwing exit with a bag and 
evacuated with it despite being instructed to leave the bag behind. In 
addition, videos from an evacuation due to a fire on a British Airways 
aircraft in Las Vegas on September 8, 2015, and a Dynamic International 
Airways aircraft in Fort Lauderdale on October 29, 2015, showed 
passengers evacuating with carry-on baggage despite the standard 
instruction to leave their baggage and similar items behind in the 
event of an emergency.\21\
---------------------------------------------------------------------------
    \21\  National Transportation Safety Board, Aviation Accident Final 
Report for accident number DCA15FA185.
---------------------------------------------------------------------------
    Evidence of passengers retrieving carry-on baggage during recent 
emergency evacuations demonstrates that previous actions to mitigate 
this potential safety hazard have not been effective. As a result of 
the Chicago investigation, we recommended that the FAA (1) measure the 
potential delays associated with passengers retrieving and carrying 
baggage during an emergency evacuation and (2) determine the 
appropriate countermeasures to mitigate any related potential safety 
risks.\22\
---------------------------------------------------------------------------
    \22\  National Transportation Safety Board, Safety Recommendation 
A-18-009. Classified ``Open--Acceptable Response.''
---------------------------------------------------------------------------
    We have also seen positive outcomes from implementing NTSB safety 
recommendations and successfully evacuating an aircraft post-accident. 
On March 8, 2017, a Boeing MD-83 overran a runway during a rejected 
takeoff in Ypsilanti, Michigan. Seconds after reaching the takeoff 
decision airspeed of 158 mph at about 5,000 feet down a 7,500-foot 
runway, the captain's attempt to raise the nose and get the plane 
airborne was unsuccessful due to an undetected mechanical malfunction 
of an elevator. The pilot called ``abort.'' The airplane decelerated 
following the rejected takeoff but was traveling too fast to be stopped 
on the remaining runway. It departed the end of the runway at about 115 
mph, traveled 950 feet across a runway safety area (RSA), struck an 
airport fence and came to rest after crossing a paved road. An 
evacuation was ordered. Flight attendants described that during the 
evacuation the passengers were incredibly calm and responsive, followed 
flight attendant directions, and did not take or attempt to take 
luggage or personal belongings with them. The 110 passengers and 6 
flight crewmembers evacuated the airplane via emergency escape slides 
without any serious injuries.\23\
---------------------------------------------------------------------------
    \23\  National Transportation Safety Board, Runway Overrun During 
Rejected Takeoff Ameristar Air Cargo, Inc. dba Ameristar Charters, 
flight 9363 Boeing MD-83, N786TW Ypsilanti, Michigan March 8, 2017, 
Rpt. No. AAR-19/01 (Washington, DC: NTSB 2001).
---------------------------------------------------------------------------
    In Ypsilanti, the RSA likely contributed to the lack of serious 
injuries. In response to an NTSB recommendation, the FAA in 1999 began 
a national program to add RSAs to many commercial airports.\24\ 
However, there are additional gaps in runway safety.
---------------------------------------------------------------------------
    \24\  National Transportation Safety Board, Safety Recommendation 
A-03-011. Classified ``Closed--Acceptable Action.''
---------------------------------------------------------------------------
                        additional safety issues
Runway safety
    Around midnight on July 7, 2017, Air Canada flight 759 was cleared 
to land on runway 28R at San Francisco International Airport (SFO), but 
instead lined up on a parallel taxiway where four air carrier airplanes 
were awaiting takeoff clearance. Flight 759 descended below 100 feet 
above the ground, and the flight crew initiated a go-around about the 
time it overflew the first airplane on the taxiway. The airplane 
reached a minimum altitude of about 60 feet and overflew the second 
airplane on the taxiway before starting to climb.\25\
---------------------------------------------------------------------------
    \25\  National Transportation Safety Board, Taxiway Overflight, Air 
Canada Flight 759, Airbus A320-211, C-FKCK, San Francisco, California, 
July 7, 2017, Rpt. No. AIR-18/01, (Washington, DC: NTSB 2018).
---------------------------------------------------------------------------
    We held a Board meeting on September 25, 2018, to determine the 
probable cause of the SFO incident and to issue relevant safety 
recommendations. The Board determined that the flight crew 
misidentified a taxiway as the intended landing runway, which resulted 
from the crewmembers' lack of awareness of the parallel runway closure 
due to their ineffective review of notice to airmen (NOTAM) information 
before the flight and during the approach briefing. Contributing to the 
incident were (1) the flight crew's failure to tune the instrument 
landing system frequency for backup lateral guidance, expectation bias, 
fatigue due to circadian disruption and length of continued 
wakefulness, and breakdowns in crew resource management, and (2) Air 
Canada's ineffective presentation of approach procedure and NOTAM 
information. The Board adopted six new recommendations to the FAA. 
These recommendations include developing and requiring technology to 
alert pilots and air traffic controllers when an airplane is not 
aligned with a runway surface.\26\
---------------------------------------------------------------------------
    \26\  National Transportation Safety Board, Safety Recommendations 
A-18-025, A-18-026, and A-18-027.
---------------------------------------------------------------------------
Lithium-ion Batteries
    On July 28, 2011, a scheduled cargo flight from Incheon, Republic 
of Korea, to Shanghai, China, crashed into international waters. The 
Korean Aviation and Railway Accident Investigation Board (ARAIB) 
completed its investigation on July 24, 2015 and determined that the 
cause of this accident was a fire that developed on or near two pallets 
containing dangerous goods packages, including hybrid-electric vehicle 
lithium ion batteries and flammable liquids. The NTSB aided the ARAIB's 
investigation. Based on our participation, on February 9, 2016, we 
issued two recommendations to the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) to (1) require the physical segregation 
of lithium batteries from flammable liquid cargo and (2) establish the 
maximum loading density of lithium batteries on board an aircraft. Both 
of these recommendations are classified as ``Open--Acceptable 
Response.'' \27\
---------------------------------------------------------------------------
    \27\  National Transportation Safety Board, Safety Recommendations 
A-16-001, A-16-002.
---------------------------------------------------------------------------
    On June 3, 2016, a FedEx delivery truck was making its final 
delivery of four large, custom-designed, lithium-ion batteries to a 
Brampton, Ontario, Canada, address. The driver discovered that one of 
the large battery shipments contained a smoking package and, shortly 
after the discovery, the package burst into flames. The fire spread to 
the remaining packages in the cargo area and eventually destroyed the 
truck. The driver was not injured. The four batteries were designed and 
packaged by Braille Battery, Inc., and transported from their Florida 
facility on two FedEx cargo flights. They were then loaded onto the 
FedEx truck for final delivery when the incident occurred, 10 hours 
after they were offloaded from the second aircraft.
    Although this fire occurred in Canada, we are investigating this 
incident because the shipment involved a US air carrier and included 
lithium-ion batteries that were presumably shipped in a configuration 
that would ensure safe shipment and containment of any battery failure. 
We believe our investigative findings may have significant implications 
on current regulations addressing the safe transportation of lithium 
batteries.
             international aviation accident investigations
    The NTSB participates in the investigation of aviation accidents 
and serious incidents outside the United States in accordance with the 
Chicago Convention of the International Civil Aviation Organization 
(ICAO) and the Standards and Recommended Practices (SARPS) provided in 
Annex 13 to the Convention.\28\ If an accident or serious incident 
occurs in a foreign state involving a US-registered civil aircraft, US 
operator, or US-designed or -manufactured aircraft, and the foreign 
state is a signatory to the ICAO Convention, that state is responsible 
for the investigation and controls the release of all information 
regarding the investigation.\29\
---------------------------------------------------------------------------
    \28\  ICAO is a UN specialized agency that manages the 
administration and governance of the Convention on International Civil 
Aviation (Chicago Convention), (https://www.icao.int/about-icao/Pages/
default.aspx).
    \29\  There are 193 Member States of ICAO, including both Indonesia 
and Ethiopia, (https://www.icao.int/MemberStates/
Member%20States.English.pdf).
---------------------------------------------------------------------------
    In accordance with the ICAO Annex 13 SARPS, upon receiving a formal 
notification of the accident or serious incident that may involve 
significant issues, the NTSB may designate a US Accredited 
Representative and appoint technical advisors to assist the foreign 
investigation and facilitate the sharing of safety information. The 
advisors may include NTSB investigators with subject matter expertise, 
as well as others from US manufacturers, operators, and the FAA.
    The following are the key objectives of our participation in 
international aviation accident investigations:
    <bullet>  Identify safety deficiencies affecting US aviation 
interests
    <bullet>  Capture safety lessons learned to prevent accidents in 
the US
    <bullet>  Facilitate credible and comprehensive accident 
investigations where US interests are concerned
    Given the international nature of air transportation and the 
leading role the United States plays in developing aviation technology, 
our participation in foreign investigations is essential to enhancing 
aviation safety worldwide. In 2018, we appointed accredited 
representatives to 328 international investigations, and traveled to 
support work on 18 of those investigations.\30\
---------------------------------------------------------------------------
    \30\  The NTSB appointed an accredited representative to 206 
accidents, 98 incidents, and 24 other safety-related occurrences in 
2018. NTSB traveled in support of 9 of these accidents and 9 of the 
incidents.
---------------------------------------------------------------------------
Boeing 737 MAX Investigations--Jakarta, Indonesia, and Addis Ababa, 
        Ethiopia
    On October 29, 2018, a Boeing 737 MAX 8, operated by Lion Air, 
crashed into the Java Sea shortly after takeoff from Soekarno-Hatta 
International Airport, in Jakarta, Indonesia, killing all 189 
passengers and crew on board. The Komite Nasional Keselamatan 
Transportasi (KNKT) of Indonesia, who is leading the investigation, 
released a preliminary report on the accident on November 27, 2018.\31\ 
On March 10, 2019, a Boeing 737 MAX 8, operated by Ethiopian Airlines, 
crashed after takeoff from Addis Ababa Bole International Airport in 
Ethiopia, killing all 157 passengers and crew, including 8 American 
citizens. The investigation is being led by the Ethiopia Accident 
Investigation Bureau (AIB), which released a preliminary report on 
April 4, 2019.\32\
---------------------------------------------------------------------------
    \31\  Komite Nasional Keselamatan Transportasi, Preliminary Report 
No. KNKT.18.10.35.04.
    \32\  Ethiopia Accident Investigation Bureau, Report No. AI-01/19.
---------------------------------------------------------------------------
    Because the MAX 8 was designed and manufactured in the United 
States, in accordance with ICAO Annex 13, the United States is afforded 
the right to participate in both investigations. Accordingly, the NTSB 
appointed accredited representatives to assist in both ongoing 
investigations.
    Following last year's Lion Air crash, the NTSB immediately 
dispatched investigators to Indonesia to participate in the Indonesian 
government's investigation. An NTSB investigator was stationed onboard 
one of the search vessels during the search for the critical ``black 
boxes''--the flight data recorder (FDR) and cockpit voice recorder 
(CVR). When the CVR was recovered on January 14, 2019, the NTSB 
recalled four investigators from furlough (due to the partial 
government shutdown) to assist with properly transcribing the 
recorder's content.\33\
---------------------------------------------------------------------------
    \33\  Due to a lapse of appropriations from December 22, 2018, 
through January 25, 2019, the NTSB furloughed all investigative staff. 
In accordance with the provisions of the Anti-Deficiency Act (including 
sections 1341(a)(1)(B) and 1342 of Title 31, United States Code), 
allowable agency functions were limited to those where ``failure to 
perform those functions would result in an imminent threat to the 
safety of human life or the protection of property.'' Due to the 
potential safety issues associated with the Lion Air crash, the NTSB 
responded by recalling four investigative staff from furlough to 
participate in the CVR readout.
---------------------------------------------------------------------------
    In response to the Ethiopian Airlines crash, an NTSB team of 
investigators was dispatched to Ethiopia. Once the recovered recorders 
were sent to the Bureau d'Enquetes et d'Analyses pour la Securite de 
l'Aviation Civile, we sent recorder, flight crew operations, and human 
factors investigators to France to assist with downloading and reading 
out the recorders' contents.
    In accordance with ICAO Annex 13, technical advisors from the FAA, 
Boeing, and General Electric have accompanied NTSB investigators to the 
Lion Air and Ethiopian Airlines accident sites to provide their 
specialized technical knowledge regarding the aircraft and its systems.
    Although the NTSB is actively involved in these investigations, 
ICAO Annex 13 requires that, as the states of occurrence, Indonesia and 
Ethiopia are responsible for leading their respective investigations. 
As such, they control the release of all investigative information to 
the public related to those accidents. Annex 13 provides for other 
involved states to gain timely access to investigative information for 
the purposes of continued operational safety. As a result, NTSB 
participation in foreign accident investigations enables safety 
deficiencies to be promptly addressed by the FAA, the manufacturer, or 
the operator, as well as others deemed appropriate, and through NTSB 
safety recommendations, when needed. Because the United States is the 
state of design and certification of the aircraft involved in these 
accidents, we are examining relevant factors in the US design 
certification process to ensure any deficiencies are captured and 
addressed, including by NTSB safety recommendations, if necessary.
                  emerging transportation technologies
    Advances in technology are transforming transportation and hold 
promise for improving transportation safety, but they also pose new 
challenges. Among those advancing technologies are commercial space 
transportation and unmanned aircraft systems (UASs).
Commercial Space
    We have been involved in commercial space accident investigations 
for over 25 years, since leading the investigation of a procedural 
anomaly associated with the launch of an Orbital Sciences Corporation 
Pegasus expendable launch vehicle in 1993.\34\ Most recently, we led 
the investigation of the fatal in-flight breakup of SpaceShipTwo in 
October 2014.\35\ Foremost among the safety issues identified in the 
2014 accident was the need to consider and protect against human error 
for safe manned spaceflight, which is the responsibility of designers, 
operators, and regulators. We made recommendations to the FAA and the 
commercial spaceflight industry to establish human factors guidance for 
commercial space operators and to strengthen the FAA's evaluation 
process for experimental permit applications by promoting stronger 
collaboration between FAA technical staff and commercial space vehicle 
operators.
---------------------------------------------------------------------------
    \34\  National Transportation Safety Board, Commercial Space Launch 
Incident, Launch Procedure Anomaly, Orbital Sciences Corporation, 
Pegaus/SCD-1, Rpt. No. SIR 93/02 (Washington, DC: NTSB 1993).
    \35\  National Transportation Safety Board. In-Flight Breakup 
During Test Flight, Scaled Composites SpaceShipTwo, N339SS, Near Koehn 
Dry Lake, California, October 31, 2014, Rpt. No. AAR 15/02 (Washington, 
DC: NTSB 2015).
---------------------------------------------------------------------------
    Our work in commercial space transportation supports our broader 
mission of improving transportation safety through investigating 
accidents and serious incidents, collaborating with others to conduct 
outreach and education related to commercial space vehicles, and 
developing and disseminating accident investigation techniques in 
commercial space within the international community. To develop and 
maintain the necessary investigative expertise and tools in this 
emerging segment of transportation, we are focused on training for NTSB 
staff and continuing outreach with commercial space stakeholders.
Unmanned Aircraft Systems
    The growing number of UASs and reports of near-collisions with 
manned aircraft have raised safety concerns regarding UAS integration 
into the national airspace system. In August 2010, we revised our 14 
CFR Part 830 regulations to indicate that accident and incident 
notification requirements also apply to unmanned aircraft.\36\ An 
advisory to operators was released in July 2016 clarifying the 
reporting requirements (i.e., if there is death or serious injury, the 
aircraft weighs more than 300 pounds and sustains substantial damage, 
or other specific serious incidents occur).\37\
---------------------------------------------------------------------------
    \36\  49 CFR Sec.  830.2 (2010).
    \37\  National Transportation Safety Board, Advisory to Operators 
of Civil Unmanned Aircraft Systems in the United States, July 29, 2016.
---------------------------------------------------------------------------
    On September 21, 2017, the pilot of a US Army UH-60 helicopter 
reported an in-flight collision with a small UAS just east of Midland 
Beach, Staten Island, New York. The helicopter sustained damage to its 
main rotor blade, window frame, and transmission deck. We determined 
that the probable cause of the incident was the failure of the UAS 
pilot to see and avoid the helicopter due to his intentional flight 
beyond visual line of sight. Contributing to the incident was the UAS 
pilot's incomplete knowledge of regulations and safe operating 
practices.\38\ As the number and complexity of UAS operations continues 
to grow, it is inevitable that the number of NTSB UAS investigations 
will also increase.
---------------------------------------------------------------------------
    \38\  National Transportation Safety Board, Inflight collision of 
UAS and helicopter, Staten Island, NY.
---------------------------------------------------------------------------
    We are also using UASs as an accident investigation tool in all 
modes. The NTSB appreciates this Committee's and Congress' support of a 
provision in our 2018 reauthorization that authorized the agency to 
acquire small UASs for investigative purposes.\39\ UASs are rapidly 
becoming a standard tool in the domestic and international accident 
investigation community. Small UASs can be very rapidly deployed, which 
allows wreckage fields to be documented quickly and thoroughly when the 
accident area must be cleared expeditiously for safety or operational 
purposes. In addition, small UASs can access unique points of view 
useful to the investigator as well as areas otherwise inaccessible. 
Data collected is shared immediately within the investigative process, 
allowing investigators, managers, and support staff in distant 
locations instant access to accident site information in order to help 
focus the investigation on critical aspects of the accident.
---------------------------------------------------------------------------
    \39\  49 USC Sec.  1113(b)(1)(J) (2018).
---------------------------------------------------------------------------
                               conclusion
    Over the last decade, general aviation safety has improved and 
commercial aviation accidents have become exceedingly rare. However, 
while accidents and incidents still occur, there will always be room 
for improvement. The NTSB and staff stand ready to work with the 
Committee to continue improving the safety of our nation's aviation 
system for all users.
    Thank you again for the opportunity to be here today to discuss the 
work that the NTSB is doing to make transportation safer. I am happy to 
answer any questions.
        appendix to ntsb's testimony concerning aviation safety
Ongoing Major Part 121 Investigations (as of July 8, 2019)
    <bullet>  Southwest Flight 1380 engine failure, Philadelphia, 
Pennsylvania, April 17, 2018, one fatality, eight injuries
    <bullet>  Atlas Air Flight 3591 crash, Baytown, Texas, February 23, 
2019, three fatalities
    <bullet>  Miami Air Flight 293 departed runway, Jacksonville, 
Florida, May 3, 2019, no serious injuries
    <bullet>  United Airlines Flight 4933 missed runway, Presque Isle, 
Maine, March 4, 2019, three minor injuries
Ongoing Major Part 135 investigations (as of July 8, 2019)
    <bullet>  Taquan Air scheduled commuter flight crash, Metlakatla, 
Alaska, May 20, 2019, two fatalities
    <bullet>  Mid-air collision of sightseeing flights, Ketchikan, 
Alaska, May 13, 2019, six fatalities and nine serious injuries
    <bullet>  Novictor Aviation sightseeing flight crash, Kailua, 
Hawaii, April 29, 2019, three fatalities
    <bullet>  K2 Aviation sightseeing flight crash, Talkeetna, Alaska, 
August 4, 2018, five fatalities
Ongoing Major Part 91 investigations with paying passengers (as of July 
        8, 2019)
    <bullet>  Oahu Parachute Center skydiving flight crash, Mokuleia, 
Hawaii, June 21, 2019, 11 fatalities
    <bullet>  The Jumping Place Skydiving Center skydiving flight 
crash, Swainsboro, Georgia, August 25, 2018, four fatalities
    <bullet>  FlyNYON sightseeing flight crash, New York City, New 
York, March 11, 2018, five fatalities, one injury

------------------------------------------------------------------------
  Safety Recommendations to the Federal Aviation Administration on the
 Most Wanted List-- Improve Safety of Part 135 Flight Operations (as of
                              July 8, 2019)
-------------------------------------------------------------------------
                                                           Safety
      Number            Date Issued       Status       Recommendation
------------------------------------------------------------------------
         A-07-018             2/27/07   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION: In
                                                     cooperation with
                                                     Hawaii commercial
                                                     air tour operators,
                                                     aviation
                                                     psychologists, and
                                                     meteorologists,
                                                     among others,
                                                     develop a cue-based
                                                     training program
                                                     for commercial air
                                                     tour pilots in
                                                     Hawaii that
                                                     specifically
                                                     addresses hazardous
                                                     aspects of local
                                                     weather phenomena
                                                     and in-flight
                                                     decision-making.
------------------------------------------------------------------------
         A-07-019             2/27/07   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Once a cue-based
                                                     training program
                                                     that specifically
                                                     addresses hazardous
                                                     aspects of local
                                                     weather phenomena
                                                     and weather-
                                                     related, decision-
                                                     making issues is
                                                     developed (as
                                                     requested in Safety
                                                     Recommendation A-07-
                                                     18), require all
                                                     commercial air tour
                                                     operators in Hawaii
                                                     to provide this
                                                     training to newly
                                                     hired pilots.
------------------------------------------------------------------------
         A-07-112            12/21/07   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Ensure that the
                                                     minimum equipment
                                                     lists for
                                                     helicopters used in
                                                     helicopter
                                                     emergency medical
                                                     services operations
                                                     require that radar
                                                     altimeters be
                                                     operable during
                                                     flights conducted
                                                     at night.
------------------------------------------------------------------------
         A-09-092             9/24/09   Closed--    TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Action       ADMINISTRATION:
                                                     Permit the
                                                     helicopter
                                                     emergency medical
                                                     services (HEMS)
                                                     Aviation Digital
                                                     Data Service
                                                     Weather Tool to be
                                                     used by HEMS
                                                     operators as an
                                                     official weather
                                                     product.
------------------------------------------------------------------------
         A-10-029             2/23/10   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Require 14 Code of
                                                     Federal Regulations
                                                     Part 121, 135, and
                                                     91K operators to
                                                     (1) routinely
                                                     download and
                                                     analyze all
                                                     available sources
                                                     of safety
                                                     information, as
                                                     part of their
                                                     flight operational
                                                     quality assurance
                                                     program, to
                                                     identify deviations
                                                     from established
                                                     norms and
                                                     procedures; (2)
                                                     provide appropriate
                                                     protections to
                                                     ensure the
                                                     confidentiality of
                                                     the deidentified
                                                     aggregate data; and
                                                     (3) ensure that
                                                     this information is
                                                     used for safety-
                                                     related and not
                                                     punitive purposes.
------------------------------------------------------------------------
         A-13-012              5/6/13   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Require the
                                                     installation of a
                                                     crash-resistant
                                                     flight recorder
                                                     system on all newly
                                                     manufactured
                                                     turbine-powered,
                                                     nonexperimental,
                                                     nonrestricted-
                                                     category aircraft
                                                     that are not
                                                     equipped with a
                                                     flight data
                                                     recorder and a
                                                     cockpit voice
                                                     recorder and are
                                                     operating under 14
                                                     Code of Federal
                                                     Regulations Parts
                                                     91, 121, or 135.
                                                     The crash-resistant
                                                     flight recorder
                                                     system should
                                                     record cockpit
                                                     audio and images
                                                     with a view of the
                                                     cockpit environment
                                                     to include as much
                                                     of the outside view
                                                     as possible, and
                                                     parametric data per
                                                     aircraft and system
                                                     installation, all
                                                     as specified in
                                                     Technical Standard
                                                     Order C197,
                                                     ``Information
                                                     Collection and
                                                     Monitoring
                                                     Systems.''
------------------------------------------------------------------------
         A-13-013              5/6/13   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Require all
                                                     existing turbine-
                                                     powered,
                                                     nonexperimental,
                                                     nonrestricted-
                                                     category aircraft
                                                     that are not
                                                     equipped with a
                                                     flight data
                                                     recorder or cockpit
                                                     voice recorder and
                                                     are operating under
                                                     14 Code of Federal
                                                     Regulations Parts
                                                     91, 121, or 135 to
                                                     be retrofitted with
                                                     a crash-resistant
                                                     flight recorder
                                                     system. The crash-
                                                     resistant flight
                                                     recorder system
                                                     should record
                                                     cockpit audio and
                                                     images with a view
                                                     of the cockpit
                                                     environment to
                                                     include as much of
                                                     the outside view as
                                                     possible, and
                                                     parametric data per
                                                     aircraft and system
                                                     installation, all
                                                     as specified in
                                                     Technical Standard
                                                     Order C197,
                                                     ``Information
                                                     Collection and
                                                     Monitoring
                                                     Systems.''
------------------------------------------------------------------------
         A-15-007             1/22/15   Open--      TO THE FEDERAL
                                        Unacceptab   AVIATION
                                         le          ADMINISTRATION:
                                        Response     Require that all
                                                     existing aircraft
                                                     operated under
                                                     Title 14 Code of
                                                     Federal Regulations
                                                     (CFR) Part 121 or
                                                     135 and currently
                                                     required to have a
                                                     cockpit voice
                                                     recorder and a
                                                     flight data
                                                     recorder be
                                                     retrofitted with a
                                                     crash-protected
                                                     cockpit image
                                                     recording system
                                                     compliant with
                                                     Technical Standard
                                                     Order TSO-C176a,
                                                     ``Cockpit Image
                                                     Recorder
                                                     Equipment,'' TSO-
                                                     C176a or
                                                     equivalent. The
                                                     cockpit image
                                                     recorder should be
                                                     equipped with an
                                                     independent power
                                                     source consistent
                                                     with that required
                                                     for cockpit voice
                                                     recorders in 14 CFR
                                                     25.1457.
                                                     (Supersedes Safety
                                                     Recommendation A-00-
                                                     30)
------------------------------------------------------------------------
         A-15-008             1/22/15   Open--      TO THE FEDERAL
                                        Unacceptab   AVIATION
                                         le          ADMINISTRATION:
                                        Response     Require that all
                                                     newly manufactured
                                                     aircraft operated
                                                     under Title 14 Code
                                                     of Federal
                                                     Regulations (CFR)
                                                     Part 121 or 135 and
                                                     required to have a
                                                     cockpit voice
                                                     recorder and a
                                                     flight data
                                                     recorder also be
                                                     equipped with a
                                                     crash-protected
                                                     cockpit image
                                                     recording system
                                                     compliant with
                                                     Technical Standard
                                                     Order TSO-C176a,
                                                     ``Cockpit Image
                                                     Recorder
                                                     Equipment,'' or
                                                     equivalent. The
                                                     cockpit image
                                                     recorder should be
                                                     equipped with an
                                                     independent power
                                                     source consistent
                                                     with that required
                                                     for cockpit voice
                                                     recorders in 14 CFR
                                                     25.1457.
                                                     (Supersedes Safety
                                                     Recommendation A-00-
                                                     31)
------------------------------------------------------------------------
         A-16-034             11/7/16   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Require all 14 Code
                                                     of Federal
                                                     Regulations Part
                                                     135 operators to
                                                     install flight data
                                                     recording devices
                                                     capable of
                                                     supporting a flight
                                                     data monitoring
                                                     program.
------------------------------------------------------------------------
         A-16-035             11/7/16   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     After the action in
                                                     Safety
                                                     Recommendation A-16-
                                                     34 is completed,
                                                     require all 14 Code
                                                     of Federal
                                                     Regulations Part
                                                     135 operators to
                                                     establish a
                                                     structured flight
                                                     data monitoring
                                                     program that
                                                     reviews all
                                                     available data
                                                     sources to identify
                                                     deviations from
                                                     established norms
                                                     and procedures and
                                                     other potential
                                                     safety issues.
------------------------------------------------------------------------
         A-16-036             11/7/16   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Require all 14 Code
                                                     of Federal
                                                     Regulations Part
                                                     135 operators to
                                                     establish safety
                                                     management system
                                                     programs.
------------------------------------------------------------------------
         A-17-035              5/9/17   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Implement ways to
                                                     provide effective
                                                     terrain awareness
                                                     and warning system
                                                     (TAWS) protections
                                                     while mitigating
                                                     nuisance alerts for
                                                     single-engine
                                                     airplanes operated
                                                     under 14 Code of
                                                     Federal Regulations
                                                     Part 135 that
                                                     frequently operate
                                                     at altitudes below
                                                     their respective
                                                     TAWS class design
                                                     alerting threshold.
------------------------------------------------------------------------
         A-17-037              5/9/17   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Work with members
                                                     of the Ketchikan
                                                     air tour industry
                                                     to improve existing
                                                     training programs
                                                     aimed at reducing
                                                     the risk of weather-
                                                     related accidents
                                                     involving
                                                     continuation of
                                                     flight under visual
                                                     flight rules into
                                                     instrument
                                                     meteorological
                                                     conditions, with
                                                     special attention
                                                     paid to the human
                                                     factors issues
                                                     identified in this
                                                     investigation,
                                                     including (1) the
                                                     need to help pilots
                                                     better calibrate
                                                     what constitutes
                                                     safe weather
                                                     conditions to
                                                     conduct flights
                                                     based on objective
                                                     standards and
                                                     requirements, such
                                                     as set criteria for
                                                     what landmarks must
                                                     be clearly visible
                                                     from which
                                                     locations in order
                                                     to proceed on a
                                                     particular route;
                                                     (2) the need to
                                                     help pilots who are
                                                     new to the area
                                                     recognize dynamic
                                                     local weather
                                                     patterns that can
                                                     place them in a
                                                     dangerous
                                                     situation; and (3)
                                                     operational
                                                     influences on pilot
                                                     decision-making.
------------------------------------------------------------------------
         A-17-038              5/9/17   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Expand the
                                                     application of
                                                     Federal Aviation
                                                     Administration
                                                     Order 8900.1,
                                                     volume 3, chapter
                                                     19, section 6,
                                                     ``Safety Assurance
                                                     System: Flight
                                                     Training Curriculum
                                                     Segments,''
                                                     paragraphs 3-
                                                     1251(B) and 3-1252,
                                                     which address
                                                     controlled flight
                                                     into terrain-
                                                     avoidance training
                                                     programs for 14
                                                     Code of Federal
                                                     Regulations (CFR)
                                                     Part 135 helicopter
                                                     operations, to all
                                                     14 CFR Part 135
                                                     operations.
------------------------------------------------------------------------
         A-17-042              5/9/17   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Analyze automatic
                                                     dependent
                                                     surveillance-
                                                     broadcast data from
                                                     Ketchikan air tour
                                                     operations on an
                                                     ongoing basis and
                                                     meet annually with
                                                     Ketchikan air tour
                                                     operators to engage
                                                     in a nonpunitive
                                                     discussion of any
                                                     operational hazards
                                                     reflected in the
                                                     data and
                                                     collaborate on
                                                     mitigation
                                                     strategies for any
                                                     hazards identified.
------------------------------------------------------------------------
         A-17-043              5/9/17   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Develop and
                                                     implement special
                                                     operating rules for
                                                     the Ketchikan air
                                                     tour industry that
                                                     include en route
                                                     visual flight rules
                                                     weather minimums
                                                     that are tailored
                                                     to the industry's
                                                     unique requirements
                                                     and are more
                                                     conservative than
                                                     those specified in
                                                     14 Code of Federal
                                                     Regulations Part
                                                     135.
------------------------------------------------------------------------
         A-18-013             4/26/18   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Although controlled
                                                     flight into terrain
                                                     (CFIT)-avoidance
                                                     training programs
                                                     are not required by
                                                     federal regulation
                                                     for Title 14 Code
                                                     of Federal
                                                     Regulations Part
                                                     135 fixed-wing
                                                     operations, work
                                                     with Part 135
                                                     operators in Alaska
                                                     to improve any
                                                     voluntarily
                                                     implemented
                                                     training programs
                                                     aimed at reducing
                                                     the risk of CFIT
                                                     accidents involving
                                                     continuation of
                                                     flight under visual
                                                     flight rules (VFR)
                                                     into instrument
                                                     meteorological
                                                     conditions, with
                                                     special attention
                                                     paid to the human
                                                     factors issues
                                                     identified in
                                                     recent Alaska
                                                     accident
                                                     investigations,
                                                     including, but not
                                                     limited to, (1) the
                                                     challenges of
                                                     flying in
                                                     mountainous terrain
                                                     in Alaska and low-
                                                     altitude VFR flight
                                                     in an area subject
                                                     to rapid changes in
                                                     weather; and (2)
                                                     limitations of the
                                                     Alaska
                                                     infrastructure,
                                                     particularly
                                                     weather
                                                     observations,
                                                     communications, and
                                                     navigation aids.
------------------------------------------------------------------------
         A-18-014             4/26/18   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Work with Title 14
                                                     Code of Federal
                                                     Regulations Part
                                                     135 certificate
                                                     holders that
                                                     operate under
                                                     visual flight rules
                                                     in the aircraft's
                                                     required terrain
                                                     awareness and
                                                     warning system
                                                     (TAWS) class to (1)
                                                     ensure that
                                                     management and
                                                     pilots are aware of
                                                     the risks
                                                     associated with
                                                     distraction (from
                                                     continuous nuisance
                                                     alerts) and
                                                     complacency
                                                     (brought about by
                                                     routine use of the
                                                     terrain inhibit
                                                     feature); (2)
                                                     develop plans for
                                                     mitigating those
                                                     risks and
                                                     minimizing nuisance
                                                     alerts; and (3)
                                                     develop procedures
                                                     that specifically
                                                     address when pilots
                                                     should test,
                                                     inhibit, and
                                                     uninhibit the TAWS
                                                     alerts, considering
                                                     the operator's
                                                     typical operations
                                                     and the TAWS
                                                     manufacturer's
                                                     guidance.
------------------------------------------------------------------------
         A-18-016             4/26/18   Open--      TO THE FEDERAL
                                        Await        AVIATION
                                        Response     ADMINISTRATION:
                                                     Install
                                                     communications
                                                     equipment
                                                     throughout Alaska,
                                                     after determining
                                                     what would be most
                                                     effective, to allow
                                                     increased access to
                                                     the instrument
                                                     flight rules
                                                     system, giving
                                                     priority to those
                                                     areas used by Title
                                                     14 Code of Federal
                                                     Regulations Part
                                                     135 operators.
------------------------------------------------------------------------
         A-18-017             4/26/18   Open--      TO THE FEDERAL
                                        Await        AVIATION
                                        Response     ADMINISTRATION:
                                                     Ensure that Alaska
                                                     airports that are
                                                     served by Title 14
                                                     Code of Federal
                                                     Regulations (CFR)
                                                     Part 135 operators
                                                     and have instrument
                                                     approaches are
                                                     equipped with
                                                     weather-reporting
                                                     capabilities to
                                                     enable instrument
                                                     flight rules
                                                     operations in
                                                     accordance with 14
                                                     CFR 135.225(a).
------------------------------------------------------------------------


------------------------------------------------------------------------
  Safety Recommendations to the Federal Aviation Administration on the
Most Wanted List-- Reduce Fatigue Related Accidents (as of July 8, 2019)
-------------------------------------------------------------------------
                                                           Safety
      Number            Date Issued       Status       Recommendation
------------------------------------------------------------------------
         A-13-003              3/1/13   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Alternate    ADMINISTRATION:
                                        Response     Require that
                                                     personnel
                                                     performing
                                                     maintenance or
                                                     inspections under
                                                     14 Code of Federal
                                                     Regulations Parts
                                                     121, 135, 145, and
                                                     91 Subpart K
                                                     receive initial and
                                                     recurrent training
                                                     on human factors
                                                     affecting
                                                     maintenance that
                                                     includes a review
                                                     of the causes of
                                                     human error,
                                                     including fatigue,
                                                     its effects on
                                                     performance, and
                                                     actions individuals
                                                     can take to prevent
                                                     the development of
                                                     fatigue.
------------------------------------------------------------------------
         A-14-072             9/25/14   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Require principal
                                                     operations
                                                     inspectors to
                                                     ensure that
                                                     operators with
                                                     flight crews
                                                     performing 14 Code
                                                     of Federal
                                                     Regulations Part
                                                     121, 135, and 91
                                                     subpart K overnight
                                                     operations brief
                                                     the threat of
                                                     fatigue before each
                                                     departure,
                                                     particularly those
                                                     occurring during
                                                     the window of
                                                     circadian low.
------------------------------------------------------------------------
         A-94-194            11/30/94   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Revise the Federal
                                                     Aviation
                                                     Regulations
                                                     contained in 14 CFR
                                                     Part 135 to require
                                                     that pilot flight
                                                     time accumulated in
                                                     all company flying
                                                     conducted after
                                                     revenue operations--
                                                     such as training
                                                     and check flights,
                                                     ferry flights and
                                                     repositioning
                                                     flights--be
                                                     included in the
                                                     crewmember's total
                                                     flight time accrued
                                                     during revenue
                                                     operations.
------------------------------------------------------------------------
         A-95-113            11/14/95   Open--      TO THE FEDERAL
                                        Acceptable   AVIATION
                                        Response     ADMINISTRATION:
                                                     Finalize the review
                                                     of current flight
                                                     and duty time
                                                     regulations and
                                                     revise the
                                                     regulations, as
                                                     necessary, within 1
                                                     year to ensure that
                                                     flight and duty
                                                     time limitations
                                                     take into
                                                     consideration
                                                     research findings
                                                     in fatigue and
                                                     sleep issues. The
                                                     new regulations
                                                     should prohibit air
                                                     carriers from
                                                     assigning flight
                                                     crews to flights
                                                     conducted under 14
                                                     Code of Federal
                                                     Regulations (CFR)
                                                     Part 91 unless the
                                                     flight crews meet
                                                     the flight and duty
                                                     time limitations of
                                                     14 CFR Part 121 or
                                                     other appropriate
                                                     regulations.
------------------------------------------------------------------------


------------------------------------------------------------------------
  Safety Recommendations to the Federal Aviation Administration on the
  Most Wanted List-- Increase Occupant Protection (as of July 8, 2019)
-------------------------------------------------------------------------
                                          Overall           Safety
      Number            Date Issued        Status       Recommendation
------------------------------------------------------------------------
         A-15-012             7/23/15   Open--       TO THE FEDERAL
                                        Acceptable    AVIATION
                                        Response      ADMINISTRATION:
                                                      Require, for all
                                                      newly manufactured
                                                      rotorcraft
                                                      regardless of the
                                                      design's original
                                                      certification
                                                      date, that the
                                                      fuel systems meet
                                                      the
                                                      crashworthiness
                                                      requirements of 14
                                                      Code of Federal
                                                      Regulations 27.952
                                                      or 29.952, ``Fuel
                                                      System Crash
                                                      Resistance.''
------------------------------------------------------------------------
         A-16-025             10/6/16   Open--       TO THE FEDERAL
                                        Acceptable    AVIATION
                                        Response      ADMINISTRATION:
                                                      Require 14 Code of
                                                      Federal
                                                      Regulations Part
                                                      121 operators to
                                                      provide (1)
                                                      guidance that
                                                      instructs flight
                                                      attendants to
                                                      remain at their
                                                      assigned exits and
                                                      actively monitor
                                                      exit availability
                                                      in all non-normal
                                                      situations in case
                                                      an evacuation is
                                                      necessary and (2)
                                                      flight attendant
                                                      training programs
                                                      that include
                                                      scenarios
                                                      requiring crew
                                                      coordination
                                                      regarding active
                                                      monitoring of exit
                                                      availability and
                                                      evacuating after a
                                                      significant event
                                                      that involves a
                                                      loss of
                                                      communications.
------------------------------------------------------------------------
         A-16-026             10/6/16   Open--       TO THE FEDERAL
                                        Unacceptabl   AVIATION
                                         e            ADMINISTRATION:
                                        Response      Develop best
                                                      practices related
                                                      to evacuation
                                                      communication,
                                                      coordination, and
                                                      decision-making
                                                      during emergencies
                                                      through the
                                                      establishment of
                                                      an industry
                                                      working group and
                                                      then issue
                                                      guidance for 14
                                                      Code of Federal
                                                      Regulations Part
                                                      121 air carriers
                                                      to use to improve
                                                      flight and cabin
                                                      crew performance
                                                      during
                                                      evacuations.
------------------------------------------------------------------------
         A-18-009              2/6/18   Open--       TO THE FEDERAL
                                        Acceptable    AVIATION
                                        Response      ADMINISTRATION:
                                                      Conduct research
                                                      to (1) measure and
                                                      evaluate the
                                                      effects of carry-
                                                      on baggage on
                                                      passenger
                                                      deplaning times
                                                      and safety during
                                                      an emergency
                                                      evacuation and (2)
                                                      identify effective
                                                      countermeasures to
                                                      reduce any
                                                      determined risks,
                                                      and implement the
                                                      countermeasures.
------------------------------------------------------------------------


    Mr. Larsen. Thank you very much.
    Captain DePete, you are recognized for 5 minutes.
    Mr. DePete. Yes, good morning.
    Thank you, Chairman DeFazio, from the full committee, and 
Ranking Member Graves, Sam Graves, and also Chairman Larsen and 
Ranking Member Garret Graves, and the subcommittee members.
    On behalf of the 62,000 pilots that I represent at 34 
airlines in the United States and Canada, I wish to express our 
sincere condolences to the loved ones of the victims of the 
Ethiopian Airlines and Lion Air accidents. We cannot know the 
depth of your grief. But we can share in your determination to 
leave a legacy of safety improvements for those you have lost.
    As a 40-year pilot, the highest standards of safety have 
been at the forefront of my flying career. As president of the 
Air Line Pilots Association, the world's largest 
nongovernmental aviation safety organization, I can tell you 
that all pilots, all airline pilots, share this dedication.
    While airline accidents are rare, even one fatal accident 
is one too many. Over the years, ALPA has helped develop an 
investigation process to identify all of the contributing 
factors, evaluate needed changes, and most importantly, 
implement those changes to improve safety.
    The results include the first officer qualification 
experience and training requirements that emerged from the 
Colgan 3407 investigation. These requirements are a major 
reason why the U.S. industry has not experienced a pilot 
training or operational related fatality on a U.S. passenger 
airline in more than 10 years. And this is why ALPA has called 
upon the International Civil Aviation Organization to set 
global pilot standards.
    But incredibly, even when safety improvements like these 
are codified in law, thanks to many of you here in this room 
today, some still seek to undermine them.
    While we have made strides, we have more to do. ALPA will 
continue to help identify improvements, not only during these 
investigations, but also in the long term, through the 
industry's risk predictive, data-driven approach to enhancing 
safety.
    We will never stop fighting against those who put profits 
before the safety of our passengers, cargo, and crew.
    Our safety commitment means that ALPA will be fully 
involved in understanding what went wrong and evaluating how to 
move forward with the Boeing 737 MAX once the FAA final review 
is complete.
    We have made clear that questions must be answered in the 
areas of oversight, aircraft certification, and delegation of 
authority. ALPA will work tirelessly to ensure that industry 
and Government make the changes necessary to safeguard our 
system.
    Equally important, our industry must be more determined 
than ever to prevail against special interests that would have 
us ignore the lessons from the past.
    For example, we must deliver on Congress' intent to install 
secondary flight deck barriers on all newly manufactured 
passenger aircraft, a lesson we all learned from the 9/11 
Report.
    And we still have work to do to achieve one level of 
aviation safety by applying science-based flight duty and rest 
requirements to pilots, like myself, who fly cargo, and 
mandating intrusion-resistant flight deck doors on cargo 
aircraft.
    Likewise, our industry must continue to make improvements 
to safeguard the shipment of dangerous goods and lithium 
batteries and eliminate shipments of undeclared dangerous 
goods.
    Today, ALPA released a new report that lays out the 
indisputable safety benefits of the presence of at least two 
fully qualified, adequately rested, and highly trained pilots 
on the flight deck. We know, as do our passengers, that the 
presence of at least two pilots on board our airliners not only 
contributes to a proactive, risk predictive safety culture, it 
is the reason why U.S. air transportation is so safe today.
    The importance of a strong safety culture is one reason 
that ALPA opposes allowing foreign airlines with flag of 
convenience business models to serve the United States. These 
schemes create an unstable work environment for employees that 
can discourage proactive safety reporting.
    I commend Chair DeFazio, Aviation Subcommittee Chair 
Larsen, Vice Chair Davids and Representative Davis, and this 
subcommittee for supporting legislation to enable the 
Department of Transportation to determine whether airlines 
using these harmful business practices should fly to the United 
States.
    The House included a similar provision in the recent FAA 
reauthorization, and I hope the Fair and Open Skies Act will 
move quickly.
    And to finish, as pilots, our priority is always safety. We 
make certain our industry learns from the tragedies we see and 
we make improvements. Whether it is the decision on the return 
to service of the Boeing 737 MAX or to take off on every 
flight, it is safe to fly when the pilots in command say it is.
    Thank you for giving me the opportunity to speak to you all 
today. Thank you.
    [Mr. DePete's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Captain Joseph G. DePete, President, Air Line 
                   Pilots Association, International
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on the State of Aviation Safety. On behalf of 
the world's largest non-governmental aviation safety organization, I 
can report that the view from the flight deck is that the state of 
safety in our skies remains sound. However, it is our organization's 
top priority to stay focused on continual improvement and judicious 
oversight to ensure that air travel is as safe as humanly possible.
    The Air Line Pilots Association, International (ALPA), represents 
more than 62,000 professional airline pilots flying for 35 airlines in 
the United States and Canada. ALPA is the world's largest pilot union. 
We are the recognized voice of the airline piloting profession in North 
America, with a history of safety and security advocacy spanning more 
than 85 years. As the sole U.S. member of the International Federation 
of Airline Pilots Associations (IFALPA), ALPA has the unique ability to 
provide active airline pilot expertise to aviation safety issues 
worldwide, and to incorporate an international dimension to safety 
advocacy.
    The pilots of ALPA express our deepest condolences to the families 
and loved ones of the victims of both the Ethiopian Airlines Flight 302 
and Lion Air Flight 610 accidents. We cannot know the depth of the 
grief that they feel, but we can share in their determination to leave 
a legacy of a safer air transportation system for those they lost.
    As a 40-year airline pilot, achieving the highest standards of 
safety has been a personal commitment throughout my career. As the 
president of ALPA, the world's largest nongovernment aviation safety 
organization, I can tell you that all airline pilots share my 
dedication to advancing aviation safety and that safety has been the 
foundation of ALPA's work for more than 85 years. In fact, across town 
this week, we are hosting our 65th annual Air Safety Forum where we 
facilitate discussion between regulators, pilots and other safety 
experts and stakeholders on critical safety and security issues.
    While aviation accidents are increasingly rare, ALPA has advocated 
and helped develop a forensic approach to accident investigation 
designed to identify every factor involved in an airline accident and 
develop corrective actions to address them, with the sole goal of 
preventing similar accidents from occurring in the future. In the U.S. 
airline industry, we collect data, evaluate it, identify mitigations, 
and implement them to make a safe system even safer.
    Because of this commitment, ALPA is fully informed and involved in 
efforts to bring the Boeing 737 MAX safely back into service following 
the completion of the current U.S. Federal Aviation Administration 
(FAA) process. I have led our Air Safety Organization pilots and staff 
in contacting all appropriate regulatory authorities and stakeholders 
in the United States, Canada, and across the globe.
    ALPA has offered our airline pilot perspective on the issues 
related to the accidents, including the process and procedures used to 
certify aircraft in the United States. We have been in communication 
with Boeing, the FAA, the National Transportation Safety Board, 
airlines, as well as with the U.S. Department of Transportation Special 
Committee.
    So to the families and loved ones who are here today, I can assure 
you that the 62,000 pilots of ALPA resolve to be vigilant in ensuring 
that the Department of Transportation and the FAA make any and all 
changes necessary to enhance the safety of our air transportation 
system. You have my word.
                                overview
    Based on current statistics, 14 Code of Federal Regulations (CFR) 
Part 121 airlines carry approximately 900 million passengers and 18 
million tons of cargo annually. U.S. passenger airlines operated under 
14 CFR Part 121 have had one passenger fatality resulting from an 
accident since 2009. This safety record is due to the efforts of the 
aviation industry and our government partners but also due to the 
efforts of Congress and this Committee, in particular. During the 20 
years prior to the passage of the Aviation Safety and Federal Aviation 
Administration (FAA) Reauthorization Act of 2010, the U.S. passenger 
airline industry lost approximately 1,100 passengers in aircraft 
accidents. Since the passage of that bill there has not been a single 
passenger fatality due to ``pilot error.''
    Strikingly, since 2009, there have been 93 fatal passenger airline 
accidents around the rest of world, which includes more than 4,700 
fatalities. The United States passenger airline record is truly 
remarkable. For that reason, we believe that the most important work 
this Committee can accomplish is to ensure the United States maintains 
the highest safety levels in the world and continues to lead by example 
in all areas of aviation including aircraft certification, flight crew 
training and licensing, crew-duty and rest requirements, airport design 
standards, the safe introduction of new entrants, safety data analysis, 
and many other areas. This comprehensive safety mindset allows 
passengers to board a 14 CFR Part 121 passenger airline and know, with 
a very high degree of confidence , that they will get there safely. 
From day one in 1931, ALPA has maintained our motto of ``schedule with 
safety.'' It hasn't changed; safety is still our top priority.
    This Committee's continued focus on safety is to be commended, and 
we thank you for using your time and resources--including today--to 
shine a spotlight on safety. Unless we keep airline safety the top 
priority, we risk digression and an increase in accidents, which impact 
our ability to make progress on other important aspects of aviation 
such as investments in increasing airspace capacity and the 
introduction of new types of aviation and space operations into the 
National Airspace System.
                   faa reauthorization implementation
    In October 5, 2018, the Federal Aviation Administration 
Reauthorization Act of 2018 became law (P.L. 115-254). The members of 
this Committee demonstrated significant leadership to ensure that the 
legislation ultimately became law, and you are to be commended for your 
efforts to advance aviation safety. This law, if enacted appropriately 
and as Congress intended, will improve the air transportation system 
for years to come.
   retention of congressionally mandated first officer qualifications
    In 2018, Congress retained the current airline pilot training and 
qualification requirements that are the law of the land. ALPA was 
pleased with both this Committee and Congress for making this life-
saving, and wise decision. The best and most important safety feature 
of any airline operation is at least two skilled, well trained, fully 
qualified, highly experienced, and adequately rested professional 
flight crew members. With a solid foundation of training and 
experience, pilots are essential in maintaining the safety of our 
system and ensuring that aviation safety continues to advance. Several 
regional airline accidents from 2004 to 2009 identified numerous 
training and qualification deficiencies that ultimately led to 
Congressional action and regulatory changes that significantly improved 
airline safety. The last of these accidents occurred February 12, 2009, 
near Buffalo, N.Y. Fifty lives were lost--49 in the aircraft and one on 
the ground. This accident was a ``watershed event'' for the airline 
industry and aviation safety by resulting in regulations that enhanced 
pilot training, qualification, flight experience requirements, and the 
implementation of science-based flight, duty, and rest requirements.
    The pilot training and qualifications regulations specifically 
require that all airline pilots flying under 14 CFR Part 121 must hold 
the air transport pilot (ATP) or Restricted ATP (R-ATP) certificate. 
The restricted R-ATP certificate pathway, can be obtained with fewer 
flight hours than the ATP, if the pilot applicant receives integrated 
academic and flight training from the military or an accredited 
aviation college or university.
    Today's training and qualification regulations emphasize 
significantly greater focus on academics and instruction, areas of 
knowledge, and flight experience in various weather and operational 
situations. The rules also require a type rating in the aircraft to be 
flown for the airline if operated in 14 CFR Part 121 service and 
increased experience in multi-engine aircraft. among other numerous 
safety improvements. The FAA made a specific mention of the importance 
of academic training when it published the final rule, and how the 
accredited academics along with ground and flight training was 
necessary to qualify for a reduction in hours. We applaud this 
Committee for its leadership in preserving the training and 
qualifications requirements last year and urge you to continue to do 
so. We are confident that lives have been and are being saved because 
of your steadfastness on this issue.
              safety regulations vs. bad airline economics
    Despite the clear message sent by Congress in 2018, there are some 
people and organizations who want to address business-related industry 
issues by reducing the requirements currently in place to obtain an ATP 
or a R-ATP. These changes would weaken the First Officer Qualification 
(FOQ) rules. They believe that rolling back provisions in P.L. 111-216 
is the best way to fix their business challenges by widening the 
employment pool. We do not believe that those who are advocating for 
such measures are properly representing the issue of pilot 
availability, which is not pilot qualifications requirements, but an 
airline's attractiveness to the pilot community as an employer.
    It is somewhat ironic that some who originally called for the 
changes in P.L. 111-216 have since become critical of the rules, 
arguing that the First Officer Qualifications have created a pilot 
shortage. Small communities which have experienced changes to the 
levels of airline services are also citing a pilot shortage. However, 
in both cases, there is no reliable data to support these positions 
and, in fact, the data says just the opposite.
    In 2018, the FAA reported that it had issued 5,788 ATP 
certificates, which includes 1,762 R-ATP certificates. Our research 
revealed that the airlines hired approximately 4,600 pilots in 2018, 
which is considerably fewer than the number of pilots who became 
qualified to fly for the airlines that year. In fact, the number of ATP 
certificates issued by the FAA has been higher than the number of 
airline pilots hired for multiple years in a row. Clearly, the supply 
of pilots is currently keeping up with the demands. But we realize that 
as the industry expands, more pilots will be needed. ALPA continues to 
promote the pilot profession far and wide, as a career of choice for 
men and women who enjoy all the benefits that the career has to offer.
           pilot experience before airline flying is critical
    The length of time from when a pilot obtains his or her commercial 
pilots license to when they have accumulated the hours and flight 
experience necessary to qualify for the ATP or R-ATP certificate is 
measured in months, not years or decades. Pilots who graduate from an 
accredited, structured university and are qualified for the R-ATP 
pathway can currently expect to spend 12 months or less flying in entry 
level commercial operations or flight instruction before transitioning 
to an airline.
    Some regional airlines would like pilots to come pre-programmed 
directly from a flight training environment that is directly similar to 
the flying environment of that specific carrier's, without having to 
make any training adjustments. While accredited universities produce 
pilots with the fundamental skills and knowledge to obtain a commercial 
pilot certificate, pilots who bring a more holistic, real-world set of 
skills, including training in a variety of weather, terrain, and air 
traffic control environments is beneficial. In our view, this 
versatility of experience far outweighs a small amount of airline 
training that is specified to mold the pilot into a single airline's 
operation.
    It is important to note that airlines do not provide training to 
pilots (or allow them to take aircraft out to practice) so that they 
can obtain experience in factors such as weather (e.g., thunderstorms, 
snow, tropical storms), terrain (e.g., high altitude, mountain flying), 
and high-density air traffic (e.g., New York City and Los Angeles 
metroplex). Today's flight simulation environment cannot adequately 
replicate these factors. Therefore, it is critical for pilots to obtain 
flight time and experience in entry-level commercial operations after 
they have obtained the commercial pilots license, but before being 
inserted into the higher demands of 14 CFR Part 121 airline operating 
environment so they are equipped with real-world flying experience. The 
FAA wisely recognized that a military pilot background, or the 
combination of an accredited university, structured FAA approved flight 
training, and some commercial piloting experience in pre-airline 
commercial operations was the best and safest training pathway to fully 
address the shortcomings identified from fatal passenger airline 
accidents.
      taking the first officer qualifications requirements to icao
    Soon after Congress passed the FAA Reauthorization Act of 2018 
without making changes to the first officer qualifications regulations, 
ALPA began to take stock of the training and experience requirements 
beyond our borders. In coordination with IFALPA, we have tracked pilot 
training and qualifications globally for years. It is clear that in 
nearly every other country, the training and minimum flight experience 
requirements to qualify as a flight crew member on a transport category 
airliner is less than the U.S., and in some cases, much less. And the 
non-U.S. global accident rate shows that. Based on the safety record 
that the U.S. has achieved under the current training and 
qualifications framework, and knowing that global airline safety levels 
could be positively impacted by a review of the pilot training and 
qualification standards, ALPA recently asked ICAO Secretary General 
Fang Liu to evaluate the need for review of the global minimum training 
and qualifications.
    In response, Secretary Liu called an ad-hoc meeting at ICAO to 
discuss this topic, which was held this month at ICAO headquarters in 
Montreal. The IFALPA attendees reported that the discussion was robust, 
and it is clear this issue will garner additional discussion at ICAO in 
the near future.
           promoting the profession and increasing diversity
    ALPA continues to promote the airline pilot profession. This 
includes a team of ALPA pilots who promote the profession at several 
large aviation events including Women in Aviation; the Organization of 
Black Aerospace Professionals; AirVenture in Oshkosh, Wisconsin and the 
National Gay Pilots Association. Hundreds of ALPA pilots also promote 
the profession to students of all ages in thousands of schools 
nationwide. And for those college students who are in the midst of 
their flight training activities, we work alongside them, to help 
prepare them for their future airline career. You can see some of our 
work at www.clearedtodream.org.
    All of these activities to promote the profession have included a 
focused effort to diversify the pilot community. This includes our 
efforts to reduce barriers to entry for minorities and women. We 
believe that there is no shortage of individuals who have the 
motivation, skills and aptitude to serve as airline pilots for a U.S. 
airline.
    We were pleased to support provisions in the Aviation Safety and 
FAA Authorization Act of 2018 promoting women in aviation. We 
wholeheartedly applaud the leadership by this Committee to include that 
section, and we strongly support the establishment of a board that will 
be solely focused on women in aviation. We look forward to engaging on 
this topic with our fellow industry colleagues.
            two pilots are needed in today's airline cockpit
    The FAA Reauthorization importantly did not include a requirement 
for the FAA to establish a program related to the concept of single-
pilot 14 CFR Part FAR 121 all-cargo airline operations. The program 
would have created a new multi-year funding obligation for the FAA to 
run a promotional program--despite, the agency's foundational safety 
mandate--in support of unsafe, single-piloted commercial operations. 
Upon learning about the proposal, ALPA took the initiative to measure 
public perception of the concept of a single pilot at the controls of 
an airline aircraft. In a public poll in 2018, 80 percent of 
respondents agreed that at least two pilots working together in the 
cockpit are best equipped to handle flight emergencies, while 96 
percent said federal aviation research dollars should be directed at 
projects other than those aimed at eliminating pilots from the cockpit.
    Even when the proposal for an FAA program was removed from the 
legislation, we continued to assess the feasibility of single pilot 
airline operations. In short, we documented many technical, regulatory, 
and financial barriers that indicate that single pilot operations are a 
non-starter either financially or due to safety and operational 
factors. Today, I am pleased to announce that ALPA has released a 
white-paper on single pilot operations titled ``The Dangers of Single-
Pilot Operations,'' which is available on our website at www.alpa.org/
whitepapers. We hope this paper will create a foundation from which 
ALPA can engage with anyone and everyone who would like to discuss this 
important topic with us.
    Maintaining today's level of safety, security and efficiency is 
much more important than any dubious benefits of moving a pilot from 
the cockpit to a remote location. Further, the aviation industry's 
collective efforts to focus on higher priorities for the benefit of 
passengers and shippers, should not be distracted by the establishment 
of a federal program to evaluate or study this project at any agency or 
with any federal dollars.
                  addressing all-cargo airline safety
    Many of the safety and security layers working to protect our 
passenger airline industry are absent from all-cargo operations. Cargo 
airlines fly the same aircraft, takeoff and land from the same 
airports, utilize the same airspace, and fly over the same cities as 
passenger aircraft. From a safety and security standpoint, there is 
every reason to hold all-cargo operations to the same safety and 
security standards as passenger operations. All-cargo airline 
operations currently experience an accident rate that is seven times 
higher than passenger airline operations worldwide.
    While many of the same regulations are used for both commercial 
passenger and all-cargo airlines, there are lesser requirements placed 
on all-cargo operations in several very important areas, which result 
in unnecessary safety risk.
    One example of this safety double standard between cargo and 
passenger operations is flight crew flight, duty, and rest regulations. 
While updated science-based flight- and duty-time regulations for 
passenger operations were issued in 2011 and implemented in 2014, those 
rules apply only to flight crew members at passenger airlines and do 
not include all-cargo pilots. The FAA's original rules were developed 
to include all pilots, passenger and cargo operations, but the cargo 
sector was removed at the 11th hour, a move that caught many by 
surprise. We believe that science-based flight, duty, and rest 
regulations must be developed for flight crew members of all-cargo 
operations.
    Although there are other differences in all-cargo airline and 
passenger airline operations under 14 CFR Part 121, as discussed below, 
the correlation of reduced flight- and duty-time regulations and the 
tarnished safety record cannot be dismissed as a coincidence. With 
relatively few differences in the regulations between all-cargo and 
passenger airline operations, the differences in flight- and duty-time 
regulations are an obvious area that needs to be addressed.
    However, unless we make meaningful changes soon, all-cargo airline 
operations will likely continue to have preventable accidents and 
fatalities at elevated levels relative to 14 CFR Part 121 passenger 
operation. Congress has a role to ensure that the disparity between 
all-cargo airline and passenger airline is eliminated. Accordingly, we 
request that this Committee take the necessary action to ensure that 
flight- and duty-time regulations, and other differences between all-
cargo and passenger airline operations under 14 CFR Part 121 are 
resolved.
    Another example of a significant safety gap is that all-cargo 
operations are exempted from Aircraft Rescue and Fire Fighting (ARFF) 
requirements contained in 14 CFR Part 139. This means that ARFF is not 
required to be staffed or even present at airports during operations of 
all-cargo aircraft.
    Further, cargo aircraft carry very hazardous cargo, such as blood-
borne pathogen, chemical, and radioactive material. Not only should 
ARFF be staffed during all-cargo operations, but ARFF personnel must be 
trained for dealing with fires on all-cargo airliners. Measures need to 
be developed and implemented that will properly prepare firefighters 
for dealing with a cargo aircraft fire. There is a lack of proper ARFF 
equipment needed to fight all-cargo aircraft fires at some airports, 
including nozzle tips designed for penetrating cargo airliner hulls, 
and a lack of funding, because the exemption of cargo from 14 CFR Part 
139 requirements interferes with fire departments' ability to get the 
resources they need for staffing, equipment, training, and developing 
strategy for cargo-specific events.
    ALPA has maintained a strong stance that all-cargo operations must 
have the same level of safety as passenger airlines. The facts, 
however, speak for themselves. There have been five (5) fatal all-cargo 
14 CFR Part 121 accidents in the U.S. in the past decade, with 15 
fatalities. This includes the fatal accident on February 23, 2019 of an 
Atlas Air Boeing 767, not far from Houston, Texas.
              missing cockpit doors on all-cargo aircraft
    After September 11, 2001, the federal government required existing 
and future passenger airliners and existing all-cargo airliners having 
cockpit doors, to be equipped with reinforced flight deck doors.
    Today, however, a significant number of all-cargo airliners are 
still operated without the benefits of hardened flight deck doors, 
leaving them without a means of adequately separating the flight crew 
from personnel riding aft of the bulkhead, and potential cargo-hold 
stowaways. In fact, new wide-body cargo airplanes such as the B777 and 
the B767 are being built and delivered to all-cargo operators without 
the protections afforded by the reinforced door. The potential for a 
significant lapse in security due to these conditions is magnified by 
the fact that all-cargo airliners frequently carry third-party, non-
crew personnel (known as ``supernumeraries''), such as couriers and 
animal handlers, who are not subject to criminal history-based security 
background checks required of other airline employees. These animal 
handlers carry strong sedatives and syringes that can be used on the 
animals if necessary during flight. There is a significant concern by 
our members that these improperly-vetted individuals are able to use 
these sedatives or otherwise take hostile actions against the flight 
crew absent the protections of a primary door. This situation is 
exacerbated by the fact that all-cargo airliners and their cargo are 
not afforded the same security protections as their passenger-carrying 
counterparts while on the ground.
    The lack of a mandate for reinforced flight deck doors on cargo 
aircraft is hard to justify when the TSA has formally stated that it 
considers the ``hostile takeover of an all-cargo aircraft leading to 
its use as a weapon'' to be a critical risk. Events in the post-9/11 
era have proven that stowaways represent a very real and significant 
threat to all-cargo airliners. To deter those persons with malicious 
intent and impede their ability to attack all-cargo flight crewmembers, 
gain access to aircraft controls, or otherwise execute a hostile 
takeover of an all-cargo airliner, physical barriers must be designed 
and installed to separate the all-cargo airliner's flight deck from 
accessible passenger and cargo areas.
    In order to ensure one level of security of all 14 CFR Part 121 
operations, all-cargo flight decks must be clearly delineated and 
physically protected in the same fashion as the flight decks of 
passenger airliners. This includes the provision of reinforced flight 
deck doors and the associated flight deck access procedures for 
crewmembers.
                       secondary barriers delayed
    Reinforced flight deck doors, mandated on passenger airliners by 
the U.S. Congress after the terrorist attacks of Sept. 11, 2001, do not 
provide a complete solution to the problem they were intended to 
resolve. There are times when operational necessity requires that the 
flight deck door be opened in flight. That period, however slight, 
represents a vulnerability that must be addressed. An installed 
physical secondary barrier, accompanied by standardized crew procedures 
for protecting the flight deck when the reinforced door is opened in 
flight, will significantly augment the intended benefits of the 
fortified door and other TSA-approved onboard protective measures, and 
add an important layer of security to prevent hostile takeover of the 
flight deck. ALPA has been calling for mandated secondary cockpit 
barriers for more than a decade.
    At the behest of this Committee, section 336 of P.L. 115-254 
requires ``not later than 1 year after the date of the enactment of 
this Act, the Administrator of the Federal Aviation Administration 
shall issue an order requiring installation of a secondary cockpit 
barrier on each new aircraft that is manufactured for delivery to a 
passenger air carrier in the United States operating under the 
provisions of part 121 of title 14, Code of Federal Regulations.''
    However, with a deadline in 3 months, the FAA has inserted 
unnecessary roadblocks to stall progress on this important security 
provision. Last month, the agency tasked the Aviation Rulemaking 
Advisory Committee (ARAC), over ALPA's stated objections, with forming 
a working group to establish recommendations to the agency on the 
implementation of the Section 336 directive.
    Clearly, this is a move to slow down or otherwise not fulfill the 
obligations Congress placed on the FAA to implement the secondary 
cockpit barrier mandate. We would note that 110 members of this body, 
including many members of this Committee, recently transmitted a letter 
[https://carson.house.gov/newsroom/press-releases/rep-carson-leads-
effort-to-protect-planes-from-hijacking] to the DOT unequivocally 
reinforcing the statutory intent of Section 336: specifically, the FAA 
must issue an order, without delay, by October 5, 2019 requiring the 
installation of secondary barriers on all new manufactured passenger 
aircraft off the assembly line. Failing to meet this requirement will 
delay implementation and evade congressional intent.
    Some may argue there are questions about how to implement the 
legislation. However, these questions were answered years ago by 
request from the FAA to RTCA--a private, not-for-profit corporation--to 
develop secondary barrier system guidelines containing design 
characteristics, minimum performance criteria, and installation and 
certification guidance.
    RTCA Special Committee (SC)-221 developed and published these 
guidelines in September 2011 as DO-329. This document provides the FAA 
with guidance needed to develop and issue a clear interpretation of 14 
CFR Part 121.584 to its principal operations inspectors as they 
evaluate an airline's security procedures for compliance. It also 
provides airlines and manufacturers with approved performance standards 
that are suitable for meeting FAA aircraft equipment requirements for 
the production and installation of secondary barriers.
    We urge the Committee to continue to monitor this situation, and to 
ensure that the FAA carries out its requirements under the law and 
issue the requirement for secondary cockpit barriers by October 5, 
2019.
                 safe shipments of hazardous materials
    ALPA has long advocated for improved transport requirements for 
hazardous materials both as a member of IFALPA, and here in North 
America as well. We have worked with this Committee to ensure that the 
safe transport of lithium batteries can occur with adequate risk 
mitigation techniques in place and are especially appreciative of 
Chairman DeFazio's longstanding commitment to improving the safety of 
lithium battery transport by air.
    Although lithium batteries represent a significant technological 
improvement over older battery technology, their high energy density 
and flammability make these batteries more prone to failure, resulting 
in fire and explosion. The lack of comprehensive hazardous materials 
regulations for the carriage of lithium batteries as cargo onboard 
commercial aircraft, both passenger and cargo, continues to pose risks 
to air transportation.
    New standards implemented by ICAO on April 1, 2016, made 
significant improvements to provisions under which lithium batteries 
are shipped as cargo by air around the globe. We are pleased that 
Section 333 of the FAA Reauthorization Act of 2018 directed the DOT to 
harmonize the U.S. regulations with those put in place by ICAO. This 
important and critical step ensures that until there are technologies 
that can fully contain a lithium battery induced fire, the shipments 
are limited.
    While the harmonization of the US regulations to ICAO limitations 
is a good first step, it does not go far enough in addressing the 
safety risk created by lithium batteries. Work must continue to develop 
and mandate performance-based packaging standards that will prevent 
and/or contain a lithium battery fire. These standards must also 
address the threat from external fires.
              undeclared hazardous materials pose a threat
    We are pleased that undeclared hazardous materials were addressed 
by Section 583 of the FAA Reauthorization Act of 2018, which directs 
the Department of Transportation (DOT) to develop an undeclared 
hazardous materials public awareness campaign. The DOT's Pipeline and 
Hazardous Materials Safety Administration (PHMSA) has developed the 
`Check the Box' educational program to begin to address the risks posed 
by undeclared hazardous materials shipments, as well as the FAA's 
program on undeclared hazardous materials. This is an important effort 
that should help raise awareness among shippers.
    Hazardous materials, comprised of liquids, flammables, and other 
materials, shipped as cargo without being identified by the shipper are 
considered undeclared hazardous materials. There are no official 
estimates of what percentage of parcel shipments contain undeclared 
hazardous materials; however, the FAA tracks incidents where hazardous 
materials shipments create safety hazards for various reasons, such as 
a leaking package or other type of external evidence that the package 
is a safety concern. In 2018, the FAA received 1,346 reports of such 
events, and 644 of the incidents involved undeclared hazardous 
materials.
               training with simulation--there are limits
    As is well recognized, the U.S. airline pilot training standard is 
the gold standard, and significantly more advanced than most other 
countries. However, there are many airline business leaders who believe 
that they can manage training costs through innovative training 
methods. One such example is the expanded use of non-motion aircraft 
simulators. Ironically, non-motion simulators have been historically 
viewed as inferior due to their lack of ability to replicate the sense 
of flight that pilots experience as the operate the aircraft in all 
flight regimes. But non-movement simulators appear to be making a 
comeback.
    While they may be acceptable to train pilots on checklist 
execution, or to help pilots learn the basic flow of cockpit 
procedures, there are some airlines that desire to begin to use non-
movement simulators to evaluate pilots in training. The safety benefits 
of using simulation with full-motion are well documented and the use of 
motion-based simulation is mandated for some airline pilot training. We 
question the viability and benefit of re-introducing non-motion 
simulators for anything beyond basic initial aircraft cockpit 
orientation and procedures development.
    Conversely, there are others who believe that nearly all the 
training needed to become an airline pilot can be conducted with 
motion-based simulation. They argue that a pilot's basic skills can be 
taught using carefully scripted ``real world'' scenarios to teach 
pilots basic knowledge and to leap-frog critical operating experience 
in the airspace system. An example of this simulation-based licensing 
scheme is an ICAO licensing option called the multi-crew pilots 
license, or MPL. Pilots flying for airlines with an MPL do not pass 
through the individual licensing levels such as the private pilot 
license, the instrument rating, the commercial pilot license, a multi-
engine rating, high-altitude operations endorsement, etc. Instead, MPL 
pilots ``hit the sim'' on day number one of their training and within a 
very short time, without adequate real-world experience, they are 
placed into a transport category aircraft flying for an airline. They 
are essentially apprentice pilots, requiring the captain to overcome 
any training and experience shortcomings that the first officer may 
have, alone.
    From our view, both of these ``extremes'' need to be carefully 
monitored. Expanding the motion-based simulation technologies as a 
replacement for tried-and-true real-world flying is nearly impossible 
to achieve. And permitting airline pilot training and testing to be 
conducted with non-motion simulators will not give pilots the added 
benefits that have long been documented for a suitable training 
environment. We urge the committee to engage the FAA on these topics, 
and we stand at the ready to expand upon our concern in this area.
        safe integration of unmanned aircraft systems and drones
    ALPA applauds Congress for its clarification of the FAA's authority 
to fully regulate all Unmanned Aircraft Systems (UAS) operations in the 
2018 FAA Reauthorization, to include model and hobby drone operators, 
who previously were exempted from regulation. We are especially 
grateful for this Subcommittee and Chairman DeFazio for the dedication 
to promote safe operations of all unmanned aircraft regardless of size, 
speed, or their intended purpose.
    With the rapidly growing use of UAS for any number of applications 
and uses, the safety risks to airline operations need to be monitored 
very closely. We applaud this Committee's commitment to ensure UAS 
safety, by holding a hearing earlier this year that focused on aviation 
in 2050. Clearly, at some point in the future, UAS will be integrated 
into the national airspace system (NAS), interacting with other 
aircraft in a manner similar to ``pilot on board'' aircraft today.
    Recently, a company approached the FAA to obtain exemptions that 
would allow them to bypass more than 200 regulations in order to start 
a commercial UAS package delivery service without any limitations to 
flying over residential or other populated areas.
    Granting this petition for exemption would allow the petitioner to 
bypass the FAA UAS implementation policy of ``crawl, walk, run'' for 
the introduction of new technology, capability, and procedures. The FAA 
has historically established regulations based on accidents and 
incidents to establish the current FARs. Aviation regulations represent 
a safety framework for which commercial for-hire operations are 
conducted. Issuing exemptions to so many of the requested areas appears 
to erode the safety levels established by the FAA through regulation, 
many of which were established as a result of accidents and incidents 
with injury and loss of life to passengers and people on the ground.
    As required under 14 CFR Part 11.35 (b), the FAA withheld 
proprietary company manuals and related material, including the 
petitioner's safety case justification. Therefore, many of the 
exemptions requested could not be thoroughly evaluated by industry 
stakeholders. If successful, we can anticipate that other manned and 
unmanned operators would seek similar exemptions from the same 
regulations included in this Petition for Exemption, awarding them to 
others without a clear safety justification. This is not how UAS 
operations should be implemented in the NAS if the objective is to make 
UAS a standard participant in routine NAS operations.
    FAA appears to be struggling to keep pace with the expansion of the 
UAS industry. Issuing waivers to a multitude of regulations, with 
minimal input from existing airspace users, raises concerns about the 
amount of additional risk being introduced into the airspace system.
    We must not allow pressure to rapidly integrate UAS into the NAS 
without appropriate safeguards in place. This process must be focused 
on safety as the highest priority. Risk mitigation plans, which have 
yet to be fully developed, combined with consensus-based technology 
standards that will ensure interoperability with manned aircraft, must 
be in place before a UAS can occupy the same airspace as manned 
aircraft or operate in areas where it might inadvertently stray into 
airspace occupied by airliners. When UAS operate in the same airspace 
as airline aircraft, the pilots will need to be able to see them on 
cockpit displays, and air traffic controllers will also need to see 
them on their displays to safely separate air traffic. Further, the UAS 
must be equipped with active collision-avoidance technology. We will 
oppose any integration that does not include collision avoidance 
systems that are interoperable with airline collision avoidance 
systems.
    If a UAS operator does not intend to fly in the same airspace as 
airliners, then limitations that ensure that the UAS stays out of the 
airspace must be programmed into the UAS in a way that cannot be 
overridden.
sUAS Identification and Tracking Technologies are Needed
    As has been widely reported, a drone collided with a U.S. Army 
helicopter in 2016, one mile east of Midland Beach in Staten Island, 
New York. From the investigation, we know that a Temporary Flight 
Restriction (TFR) was in effect for the area of the flight, and that 
the UAS was not equipped with any type of identification or tracking 
technology. The National Transportation Safety Board examined pieces of 
the sUAS that were found lodged in the aircraft, and using the 
information from these pieces, the hobbyist pilot of the sUAS was 
identified and located. The individual operating the sUAS routinely 
operated his hobby aircraft in the vicinity of the collision site, 
which was beyond his visual line of sight. After losing control of the 
aircraft, and because it failed to return to his position, he indicated 
that he simply believed his aircraft had ``gone down'' and he was 
unaware that it had been involved in a mid-air collision.
    Now that Congress has removed the FAA's barriers to regulating 
model and hobby small UAS, the FAA urgently needs to implement 
mandatory identification and tracking capabilities.
    If an identification and tracking system had been in place prior to 
the October 2016 collision with the Army helicopter, much more 
information would have been immediately available to accident 
investigators and law enforcement. Such a system would likely have 
prevented the collision in the first place, because law enforcement may 
have observed the sUAS operating on a previous flight, and proactively 
contacted the hobbyist about the illegal use of the aircraft. Until 
there is a way for law enforcement to identify and track down the sUAS 
operators, there is very little incentive for non-conformist hobby 
operators to operate sUAS safely.
        integrating commercial space operations improves safety
    Commercial space operations are not new. In fact, it has been more 
than 30 years since Congress established the Office of Commercial Space 
Transportation in the DOT, which now resides at the FAA. The industry 
is mature, and thanks to a series of events over the past decade, it is 
thriving through an expansion in proposed spaceports and significantly 
increased operational frequency.
    These are truly exciting times for America as we experience 
innovation and advancements that are literally blasting off before our 
eyes. However, we must continue to make commercial aviation part of the 
discussion on commercial space. Future growth and success of U.S. 
commercial aviation depends upon continued safe, dependable, and 
efficient access to shared public resources such as the National 
Airspace System, air traffic management, ground infrastructure, and 
airport services. The need to integrate commercial space operations and 
commercial aviation operations into the NAS is an urgent one that 
requires careful planning and commitment from many different parts of 
the industry.
    One thing is clear: expanded markets and technology advances in 
space are enabling new commercial companies to access these limited 
resources, which has become a critical challenge for the aviation 
community. Air traffic management, airports, and the NAS are regulated 
and managed according to strict operational and safety regulations, 
which will not sufficiently accommodate the projected growth and 
evolution of space transportation, without enhancements to how space 
flight is accommodated by the NAS. There must be a means to safely 
integrate with existing aircraft operations and infrastructure without 
decreasing the level of safety or efficiency for existing operations. 
Full integration will allow space operations to plan and execute 
launches without extensive coordination like they do now, and full 
integration will also eliminate the need for segregation of space 
operations from commercial airline flights. Bottom line: commercial 
space integration improves safety and efficiency of the NAS for all 
airspace users. A strategy to fully integrate commercial space 
operations into existing NAS operations is a critical first step to 
achieving this important goal.
    Neither industry would be successful today without the other. Each 
sector generates hundreds of billions of dollars in annual economic 
returns for the United States and immeasurable benefits to society. The 
FAA has coordinated the activities of both airplanes and rockets 
successfully for more than 60 years. In many ways, there is a false 
distinction between the two sectors, since several aircraft types 
travel into outer space, and all space vehicles travel through the 
atmosphere. As spaceflight becomes more diffuse and routine, both 
sectors must cooperate to create policies, regulations, and procedures 
to manage shared national aerospace resources safely and efficiently.
    An important reason to keep the commercial space industry a part of 
the aviation discussion is that there are going to be innovations in 
safety and efficiency that will likely find their way into commercial 
aviation. For example, Virgin Galactic plans to utilize a spacecraft 
for multiple flights with paying passengers (technically speaking, they 
are ``participants''), and this experience will likely help the 
commercial airlines better understand the interest in hypersonic travel 
and the potential issues that would accompany a transition to this type 
of travel in the future.
    ALPA is very interested in supporting the commercial space 
industry's efforts to advance through the full integration into the 
NAS. To fully articulate the complementary nature of commercial space 
and commercial aviation, we published a white paper, ``Addressing the 
Challenges to Aviation from Evolving Space Transportation'' that 
documents the role of the government agencies and industry, both 
historically as well as today. That whitepaper can also be found at 
www.alpa.org/whitepapers.
   safety data analysis is critical to ensure risks are proactively 
                               identified
    When thinking about aviation advancements over the next several 
years, there is one aspect above all others that needs our full support 
in order to continue to improve: aviation safety. The efforts of the 
Commercial Aviation Safety Team (CAST) combined with Aviation Safety 
Information Analysis and Sharing (ASIAS) have led to dramatic 
improvements. Data analysis by CAST and ASIAS has resulted in a 
proactive safety culture that cuts across all airlines and stakeholders 
with unprecedented levels of collaboration, even when those same 
stakeholders disagree about many other aspects of industry policy. The 
predictive risk analysis conducted by the CAST and ASIAS allows the 
aviation community to collectively reach heightened levels of safety 
without waiting for a single drop of blood to be shed. We believe that 
the resource needs for the ASIAS activity are likely going to increase 
in order to keep up with the accelerated pace of operations. We urge 
Congress to closely monitor the resource requirements for this activity 
to ensure that critical safety risk identification activities are not 
tabled because of inadequate resources.
           necessary resources to ensure safety of our skies
    A safe airline industry is only possible when the FAA has the 
resources necessary to carry out its safety mission. The FAA needs to 
receive consistent and reliable funding for its safety oversight role, 
as well as its role as an air navigation service provider.
    The partial government shutdown earlier this year has perhaps faded 
from the memories of most Americans. But the shutdown has not faded 
from the memories of ALPA pilots, who found themselves faced with new 
and different types of risks than they had experienced in the past. The 
FAA's rank and file air traffic controllers, ATC system safety 
specialists, certification engineers/specialists, and FAA safety 
inspectors as well as the Transportation Security Administration's 
(TSA) Transportation Security Officers were expected to do the 
unthinkable for multiple pay periods: work without pay. And while it 
may be no surprise to the members of this Committee, their service to 
this country during that period was phenomenal.
    But the realities of work without pay started to set in quickly, 
and our airspace system was put at risk for no good reason whatsoever. 
Political gamesmanship put our national transportation system at risk. 
Fortunately, the system's safety net worked, and the shutdown ended 
without serious ramifications to air travel.
    ALPA was pleased to be among the first to support Chairman 
DeFazio's legislation that will allow the FAA to temporarily use funds 
from the Airport and Airway Trust Fund during a government shutdown 
situation. The Aviation Funding Stability Act needs to be passed as 
soon as possible, and we continue to fully support the legislation.
    The FAA is seemingly accustomed to being asked to do more, while 
not always receiving the funding that they need. The FAA oversight of 
aircraft certification and manufacturing, maintenance, airline 
certificate management should not be put in jeopardy because the FAA is 
now being tasked with the work of approving new types of operations in 
the NAS such as UAS, small drones, supersonic, hypersonic, and multi-
rotor vertical lift operations. All of these ``additional types of 
operations'' require resources that are above and beyond those needed 
for safety oversight. Introduction of these new types of operations 
safely requires resources that the FAA likely does not yet possess. We 
urge the Committee to keep a close eye on the agency's needs.
    The new types of operations the FAA must operationally approve as a 
safety regulator will also drive new demands on the air traffic control 
system. While the Next Generation Air Transportation System (NextGen) 
establishes a foundation for safely increasing capacity in our skies, 
the FAA will likely need to develop additional capabilities to support 
commercial space, UAS, and other new operations. The resources needed 
by the FAA will likely be significant. However, from the view of 
airline pilots, we will want air traffic controllers--as the shepherds 
of the skies--to have the tools they need to ensure our safe passage. 
To make sure they have the tools they need, Congress must ensure that 
the FAA has stable and reliable funding.
           strengthening voluntary safety reporting programs
    Voluntary safety reporting programs such as the Aviation Safety 
Action Program (ASAP) and Flight Operations Quality Assurance (FOQA) 
are important, collaborative tools that enhance aviation safety through 
the analysis of voluntarily reported safety events and discrepancies 
that lead to the prevention of accidents and incidents. The purpose of 
ASAP and FOQA is to encourage and use voluntarily reported safety 
information provided by frontline employees and airlines, respectively, 
to identify safety risks. Without these valuable safety reports, 
unidentified risks go unmitigated and remain within the system.
    For example, more than a decade ago the implementation of 
stabilized approach technology and procedures became a top safety 
priority upon discovering the frequency of non-stabilized approaches 
being reported by pilots. More recently, data sources have been 
combined to identify potential risks that are initially identified 
through the voluntary safety programs. Ground radar data, historical 
weather information, and other data sources were used to identify 
instances when aircraft traffic and terrain warning systems were 
repeatedly alerting to false alarms. These voluntary safety programs 
triggered studies of these alarms, which ultimately led to the 
discovery that improvements to airspace and procedures design would 
reduce the false alarms. These examples prove that the underlying 
voluntary safety program reporting by the operators is the best source 
to identify potential risk areas and to investigate and ultimately 
mitigate these risks.
Automatic Acceptance
    We were pleased to see that Section 320 of the FAA Reauthorization 
Act of 2018 included the provision that ``there shall be a presumption 
that an individual's voluntary report of an operational or maintenance 
issue related to aviation safety under an aviation safety action 
program meets the criteria for acceptance as a valid report under such 
program.'' Directing the FAA to change ASAP programs to reflect this 
presumption will improve and increase the safety benefit of ASAP and 
voluntarily submitted aviation safety information by automatic 
acceptance of ASAP reports. Several airline ASAP programs already have 
automatic acceptance protocols built in (e.g., American and Delta Air 
Lines). However, where ASAP reports are not automatically accepted, the 
safety benefit is delayed, sometimes by weeks or longer, waiting for an 
Event Review Committee (ERC) to meet, review, and accept these reports. 
Under an automatic-acceptance scenario, the safety benefit of the 
information will be realized immediately. As recognized in Section 320, 
a report could still be ultimately excluded when the ERC convenes, and 
it is determined to meet established exclusionary criteria. The 
automatic-acceptance model works and will now be universal to ASAP, 
thanks to the work of this committee.
fair and open skies--ensuring that aviation in america remains safe and 
                                 strong
    ALPA would like to thank Chairman DeFazio and Chairman Larsen, as 
well as Representatives Davis, Davids and Ferguson, for their strong 
leadership on an important issue that threatens thousands of high-
quality airline jobs in our country. On July 10th they introduced, H.R. 
3632, the Fair and Open Skies Act. The legislation provides a 
bipartisan solution to ensure the enforcement of our Open Skies 
agreements by bolstering the DOT's oversight of an air carrier when it 
seeks an operating certificate to conduct service to the United States. 
Specifically, the Fair and Open Skies Act clarifies in statute that a 
multi-factor public interest test must be given consideration before 
the issuance of foreign air carrier permit, revises the public interest 
test to examine whether a foreign air carrier is a flag of convenience 
or is otherwise undermining U.S. labor standards, and requires European 
air carriers abide by the labor chapter of the U.S.-E.U. Open Skies 
Agreement as ratified by our government, ALPA has traditionally 
supported the opportunities created by our more than 120 Open Skies 
agreements. When properly enforced, these agreements promote benefits 
for U.S. carriers, workers, and passengers. Collectively, the reforms 
provided in the Fair and Open Skies Act will help ensure these 
agreements operate as intended and that the liberalization of air 
services is beneficial to all parties, including nation states, U.S. 
employees, and air carriers. This legislation will ensure that DOT 
gives proper consideration of a foreign airline's business practices--
including those who may employ businesses practices with questionable 
safety oversight or regulatory schemes to be fully vetted before 
granting a permit to fly to the U.S.
                               conclusion
    We appreciate the Committee's invitation to offer our insights and 
perspectives on these important aviation safety issues today. More 
importantly, we appreciate the leadership that continues to be 
demonstrated by the Committee to advance these high-priority safety 
issues. The airline industry is best positioned to fully meet the needs 
of all passengers and shippers when safety levels remain at, or exceed, 
their current levels. It is in our collective best interest as 
legislative leaders, labor organizations, companies, and regulators, to 
ensure the foundation of safety is solid, and continues to lead the 
rest of the world. We look forward to working on these issues with you 
in the coming months as we strive to make meaningful safety 
improvements to aviation.

    Mr. Larsen. Thank you.
    Ms. Bassani, you are recognized for 5 minutes.
    Ms. Bassani. Good morning, Chairman DeFazio, Chairman 
Larsen, Ranking Member Graves, and members of the Aviation 
Subcommittee. My name is Lori Bassani, and I am the president 
of the Association of Professional Flight Attendants.
    First, I would like to extend my deepest condolences to Mr. 
Njoroge, Mr. Stumo, and all of the families who are impacted by 
the Ethiopian Air and Lion Air crashes. Your testimony was very 
compelling and heartfelt.
    APFA represents over 28,000 flight attendants of American 
airlines and is the largest independent flight attendant union 
in the world. APFA is also a member of the Coalition of Flight 
Attendants, where labor organizations that represent virtually 
all U.S.-based flight attendants come together to promote 
aviation safety and our profession.
    Today, I am proud to be the voice for the nearly 100,000 
flight attendants across the Nation.
    I know many of you on this committee travel each week and 
personally understand the challenges of air travel today. 
Believe me, we feel your frustrations.
    As both first responders on board the aircraft and the last 
line of defense should the unthinkable happen again, your 
safety and security is our top priority.
    The 2018 FAA reauthorization bill included many safety 
improvements that we are all eager to see implemented and that 
need the continuing oversight of this important committee. We 
applaud the passage of this bill with overwhelming bipartisan 
support. It is a genuine tribute to leadership of this 
committee and the importance of these issues.
    There are several safety provisions I would like to speak 
to today.
    First, in section 337, the FAA is instructed to review 
cabin evacuation procedures and the changes to passenger 
seating configurations.
    Stop. In the time that I have been speaking, it has been 90 
seconds. My crew would be charged with evacuating a full 
aircraft with 291 lives aboard. I hope that we saved all of 
those lives. But here are some of the ways that we can do this.
    APFA has previously testified regarding our concerns on 
seat size, pitch, and our ability to evacuate an aircraft using 
just half of the exits in 90 seconds or less. This is the 
certification requirement mandated by the FAA.
    The truth is that passengers are now older, some are 
larger, and sometimes less mobile. As seat size and legroom 
continue to shrink, frustrations rise. We are seeing 
unprecedented levels of air rage.
    In an emergency landing, passengers no longer have enough 
space to assume the proper brace position. Under these 
conditions, is a 90-second evacuation still realistic?
    APFA believes that a comprehensive review of evacuation 
procedures under real-world conditions is long overdue.
    Second, the FAA recognizes that toxic fumes jeopardize 
flight safety but has no process to collect reports from crew 
and no procedures to investigate such incidents. This means 
that the true extent of toxic fume contamination remains 
largely unknown.
    Last year, at our airline alone, 1,500 fume events were 
reported to our safety department. My members have been 
hospitalized and have suffered chronic and permanent 
neurological damage.
    Section 326 of the FAA bill takes first steps in addressing 
this issue by requiring the collection data and providing 
educational information to crewmembers. The Cabin Air Safety 
Act, introduced this year by Congressman Garamendi, 
specifically mentions carbon monoxide detectors and takes the 
FAA bill a needed step further, and we urge its adoption.
    Third, Congress amended the minimum flight attendant rest 
requirement from 8 to 10 hours. When Congress passed this 
legislation, the intent was clear: simply modify the 1994 rule 
relating to flight attendant rest within 30 days of passage. 
Sounds simple, makes common sense, but apparently not.
    We are now hearing from the DOT and the FAA that it will 
take months to implement this modest change. Given the broad 
bipartisan support of this provision, we ask that the committee 
reengage and insist on its timely implementation.
    Lastly, we want to thank the committee for your work 
providing oversight on the 737 MAX tragedies. When the aircraft 
regains flight status, we will be the ones in the aisles 
reassuring our passengers.
    Flight attendants must have absolute confidence in the 
aircraft and in the process that will return it to service. We 
continue to look to you to ensure that that process is fully 
transparent.
    As flight attendants, safety is in our DNA. On any given 
flight, on any given day, we can be called upon to attend to a 
heart attack victim, to fight fires, to avert security risks, 
to comfort a child traveling alone, to deescalate enraged 
passengers, identify sex traffickers, and deal with turbulence 
and delays, all while being prepared to evacuate a plane 
stuffed full of passengers at a moment's notice, within 90 
seconds.
    We need to know and be able to communicate to the traveling 
public, our guests, that we have and will continue to have the 
safest aviation system in the world.
    Thank you. My testimony is now complete.
    [Ms. Bassani's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Lori Bassani, National President, Association of 
                     Professional Flight Attendants
    Good morning Chairman DeFazio, Chairman Larsen, Ranking Member 
Graves and members of the Aviation Subcommittee. Thank you for inviting 
me to testify. My name is Lori Bassani. I am the National President of 
the Association of Professional Flight Attendants (APFA). APFA 
represents the more than 28,000 Flight Attendants of American Airlines 
and is the largest independent Flight Attendant union in the world. 
APFA is also a member of the Coalition of Flight Attendant Unions where 
the multiple labor organizations that represent virtually all US-based 
Flight Attendants work together to promote aviation safety and this 
profession. I am honored to be here speaking on behalf of our 
profession.
    The issues that matter to Flight Attendants are the same ones that 
matter to passengers. I know many of you on this Committee travel each 
week and personally understand the many challenges of air travel today. 
While we represent more than 28,000 Flight Attendants, what we are 
fighting for is a safe and comfortable travel experience for all our 
passengers. As both first responders on board the aircraft and the last 
line of defense should the unthinkable happen again, safety and 
security are our top priority.
                             faa oversight
    We were gratified when the 2018 FAA Reauthorization Act passed by 
this Committee, was signed into law in October and we applaud that it 
was passed with overwhelming bipartisan support--an increasingly rare 
occurrence in this town and a genuine tribute to leadership of this 
Committee, so I thank you Chairman DeFazio, Chairman Larsen, Ranking 
Member Graves as well as former Chairman Shuster. It is a testament to 
the importance of these issues.
    There are safety provisions in the bill that we are all eager to 
see implemented, some of which are overdue and all of which need the 
continuing oversight of this Committee. We are tracking many components 
of the bill but there are several I would like to speak to today.
                       seat size and evacuations
    Section 337 requires the FAA to broadly review cabin evacuation 
procedures and the changes to passenger seating configurations, 
including seat widths, pitch, leg room and aisle width. In light of 
recent accidents and incidents in which passengers have had to 
evacuate, it is important to review seat dimensions. At American 
Airlines, our Flight Attendants had to evacuate a Boeing 767 on the 
runway at O'Hare International Airport in Chicago in October of 2016. 
While everyone was evacuated safely, the process raised many questions. 
So simply put: it's time to seriously review evacuation procedures 
under current, real-world conditions.
    In addition, every aspect of personal space, except first class and 
business class aboard commercial aircraft is shrinking. In the main 
cabin where most passengers fly, personal space is constrained more 
than it has ever been. Airplanes are flying at near capacity, and not 
just during the busy travel seasons. Airplanes are packed full. Air 
rage is on the rise. Flight Attendants are inevitably drawn into the 
conflicts. Finally, with 28 or 29 inch seat pitch, many passengers no 
longer have enough space to assume the proper ``brace position'' in the 
event of an emergency landing, let alone comfortably work on their 
laptops.
    In order to be certified, a carrier must demonstrate to the FAA 
that an aircraft can be safely evacuated using just half of the exits 
in 90 seconds or less. The truth is that many passengers are older, 
larger and in many cases have less mobility. When these facts are 
combined with reduced seat pitch and size we believe a comprehensive 
review of evacuation procedures is overdue. Our understanding is that 
the FAA has yet to initiate any formal action on this Congressional 
instruction.
                           cabin air quality
    While the FAA recognizes that toxic fumes jeopardize flight safety, 
the Agency has no standard process to collect reports from crew about 
fume events and no procedures to investigate such incidents. This means 
that the true extent of toxic fume contamination remains largely 
unknown and likely underreported. Last year alone, we had over 1500 
fumes events reported to our union's Safety Department. My members have 
been hospitalized and have suffered chronic and permanent neurological 
damage. Once a fume event has injured a crewmember, we are forced to 
fight with our company and state laws to receive any type of workers' 
compensation which are routinely denied.
    Section 326 of the FAA Bill takes important first steps in 
addressing this issue by collecting data and examining potential 
monitoring of the cabin air. Exposure to toxic fumes can be insidious. 
Passenger and crew can be largely unaware of their exposure until after 
the event. The bleed air system that is common in almost all commercial 
aircraft lends itself to feeding contaminated air into the cabin and 
ought to be at the center of any new investigation. We also support HR 
2208 introduced by Rep. Garamendi which would mandate a much more 
specific course of action in investigating this problem and we look 
forward to supporting its passage. No one should ever have to question 
whether the air they breathe in the cabin of an aircraft is safe. 
Again, our focus is crew and passengers' health.
                          10-hour minimum rest
    In Section 335, Congress amended the minimum Flight Attendant rest 
requirement from 8 to 10 hours. We know that when Congress passed this 
legislation the intent was clear. Simply modify the final rule 
published in the Federal Register on August 19, 1994 relating to Flight 
Attendant duty period limitations and rest within 30 days to read as 
``a flight attendant scheduled to a duty period of 14 hours or less is 
given a scheduled rest period of at least 10 consecutive hours; and the 
rest period is not reduced under any circumstances.'' Sounds simple, 
makes common sense, but apparently not. We are now hearing from the DOT 
and the FAA that it will take months to review and implement this 
modest change. Given the broad bipartisan support of this provision we 
would ask the Committee to reengage and order its timely 
implementation. Passengers deserve Flight Attendants who are well-
rested and ready to respond at a moment's notice.
                       emotional support animals
    Section 437 of the FAA Bill addresses emotional support animals and 
harmonizes service animal standards. We have seen a variety of animals 
including monkeys, chickens, pigs, a kangaroo, a miniature penguin and 
even a miniature pony all brought onto the aircraft under the guise of 
being ``service'' or ``emotional support'' animals. These so-called 
emotional support animals have been known to bite passengers and Flight 
Attendants, urinate, defecate, cause allergic reactions to neighboring 
passengers and in general be disruptive to the normal flight 
experience. Unregulated, these untrained animals present health and 
safety issues. To their credit, individual carriers are now moving to 
address the abuse of emotional support policies and we thank the 
Committee for its attention to this important matter. We doubt whether 
the carriers would have acted as they have without this Committee 
paying attention. Nobody wants passengers with legitimate and 
documented needs to have their trained, ADA-certified animals denied 
boarding. But anything short of proper regulation is unfair to other 
passengers and a disaster in the making.
                                737 max
    Lastly, we want to thank the Committee for the work you have done 
providing oversight on the 737 MAX tragedies. As stakeholders we 
appreciate that you have ensured our input into the process is heard. 
Not a day goes by that passengers don't ask about the MAX. As Flight 
Attendants we know we are in a unique position and when the aircraft 
regains flight status we will be the ones in the aisles answering 
questions. We need to have complete confidence in the aircraft and in 
the process that returns it to service. We continue to look to you to 
ensure that that process is fully transparent.
                                closing
    On any given day we, can be called upon to provide medical care, 
fight fires, thwart security risks, provide comfort to a child 
traveling alone, deescalate a potential passenger conflict, explain 
weather delays or mechanical delays and so on, all the while being 
prepared to evacuate an aircraft at a moment's notice. Passengers look 
to us for reassurance in all of these difficult situations. Along with 
our flight deck, we want to know and be able to communicate to the 
traveling public that we have, and will continue to have, the safest 
aviation system in the world.
    Thank you. My testimony is now complete.

    Mr. Larsen. Thank you.
    I now recognize Mike Perrone for 5 minutes.
    Mr. Perrone. Thank you.
    Chairman DeFazio, Chairman Larsen, Ranking Member Graves, 
and the members of the subcommittee, thank you for inviting me 
to testify on behalf of the Professional Aviation Safety 
Specialists to discuss the current state of aviation safety.
    While the United States remains the world leader in 
aviation, PASS agrees with the subcommittee that it is time to 
examine all factors that influence aviation safety.
    First of all, I would like to acknowledge the family 
members here today who lost their loved ones in the Ethiopian 
Airlines accident. On behalf of all members of PASS, I extend 
our deepest condolences to you and to the families of the Lion 
Air victims who also suffered great loss.
    PASS represents approximately 11,000 FAA employees 
nationwide. These employees are the backbone of the aviation 
system. Technical operations employees install, maintain, 
support, and certify air traffic control equipment. Aviation 
safety inspectors, or ASIs, oversee and inspect commercial and 
general aviation.
    PASS-represented employees also develop flight procedures, 
perform quality analysis of aviation systems used in air 
traffic control, and aid in building and restoring air traffic 
control facilities.
    When I last appeared before the subcommittee, it was in the 
wake of the longest Government shutdown in U.S. history. ASIs 
and support personnel were furloughed and no longer providing 
safety oversight, while technicians, TSA agents, and others 
worked without pay. Layers of safety were being stripped away.
    Unfortunately, we find ourselves approaching a similar 
situation without a funding agreement in sight. It is 
imperative to the integrity and safety of the National Airspace 
System that Congress and the White House work to avoid another 
shutdown.
    The uncertainty of the current political environment also 
threatens the FAA's ability to attract and retain the highly 
skilled workforce that it requires. Staffing and training 
challenges have plagued the FAA for years.
    Within air traffic, inadequate technician staffing at 
critical airports across the country remains a challenge, 
resulting in increased restoration times during an outage and 
more air traffic delays.
    Staffing shortages can also put FAA employees at risk. The 
safety of the system starts with the safety of all FAA 
employees.
    The agency does not even know how many employees are 
adequately needed to perform safety-critical work. For example, 
this committee saw fit to include in the provision of the 2018 
FAA reauthorization directing the FAA to reexamine the ASI 
staffing model. However, it remains unclear when this work will 
be completed.
    ASIs are vital to the FAA's certification processes that 
ensure aircraft and equipment that meet FAA airworthiness 
requirements. PASS-represented employees in flight standards 
issue certificates and approvals for commercial air carriers, 
repair stations, pilots, and others to operate in the NAS.
    While the FAA inspectors are integral to the certification 
process, individuals and ODAs are often granted more authority 
to conduct certification functions traditionally performed by 
FAA inspectors. Designees are now performing more than 90 
percent of the FAA certification activities, despite serious 
concerns by the inspector general and PASS that oversight is 
lacking.
    While the delegation of this authority may be deeply 
integrated into the certification process, now is the time to 
make sure that the FAA is providing the proper oversight of the 
program to ensure its success moving forward.
    Unfortunately, after the two tragic accidents that led to 
the grounding of the 737 MAX, and with the agency facing 
intense scrutiny, the FAA continues to rapidly expand the 
delegation program, further removing ASI oversight from the 
certification process.
    PASS has urged the FAA to halt further expansion of 
delegation until the investigations relating to the 737 MAX are 
issued and would appreciate the committee's support on this 
matter.
    This is but one example where risk is continually being 
introduced into the system that may not manifest itself for 
years to come.
    I would also like to highlight the work performed overseas 
on U.S. aircraft at foreign repair stations.
    Domestically, FAA inspectors perform unannounced 
inspections of repair facilities. However, foreign facilities 
receive announced inspections, giving those facilities advanced 
notice to ensure compliance before inspectors arrive. Foreign 
facilities should be subject to the same requirements as 
domestic repair stations.
    No other technology will alter the makeup of our airspace 
like the integration of drones. With over 1 million drones 
registered, the agency is facing a new set of safety, staffing, 
and training challenges. As drones are now sharing airspace 
with manned aircraft, ASIs and aviation safety technicians are 
tasked with ensuring the safe operation and compliance with 
Federal regulations.
    PASS fears that similar to the many other areas of aviation 
safety, FAA employees will be forced to oversee this booming 
industry without the proper guidance and training. It shouldn't 
take a tragedy before the agency recognizes and reconsiders 
this approach.
    In closing, PASS emphasizes that the safety of our airspace 
starts and ends with the investments in the employees who 
oversee and maintain it. Anything short of that is simply 
gambling with aviation safety.
    Thank you very much for the opportunity to testify on this 
important issue, and I look forward to any questions.
    [Mr. Perrone's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Michael Perrone, President, Professional Aviation 
                      Safety Specialists, AFL-CIO
    Chairman Larsen, Ranking Member Graves, and members of the 
Subcommittee, thank you for inviting me to testify on behalf of the 
Professional Aviation Safety Specialists, AFL-CIO (PASS) to discuss the 
state of aviation safety in the United States.
    PASS represents approximately 11,000 Federal Aviation 
Administration (FAA) and Department of Defense employees throughout the 
United States. PASS-represented employees in the FAA install, maintain, 
support and certify air traffic control and national defense equipment, 
inspect and oversee the commercial and general aviation industries, 
develop flight procedures, and perform quality analyses of complex 
aviation systems used in air traffic control and national defense in 
the United States and abroad. PASS members work to ensure the safety 
and efficiency of the aviation system that transports over 800 million 
passengers to their destination each year. The diversity of the PASS-
represented workforce provides insight into the safety of the system 
they maintain and the industry they oversee. PASS members are tasked 
with ensuring that the U.S. aviation system remains the safest in the 
world 24 hours a day, 7 days a week.
    Following recent events related to the Boeing 737 MAX, including 
two fatal accidents overseas and the worldwide grounding of the 
aircraft, PASS agrees with the Subcommittee that this country must 
examine all factors that influence aviation safety. In support of that 
effort, the union presents the following detailed analysis of events 
and situations that we believe have introduced increased challenges and 
risk into the system. These are issues that must be addressed in order 
for the United States to maintain its reputation as the world leader in 
aviation safety.
                 agency funding and government shutdown
    When PASS testified before this Subcommittee in February of this 
year, it was in the wake of the longest government shutdown in U.S. 
history. During the shutdown, aviation safety inspectors represented by 
PASS were furloughed, leading to a reduction in safety oversight, and 
FAA technicians worked without pay, which resulted in a lower employee 
morale and employees distracted by whether they would receive a 
paycheck.
    According to the Congressional Budget Office (CBO), the 35-day 
partial government shutdown cost the U.S. economy $11 billion and that 
net discretionary funding for the agencies impacted by the shutdown--
including the Department of Transportation (DOT)--totals $329 billion 
in fiscal year 2019, or about 25 percent of the total discretionary 
funding for the federal government.\1\ The CBO could not precisely 
estimate the total workers furloughed during the shutdown since 
guidance issued by the Office of Personnel Management (OPM) changed, as 
was the case in relation to aviation safety inspectors and support 
personnel.\2\
---------------------------------------------------------------------------
    \1\ Congressional Budget Office, ``The Effects of the Partial 
Shutdown Ending in January 2019,'' p. 2, January 2019.
    \2\ Id., p. 3.
---------------------------------------------------------------------------
    At the onset of the shutdown, aviation safety inspectors in the 
Flight Standards Service and in Manufacturing Inspection District 
Offices (MIDOs) within the Aircraft Certification division were told 
not to report to work, essentially stripping away an entire layer of 
safety oversight. This meant that a number of tasks, including 
development of Next Generation Air Transportation System (NextGen) 
safety standards, aviation rulemaking and full range of air traffic 
oversight, were not being performed or were being performed at a 
reduced level. During a government shutdown, safety oversight can come 
to a virtual halt, leaving airlines and aircraft manufacturers, and 
repair stations to police themselves.
    Support personnel were also furloughed for the duration of the 
shutdown while the backlog of paperwork grew and industry requests were 
delayed. Without these employees on the job every day, and with those 
at work worrying whether they will receive a paycheck, the aviation 
system is not prioritizing safety. While the government might not have 
been functioning at full capacity for 35 days, planes continued to fly 
and air traffic operations were needed despite there not being the 
proper level of safety.
    The technicians in the FAA's Air Traffic Organization (ATO) 
represented by PASS were not furloughed during the shutdown. Instead, 
they did report to work every day without pay in order to fulfill their 
responsibility to the agency and the flying public. These employees--
many of them military veterans--take their commitment to the United 
States very seriously and simply want to perform their jobs and be 
recognized for their dedication. When they go to work, they should only 
have to focus on the job of making sure equipment is properly 
maintained and certified, not whether their families are financially 
secure or when they will receive their next paycheck.
    While legislation eventually made FAA employees impacted by the 
shutdown financially whole, the agency and many of these federal 
workers are still struggling to recover. This makes the current debate 
over spending agreements even more concerning. Without an agreement in 
sight, the threat of another government shutdown looms. Congress and 
the White House are showing no signs of settling the debate and 
avoiding a government shutdown this fall. PASS hears from many of our 
members their worry and concern over the situation, not only for 
themselves personally but for the overall safety of the aviation 
system. Aviation plays a critical role in today's economy and delivers 
invaluable services to the flying public and the military. The FAA is 
simply not operating at full potential during a shutdown. The flying 
public should not be subjected to unnecessary risk due to political 
disagreements. The situation must not be repeated.
    To that end, PASS supports H.R.1108, the ``Aviation Funding 
Stability Act of 2019,'' introduced by Transportation and 
Infrastructure Committee Chair Peter DeFazio and Aviation Subcommittee 
Chair Rick Larsen. When it comes to aviation safety, any uncertainty 
introduces more risk into the system with the potential to ripple 
throughout the country. By drawing from the Airport and Airway Trust 
Fund (AATF) during any lapse in government appropriations, H.R.1108 
would authorize the FAA to keep all programs running without 
interruption while all FAA employees would report to work without fear 
of missing their next paycheck. PASS encourages Congress to pass this 
legislation with urgency.
                         staffing and training
    PASS has long been drawing attention to the need for additional 
agency staffing and enhanced training. FAA employees are highly skilled 
individuals who often come to the agency from industry and many with 
significant military training. The current political environment and 
threat of another shutdown has not done anything to make the federal 
government a more attractive place to work. In fact, according to a CBO 
report, ``funding lapses were probably beginning to reduce the 
credibility of the federal government as an employer and a contracting 
party, making it more difficult for federal agencies to attract and 
maintain a talented workforce and more expensive to enter into 
contracts with private firms.'' \3\ This is no way to run the federal 
government; it is certainly no way to ensure attracting and maintaining 
the skilled workforce that PASS represents within the FAA.
---------------------------------------------------------------------------
    \3\ Id., p. 11.
---------------------------------------------------------------------------
    There is little doubt that PASS and other FAA unions play a vital 
role in aviation safety. As such, these employees should be paid at 
compensation levels to ensure that the agency can recruit and retain 
qualified employees in order to fulfill such important safety 
responsibilities or else face the consequences. As evidence, during the 
shutdown, many PASS-represented employees indicated that they were 
looking for new jobs outside of the federal sector and many who came 
from industry have considered going back for higher pay. To maintain 
the current workforce and attract new employees to public service, the 
agency should consider starting salaries that are more competitive with 
the private sector and other incentives to recruit a new generation of 
highly skilled and dedicated workers. Recruiting and retaining properly 
skilled FAA employees can only offer the flying public further 
reassurances that the aviation system is safe and that ensuring that 
safety is the agency's top priority.
    Unfortunately, in many instances, the agency does not even know how 
many employees are needed to adequately perform safety critical work. 
For example, this committee took input provided by PASS and saw fit to 
include a provision in the 2018 FAA reauthorization \4\ directing the 
FAA to reexamine the aviation safety inspector staffing model. PASS 
agrees that this is necessary to properly determine the number of 
inspectors needed to protect the system and acknowledged the importance 
of this issue. However, it remains unclear when this work will be 
completed.
---------------------------------------------------------------------------
    \4\ Public Law No.: 115-254.
---------------------------------------------------------------------------
    In addition, proper technician staffing at critical airports 
throughout the country remains a challenge. To be sure, hiring and 
training new technicians is not a quick or easy process. Inadequate 
technician staffing will no doubt result in increased restoration times 
during an outage and more air traffic delays. It can also make it 
difficult to ensure 24-hour safety coverage, a potentially dangerous 
situation that increases the risk of major air traffic issues. Airports 
across the country face many issues and technicians often work in 
difficult conditions as they must maintain thousands of pieces of 
equipment 365 days a year. For example, when a tower elevator was out 
of service at Los Angeles International Airport, a PASS-represented 
technician was tasked with climbing air traffic control equipment in 
the southern California heat for simple repairs. A routine task was 
quickly transformed into a dangerous and time-consuming undertaking 
that diverted efforts from other duties. The safety of the system 
starts with ensuring the safety of the employees who maintain it.
    PASS consistently hears from members that training is a significant 
issue and that without proper training, increased risk to aviation 
safety is a real possibility. PASS learned that in some instances, 
management appears to feel that the systems are sophisticated enough 
and general training is acceptable rather than anything specific to one 
system or piece of equipment. For example, for over eight years with 
the agency, one PASS member has been assigned to oversee airships and 
other balloon-based aircraft. And yet, this member has never received 
balloon-specific training even though such focused training is usually 
provided in the industry. Many inspectors are assigned to oversee 
particular aircraft models but never given specific training on those 
models. Emphasizing the concern regarding training is the fact that 
technology is changing every day. ``General knowledge'' of the work is 
simply not sufficient when it comes to aviation, we should expect these 
men and women to be experts at their craft. Training must be a priority 
throughout the agency in order to ensure these critical workers are 
fully familiar with and thoroughly skilled on the systems or equipment 
they encounter during duty hours to ensure they are maintained and 
certified to the highest safety standards.
                certification and the delegation program
    The FAA's certification process is a layered system intended to 
ensure aircraft and equipment meet FAA's airworthiness requirements, 
which are codified in the Federal Aviation Regulations (FARs). PASS-
represented aviation safety inspectors in the FAA's Flight Standards 
Service division issue certificates and approvals for individuals and 
entities to operate in the National Airspace System (NAS), including 
commercial air carriers, repair stations, pilots and others. Inspectors 
within the MIDOs, which is part Aircraft Certification division, ensure 
that manufacturers comply with production certificates issued by the 
FAA.
    While FAA inspectors and engineers are integral in the 
certification process, individual and organizational designees are 
often granted authority to verify compliance to specific portions of 
the federal regulations in the certification process and make findings 
of compliance in support of the type and production certificates 
through the Organization Designation Authorization (ODA) program. The 
ODA program is the means by which the FAA grants authority to 
organizations or companies. ODA holders are typically authorized to 
conduct the types of FAA functions that would normally be performed by 
the FAA. For delegated projects, FAA involvement is reduced based on 
the ability of the designees involved and their technical capabilities. 
As this program has proliferated, designees are now performing more 
than 90 percent of FAA's certification activities despite serious 
concerns that oversight is lacking.\5\ This alone creates a concerning 
dynamic whereby designees who are paid by the aircraft manufacturers, 
airlines, or repair stations are simultaneously overseeing for the FAA.
---------------------------------------------------------------------------
    \5\ United States Government Accountability Office, Aviation 
Safety: FAA Efforts Have Improved Safety, but Challenges Remain in Key 
Areas, April 16, 2013, p. 3.
---------------------------------------------------------------------------
    Why allow individuals and companies outside the agency to perform 
work with the ability to impact the safety of the aviation system? The 
answer is so clear that the FAA even includes it on its website: ``The 
FAA doesn't have the resources to do all the certification activities 
necessary to keep up with an expanding aviation industry.'' \6\ If that 
is the case, then the least the agency can do is guarantee that there 
are enough inspectors to oversee the ODA program, yet they fail to 
achieve this baseline. Robust oversight of the delegation process is 
essential to ensure companies that use ODAs maintain the highest 
standards and comply with FAA safety regulations. Over the years, the 
DOT Office of the Inspector General has consistently identified 
management weaknesses with a number of FAA's oversight processes.\7\ 
Aviation safety is the backbone of the entire aviation industry. Recent 
events have highlighted the ripple effect that a failure in safety 
oversight can have on the system not just here in the U.S., but 
worldwide.
---------------------------------------------------------------------------
    \6\ Federal Aviation Administration, ``About the FAA Designee 
Program,'' modified January 31, 2019. Accessed July 10, 2019: https://
www.faa.gov/other_visit/aviation_industry/designees_delegations/about/.
    \7\ Department of Transportation Office of Inspector General, 
Perspectives on Overseeing the Safety of the U.S. Air Transportation 
System, March 27, 2019, p. 6.
---------------------------------------------------------------------------
    The constant and rapidly expanding delegation of inspector duties--
including bilateral delegation to foreign authorities--ultimately 
embeds risk into the system that is difficult to identify and quantify. 
It is also difficult to eliminate that risk once embedded. Unlike 
pilots who may achieve success by safely flying from point A to point 
B, impacts from the lack of safety oversight only manifest over time. 
In other words, simply reviewing the data from a delegated authority 
immediately after certification does not always produce the most 
accurate picture of aviation safety. The reaction can be delayed, and 
it can impact the system for years to come.
    As previously highlighted, the accidents involving the Boeing 737 
MAX and its subsequent grounding illustrate this level of embedded 
risk. Unfortunately, it took multiple tragic events for the flying 
public and the FAA to take a harder look at the delegation and ODA 
process. An issue that has been important to PASS for years, the 
delegation process goes to the core of aviation safety. While 
investigations are ongoing, what we do know is that the FAA delegated 
primary oversight of the MAX to Boeing--the company that would benefit 
the most from a quick approval process. While we await the results of 
the ongoing investigations surrounding the 737 MAX, the FAA continues 
to move toward increased delegation and further removing FAA inspectors 
from the certification process. Simply put, the more the FAA reduces 
safety oversight of the certification process, the more risk is 
introduced. And, as the families of those lost due to the two Boeing 
737 MAX accidents can no doubt tell you, mistakes and embedded risks 
can result in tragedies.
    While the Boeing 737 MAX sits idle and several agencies conduct 
investigations into the failures surrounding the aircraft, we know 
there are questions that may never get answered. Based on the 
information we do have coupled with the number of unknowns, PASS has 
urged the FAA to halt further expansion of the delegation program until 
these reports are issued.\8\ PASS stands by this request and asks for 
the committee's support on this matter. While the delegation program 
has become deeply integrated into the FAA's certification process, now 
is the time to ensure that it has the proper safety oversight and that 
the agency is allocating the proper staffing and resources to ensure 
its success moving forward.
---------------------------------------------------------------------------
    \8\ Professional Aviation Safety Specialists, AFL-CIO, Letter to 
Associate Administrator for Aviation Safety Ali Bahrami, May 13, 2019.
---------------------------------------------------------------------------
    Another area where risk is being unnecessarily introduced into the 
system occurs when work performed overseas on U.S. aircraft is not held 
to the same standards as work performed in this country. In a June 26, 
2019, letter to DOT Secretary Elaine Chao, PASS joined the 
International Association of Machinists, Transport Workers Union and 
Transportation Trades Department, AFL-CIO, in calling on the secretary 
to fulfill obligations related to background investigations and drug 
and alcohol testing of foreign repair station workers who perform 
safety-sensitive work on U.S. aircraft. Additionally, oversight of the 
maintenance work is critical to ensuring the work is performed in 
accordance with FAA regulation and FAA-approved aircraft maintenance 
programs. Currently, FAA inspectors perform unannounced, periodic on-
site inspections of domestic facilities to ensure compliance with 
important safety standards. However, FAA inspectors of foreign 
facilities are required to be announced, giving those facilities and 
its workers advanced notice and time to take necessary actions to 
regain compliance before the inspector arrives. It is long past the 
time for this gap to be closed. Foreign repair stations should be 
subject to the same standards and procedures, including unannounced 
inspections, as domestic repair facilities. This is something PASS has 
been endorsing for years, and the union would appreciate the support of 
this committee in relation to these efforts.
            emerging technologies and new safety challenges
    The aviation industry is constantly evolving as new technology is 
being introduced at a record rate. This could not be more clearly 
displayed than through the growing Unmanned Aircraft Systems (UAS or 
drones) industry. As of July 2017, there were 879,696 registered UAS 
and over 21,000 UAS remote pilots.\9\ And in January 2018, DOT 
Secretary Chao announced that the total number of drones now registered 
with the FAA is over one million.\10\ That number has no doubt risen 
over the past 16 months. Furthermore, according to NextGov, the FAA 
predicts the commercial drone market will triple over the next five 
years.\11\
---------------------------------------------------------------------------
    \9\ Department of Transportation, Federal Aviation Administration, 
Aviation Safety Workforce Plan 2017-2026, pp. 46-47, 2017.
    \10\ Department of Transportation, ``FAA Drone Registry Tops One 
Million,'' updated January 10, 2018. Accessed July 9, 2019: https://
www.transportation.gov/briefing-room/faa-drone-registry-tops-one-
million.
    \11\ Corrigan, Jack, ``FAA Predicts the Commercial Drone Market 
Will Triple by 2023,'' NextGov, May 3, 2019. Accessed July 9, 2019: 
https://www.nextgov.com/emerging-tech/2019/05/faa-predicts-commercial-
drone-market-will-triple-2023/156743/.
---------------------------------------------------------------------------
    This technology is proof that the agency must address a number of 
issues previously mentioned as UAS will now be sharing the airspace 
with manned aircraft. If drones are expanding at such a rapid rate and 
aviation safety inspectors and aviation safety technicians are tasked 
with ensuring their safe operation, certainly increasing staffing and 
training of this workforce should be a priority. It is of crucial 
importance the FAA not let the mounting pressure from industry to 
rapidly integrate UAS into the NAS move forward without stringent 
safeguards in place. There is a significant lack of training when it 
comes to emerging technologies. For example, there is currently no UAS-
related compliance and enforcement training on UAS for FAA aviation 
safety inspectors. The FAA must make it a priority to ensure the 
training is current and comprehensive.
    With the advent of new entrants into the NAS, the FAA claims it is 
attempting a balanced approach that involves collaboration between 
government and industry, yet we have serious concerns about the lack of 
aviation safety inspector involvement. As the representative of the 
workforce tasked with ensuring regulatory compliance, PASS has almost 
no voice in the conversation regarding integration. This is glaringly 
highlighted on the Drone Advisory Committee (DAC), which was formed in 
2016. While it claims to be a collaborative working group with a 
diverse membership, PASS has serious concerns about the lack of 
regulatory representation. For example, PASS's application for 
membership was denied without justification or comment while the 
committee is heavily composed of drone operators and other industry 
representatives. PASS fears that, similar to many other areas of 
aviation safety, FAA employees will be forced to oversee this booming 
industry without the proper guidance and training and it will take a 
tragedy before the agency reconsiders its approach.
    The agency will no doubt claim that its safety risk management 
systems, including the Safety Management System (SMS), of which the 
Safety Assurance System (SAS) is a key component, are sufficient for 
addressing and prioritizing risk. While SAS is a key tool for the 
aviation safety inspector workforce, PASS believes oversight is 
significantly hindered by inherent limitations of these internal 
systems. SAS allows FAA inspectors to collect data as a part of their 
oversight functions and enter this data into the program that then 
identifies safety issues and assists in assessing risk. Yet, the DOT 
Inspector General found that the FAA's UAS oversight was neither data-
driven nor proactive and lacked key elements of a risk-based oversight 
system.\12\
---------------------------------------------------------------------------
    \12\ Department of Transportation Office of Inspector General, 
Perspectives on Overseeing the Safety of the U.S. Air Transportation 
System, March 27, 2019, p. 11.
---------------------------------------------------------------------------
    Currently, FAA safety inspectors are experiencing problems with SAS 
that restrict their ability to accurately and completely assess risk. 
For example, SAS language often does not reflect safety oversight 
regulations and can conflict with written certification guidance. 
Inspectors input data using the program's unique automated prompts that 
limit the depth of detail and quality of information collected by the 
system. In a risk-based system, this is not only unacceptable but also 
completely avoidable. Safety critical maintenance procedures for 
aircraft are increasingly complex, and inspectors must have an in-depth 
understanding of them to recognize whether safety regulations are being 
followed. The agency needs to collaborate with the workforce to ensure 
that that aviation safety inspectors are equipped with the best tools 
to uphold the safety of the world's most complex aviation system--a 
system that only grows in complexity by the day.
                                closing
    As you are all aware, aviation plays a critical role in today's 
economy and delivers invaluable services to the flying public and 
military. However, those services will face scrutiny if aviation safety 
is questioned. The aforementioned areas are essential to ensuring 
continued safety of U.S. airspace and aircraft operating in this 
country and, in particular cases, abroad. PASS calls on this committee 
to consider our areas of concern and recognize the critical 
contributions made by the employees we represent. As always, we stand 
ready to work with you to ensure that the United States remains the 
safest aviation system in the world.

    Mr. Larsen. Thank you.
    I will now recognize Mr. Samuelsen for 5 minutes.
    Mr. Samuelsen. OK. Thank you.
    And thank you, Chairman DeFazio, Chairman Larsen, and 
Ranking Member Graves for holding this hearing today.
    My name is John Samuelsen, international president of the 
Transport Workers Union, representing over 150,000 members in 
the U.S.A. and the Caribbean.
    In the aviation industry, our members work as mechanics, 
flight attendants, ramp workers, pilot instructors, airline 
dispatchers, and fleet service workers. Frontline aviation 
workers are responsible for maintaining our air safety and 
security system. We often have the best view of airline safety 
gaps. So giving all of us the opportunity to share our 
experience and recommendations is very important.
    Today I would like to highlight two important safety 
issues. Legally, the FAA requires that all U.S.-flagged 
commercial aircraft be maintained to the same standard. 
However, the FAA has actually exempted maintenance work done 
outside the United States from many safety standards. The 
result is now a two-tier safety system that encourages airlines 
to offshore more and more work, introducing more and more risk 
into our aviation system.
    Foreign repair stations are exempt from regulations 
requiring mandatory security and background checks for workers, 
risk-based safety and security evaluations for facilities, drug 
and alcohol testing, unannounced FAA inspections, and FAA 
certification standards for mechanics and technicians.
    Congress has already directed the FAA and the DOT to 
address several of these safety gaps twice in the past decade. 
Compliance with these mandates are years overdue.
    FAA delays led to a boom for foreign repair stations. The 
number of these facilities has grown by more than 30 percent in 
just the past 4 years. There are now more than 900 FAA-
certified foreign repair stations, including 200 that have been 
approved since 2017.
    The amount of maintenance work being performed at these 
stations with lower safety standards is already extremely high, 
with coordinated efforts underway right now to increase those 
numbers.
    DOT data shows that the three leading U.S. airlines all 
sent about 30 percent of their maintenance work to foreign 
facilities.
    U.S. mechanics, technicians, and pilots are increasingly 
alarmed by the incompetent work and often nefarious actions 
performed on aircraft outside of the United States of America. 
Their discoveries have included critical engine components held 
together with tape and wire, mid-flight cabin depressurization 
caused by incorrectly installed exterior door parts, aircraft 
covered with flammable paint, drug smuggling in aircraft noses, 
wheel wells, avionics, and lavatory panels.
    The country with the most FAA-certified foreign repair 
stations is China, and that represents significant cyber and 
other security questions.
    This unlevel playing field for safety regulations is also 
costing American jobs. More than 8,200 aircraft maintenance 
jobs left the country in recent years. The job loss is caused 
by regulatory loopholes that allow airlines to cut costs by 
diminishing safety.
    We often hear that airlines do not compete on safety, but 
right now that is what they are doing. Congress and the 
administration have to live up to this ideal by immediately 
closing all the loopholes that encourage moving this important 
maintenance work outside of the country.
    I would also like to highlight another problem, which was 
touched on by President Bassani, and that is cabin air quality. 
The atmosphere surrounding aircraft at 40,000 feet above sea 
level is too thin to breathe. So modern aircraft heat air from 
around the wings and over the engines and then compress that 
air before circulating it into the cabin.
    These nerve agents are absorbed by both inhalation and 
through the skin. Repeated or prolonged exposure to these 
agents, like that endured every day by flight attendants and 
frequent air travelers, can have devastating health effects.
    These incidents are being reported more and more often now 
because of rising public awareness and because of trade union 
advocacy. Just 3 days ago, a commercial plane made an emergency 
landing because of a fume event that made passengers and crew 
alike sick.
    Aircraft aren't even equipped with sensors to alert the 
crew when fume events are occurring. This makes reporting and 
responding to these events extremely difficult.
    I want to say thanks to Representatives John Garamendi and 
Pete Stauber for introducing the Cabin Air Safety Act. It 
directly addresses the health and safety concerns presented by 
these toxic fume events. The TWU fully endorses this 
legislation, and we hope the committee will take action on it 
soon.
    Thank you very much for the opportunity to testify. Again, 
looking forward to questions.
    [Mr. Samuelsen's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of John Samuelsen, International President, 
                      Transport Workers of America
    Chairman Larsen, Ranking Member Graves and distinguished members of 
the House Subcommittee on Aviation, thank you very much for holding 
this hearing on aviation safety and for providing the Transport Workers 
Union (TWU) the opportunity to present testimony on issues of vital 
concern to the American people. Air safety is essential to our economy 
and no one knows more about the safety and security of our aviation 
system than the frontline employees who work in it every day.
    My name is John Samuelsen and I am the International President of 
the Transport Workers Union of America. The TWU represents 151,000 
members across the U.S. and I am here today representing those employed 
in the aviation industry as mechanics, flight attendants, ramp workers, 
airline dispatchers, and fleet service workers. For decades, the TWU 
has been at the forefront of efforts to increase the level of safety in 
the aviation industry for the protection of airline workers, as well as 
the travelling public. Our members continue to be devoted to creating 
and maintaining the safest aviation system possible.
    I appreciate the opportunity to address this committee today and to 
share our concerns about several ongoing issues which threaten the 
safety and security of our airspace.
               foreign repair and maintenance facilities
    The TWU continues to have grave concerns regarding the outsourcing 
of aircraft maintenance to foreign repair facilities. In theory, the 
FAA requires that all U.S.-flagged commercial aircraft be maintained to 
the same standard, whether maintenance work is performed in-house or 
outsourced and regardless of whether the work is done in the U.S. or 
abroad. In reality, our regulatory structure has created a second, 
inferior set of safety standards for aircraft maintained outside of the 
United States.
    While international air commerce requires qualified mechanics and 
technicians to be available around the globe, regulatory loopholes have 
created a second tier of safety requirements. This two-tier system is 
driving U.S. airlines to offshore a significant amount of their 
maintenance and repair operations because the lower safety standard 
abroad is cheaper. Insufficient safety regulations, fewer government 
inspections, and lower minimum qualifications for maintenance workers 
drive down the cost to the airlines. Because of this structural 
incentive, we are now seeing the foreign maintenance industry boom at 
the expense of jobs and safety here in the U.S.
    More than 900 overseas aircraft maintenance and repair stations 
have been certified by the Federal Aviation Administration (FAA) in 65 
countries around the world. The number of these facilities has grown by 
more than 30 percent in just the past four years. These foreign repair 
stations are located across the globe, including, for example: China 
(78), Singapore (54), Brazil (22), Thailand (6), Costa Rica (3), and El 
Salvador (2).
    Thailand and Costa Rica are particularly interesting locations for 
these repair facilities. These countries' air safety regimes are 
classified as ``category 2'' by the FAA--meaning our government does 
not have confidence in their regulators to guarantee that regulations 
in these countries meet international safety standards. In the case of 
Thailand, this designation was reviewed and renewed in February of this 
year when the Civil Aviation Authority of Thailand failed on 26 
different metrics essential to aviation safety.
    Thai and Costa Rican airlines are not allowed to initiate new 
service to the U.S. or to enter into codeshare agreements with U.S. 
carriers because we cannot certify that they are capable of adequately 
overseeing their aviation system. Inexplicably, despite this fact, our 
government continues to allow maintenance of U.S.-flagged aircraft in 
facilities whose day-to-day operations are overseen exclusively by 
these governments.
    El Salvador is another interesting example. Despite currently 
having zero commercial flights to the United States, U.S. airlines 
regularly ferry empty planes to El Salvador for maintenance and 
repairs. This naked pursuit of a separate safety standard should give 
regulators and the travelling public pause.
    The amount of maintenance being performed on this lower safety 
standard is already at worryingly high levels. While a lack of 
consistency in reporting methods makes it difficult to determine 
exactly how much maintenance and repair work is being outsourced, data 
from the U.S. Department of Transportation (DOT) shows that, in 2018, 
the three leading U.S. airlines--American, Delta, and United--consigned 
31%, 30%, and 28% (based on dollars spent) of their maintenance work, 
respectively, to foreign facilities. Frontier Airlines reportedly 
outsourced 50% of its maintenance work.
    More than 8,200 aircraft maintenance jobs have been moved abroad 
since the early 2000s. The loss of these high quality, middle class 
jobs should be disturbing in itself. But the additional safety concerns 
created by moving aircraft repair and maintenance to often unqualified, 
uncertified, uninspected foreign workers raise significant issues with 
the existing public policies which are enabling this regime. The 
dedication, skill, and professionalism of FAA-certified U.S. mechanics 
and technicians has been a major factor in creating the stellar safety 
record of U.S. airlines. The decreasing use of this labor force in 
favor of cheaper, less skilled workers has a consequential increase in 
risk for our air safety system.
    American mechanics, technicians, and pilots are regularly alarmed 
by egregious examples of incompetent work performed on and nefarious 
modifications made to aircraft maintained outside of the U.S. Their 
discoveries have included:
    <bullet>  Critical engine components held together with tape and 
wire;
    <bullet>  Parts on the aircraft exterior doors installed 
incorrectly, leading to mid-flight cabin depressurization;
    <bullet>  Aircraft covered with flammable paint; and
    <bullet>  Drug smuggling in aircraft noses, wheel wells, avionics, 
and lavatory panels.
    That U.S.-flagged aircraft are flying in these conditions is only 
possible because sovereign laws allow foreign repair stations to remain 
exempt from the vast majority of regulations governing U.S. facilities, 
including those requiring:
    <bullet>  Mandatory security background checks for workers;
    <bullet>  Risk-based safety and security evaluations for 
facilities;
    <bullet>  Employee drug and alcohol testing;
    <bullet>  Unannounced FAA inspections; and
    <bullet>  FAA certification standards for mechanics and 
technicians.
    Congress has directed the FAA and the DOT to address these safety 
gaps several times over the past decade. The TWU fully supports 
existing statutory requirements directing our regulators to close these 
gaps--requirements which are now years overdue. In late June of this 
year, the TWU, in conjunction with several other unions, wrote to 
Transportation Secretary Chao, imploring her to act immediately on 
these directives.
    Since 1991, all mechanics at U.S. aircraft repair stations have be 
subject to federally mandated testing as a condition of employment. The 
2012 FAA Reauthorization Act directed the FAA to issue a proposed rule 
mandating that all repair station employees responsible for safety-
sensitive maintenance on U.S. aircraft be subject to an alcohol and 
controlled substance testing program no later than February 14, 2013. 
An advanced notice of proposed rulemaking was issued by the Obama 
Administration in 2014 and the 2016 FAA Extension Act also included 
another requirement for the FAA to issue a proposed drug and alcohol 
testing rule within 90 days of enactment and a final rule within one 
year. To date, no such rule has been enacted.
    The 2016 FAA Extension Act also required that, within six months of 
enactment, the FAA would guarantee that all workers at foreign repair 
stations who perform safety-sensitive work undergo a pre-employment 
background check to ensure that they are not a threat to aviation 
safety. Minimizing risks to airline passengers and crew must be our 
highest priority. As aircraft systems increase the amount of software 
and interconnectivity, they become more vulnerable to dangerous cyber 
attacks. By allowing workers at foreign repair stations access to these 
aircraft systems without having been vetted through extensive 
background checks, we are recklessly exposing our skies to an increased 
number of serious security hazards. Workers at U.S. repair facilities 
are subject to background checks and it only makes sense that workers 
at overseas stations should be as well.
    In addition, the 2016 bill required the FAA to increase risk-based 
safety oversight of foreign repair stations with demonstrated records 
of poor performance. A key element to this provision is the requirement 
that airlines report data to the FAA related to the seriousness and 
frequency of corrective measures undertaken as a result of substandard 
work performed at overseas repair facilities. Distressingly, this 
mandate has yet to be implemented either.
    Simply put, the FAA is failing to exercise the minimum oversight 
mandated by Congress and necessary to protect the flying public. The 
recent, tragic crashes of two Boeing 737 Max aircraft demonstrate the 
consequences of negligence on behalf of our air safety regulator. For 
years, the FAA has allowed companies like Boeing to self-certify 
components of their aircraft designs without the oversight necessary to 
ensure this self-certification was meeting minimum standards. The TWU 
is concerned that the FAA's indifferent approach to aircraft type 
certification is being replicated in their oversight of foreign repair 
stations--potentially opening our air safety system up to other 
systemic failures in the future.
    Our safety regulators must do a better job on all fronts. The FAA 
must properly regulate foreign repair stations--including conducting 
unannounced inspections and ensuring a minimum set of qualifications 
for the workers repairing our flagged fleet.
    The TWU supports these commonsense directives contained in previous 
FAA Reauthorization bills, as well as all efforts to improve safety in 
the aviation industry. We thank this committee for acting on a 
bipartisan basis to move the FAA to take these necessary actions.
                flags of convenience airline legislation
    The TWU supports H.R. 3632, the Fair and Open Skies Act, which was 
introduced last week by Representatives Peter DeFazio, Rick Larsen, 
Rodney Davis, Sharice Davids, and Drew Ferguson. This act would require 
the U.S. Department of Transportation to exercise more scrutiny prior 
to issuing foreign air carrier permits to flag of convenience carriers. 
Flag of convenience airlines split pieces of their operations across 
several countries in order to skirt tax, labor, and safety regulations 
in their home countries. These airlines present a long-term threat to 
the safety of our air system.
    As we have witnessed in the maritime shipping industry, where the 
flag-of-convenience business model predominates, companies will seek a 
minimum safety standard if allowed to compete on safety. These 
companies destroy safety cultures by threatening their employees with 
retribution should they decline to utilize unsafe machinery--a practice 
which is only possible due to forum shopping for the very lowest labor 
and safety standards around the world. Even when the minimum 
international standards are violated by these companies, there is 
little chance that they will face any consequences because they 
effectively report to no government regulator. This business model will 
cause a race to the bottom in all our existing standards, which puts 
both crews and passengers at great risk.
    The TWU strongly supports the Fair and Open Skies Act in order to 
enhance the safety of the travelling public.
                            cabin air safety
    The TWU is also concerned about the quality of the air in our 
aircraft cabins. In order to create breathable air at 40,000 feet above 
sea level, aircraft pull air from the surrounding atmosphere, heat it 
over the engines, and compress it before circulating this air into the 
cabin. This process of ``bleeding'' air from around the plane has 
enabled modern jet travel; however, when the mechanical pieces of this 
process malfunction, cabin air can become toxic and extremely harmful 
to both passengers and crew members. The fact that our aircraft 
currently are not equipped to monitor cabin air quality is of great 
concern.
    Engine oil, hydraulic fuel, and other aircraft fluids, when 
gasified, become potent nerve agents that can cause respiratory, 
neurological, and psychiatric symptoms as well as cancer. These nerve 
agents can be absorbed both by inhalation and through the skin. 
Repeated or prolonged exposure to these agents--such as that endured by 
flight attendants--can have devastating effects. Concern about toxic 
exposure in aircraft cabins is not theoretical or abstract. We have 
documented cases of TWU flight attendants who have suffered severe and 
career-ending disabilities due to this chemical exposure.
    Passengers are at equal risk to the negative health effects from 
these fumes caused by bleed air. Because these fumes can smell like 
dirty socks or other everyday items, travelers may not recognize the 
health threat as it is happening. Some passengers mistake the symptoms 
of toxic fume exposure for jetlag. Recently, however, there has been a 
spate of incidents in which air travelers have become severely ill due 
to toxic cabin air, including on board aircraft on which TWU members 
served as crew. For example, eight passengers on a recent flight were 
hospitalized after one such event while waiting to take off.
    Federal legislation recently introduced in Congress addresses the 
serious issue of bleed air. The Cabin Air Safety Act, H.R. 2208, 
sponsored by Representative John Garamendi, will help ensure that the 
air we breathe when we fly is healthy and safe. The TWU fully endorses 
this important bill.
                   10-hour rest for flight attendants
    Last year, Congress recognized the importance of establishing a 10-
hour minimum rest period for flight attendants between shifts by 
directing the DOT to change the existing regulations as part of the 
2018 FAA Reauthorization bill. The deadline for implementing this rule 
change passed in December without any action taken by the Department of 
Transportation.
    Flight attendants are safety professionals who are responsible for 
ensuring the well-being of passengers throughout their flights. The 
flying public expects and relies on flight attendants to act with the 
highest level of professionalism, especially in cases of emergency. 
Adequate rest is essential to their performing their crucial duties to 
the highest standards. The 10-hour minimum rest rule will help ensure 
that the passengers are served by well-rested workers ready to react 
immediately to safety threats. We thank the members of this committee 
for their bipartisan efforts to implement this important safety 
improvement.
            national in-flight sexual misconduct task force
    Safety onboard our aircraft requires passengers and cabin crew to 
be confident they will not be harassed during a flight. The TWU 
applauds the bipartisan efforts of this committee to direct the 
Department of Transportation to establish the National In-Flight Sexual 
Misconduct Task Force, pursuant to the FAA Reauthorization Act of 2018. 
The task force is charged with reviewing and evaluating U.S. airlines' 
current policies and procedures for responding to and reporting 
passengers' allegations of sexual misconduct onboard commercial 
aircraft. Their report, complete with recommendations on best practices 
for training, reporting, and data collection related to sexual 
misconduct on the part of airline passengers, is due to Congress later 
this year.
    TWU Local 556 President Lyn Montgomery is representing flight 
attendants on the task force. Ms. Montgomery's insights as a frontline 
employee representing workers responsible for maintaining a safe cabin 
will be essential for the task force to meaningfully address sexual 
assault and misconduct onboard our aircraft.
    Flight attendants are safety critical workers. Passengers 
interfering with their operations, including through sexual misconduct, 
is illegal. However, TWU's members report that incidents involving 
passengers harassing flight attendants are an ever-present threat 
onboard our aircraft. These incidents distract our workers from their 
mission and pose serious safety threats. The TWU believes that any 
final report from the task force that does not address passenger-on-
flight attendant misconduct would be incomplete.
                               conclusion
    I greatly appreciate the opportunity to testify before the 
committee on these important aviation industry issues. The TWU looks 
forward to working with the committee to advance policies that will 
improve aviation safety and health for airline passengers and crew 
members.

    Mr. Larsen. Thank you, President Samuelsen.
    Thank everyone for your testimony today.
    We are going to move now to Member questions. Each Member 
will be recognized for 5 minutes, and I will start by 
recognizing myself for 5 minutes. My first question is for Ms. 
Schulze of the NTSB.
    With regards to emerging technologies and the need for 
growing expertise at the NTSB to match the use of the airspace, 
does NTSB have a plan to develop that expertise? And if not, 
what is your plan to develop a plan for that expertise?
    Ms. Schulze. Well, thank you for your question, Chairman 
Larsen.
    We do have a plan with regard to the drones in the 
airspace, in the National Airspace System. We have, since our 
first investigation of a drone accident back in 2006, been 
looking at this issue very seriously. We recognized at that 
time that this new segment of the industry was coming.
    In 2010, we actually changed our regulation to address 
unmanned aircraft systems in our rule. We added UAS accident in 
our accident definition, in our regulation. And then shortly 
thereafter, we also issued guidance to the industry for 
reporting standards, to help them understand what is reportable 
to us.
    And so we have also continued along that line by having a 
specialist identified, an expert internally within our 
organization, who has helped us develop our investigative 
protocols for investigating drone accidents.
    As I mentioned, in 2016 we investigated our first drone 
mid-air collision with an aircraft, a helicopter, over New York 
City--I am sorry--near Staten Island. And so we are very 
interested and very engaged in that technology, and we do 
appreciate the committee's support in helping us get there.
    Mr. Larsen. Yeah. And the investigation protocol, is it 
drone on anything or is it drone on aircraft, aircraft on 
drone? Or is it drone on drone?
    Ms. Schulze. So our reporting standard----
    Mr. Larsen. What do you care----
    Ms. Schulze. That is a very good question.
    We do not investigate hobbyists. So we are looking more--we 
are focused more on those operators who are certified under one 
of the FAA requirements.
    But in terms of our accident definition, any UAS accident 
involved that would result in a serious injury would be 
considered an accident, no matter what the size of the drone. 
If there is not an injury involved but there is substantial 
damage, it is for drones that are 300 pounds or greater.
    Mr. Larsen. Maybe have further questions later.
    President Perrone, there is an ongoing debate on whether 
the FAA is adequately including aviation safety inspectors in 
the certification process, particularly those overseeing ODA.
    How do safety inspector staffing challenges impact your 
members currently, and then the traveling public as well?
    Mr. Perrone. So the problem that we have, PASS believes 
that the FAA doesn't have enough inspectors. They don't have 
the staffing and also training to keep up with it. The ODA 
program is expanding, like I said, more than the FAA can handle 
it.
    And we just want the FAA to be able to understand, they 
need to have the oversight available. We understand industry 
has the expertise. They are going to do what they need to do. 
But the bottom line for FAA, the regulatory side of the house, 
they have to have enough inspectors with the knowledge to 
understand what is going on. And if they are going to sign off 
on the ODA program, they have to be there.
    The FAA's position right now is they are data collectors. 
So our inspectors used to go out, kick the tires, visit the 
aircraft industry, and see and have a rapport with the industry 
as well as the folks working on the equipment.
    They have changed that philosophy. They have and rely on 
the industry giving data to the FAA, and our inspectors just 
look at that data and then sign off.
    That is not, again, a good position to be in. And with the 
Government shutdown during that timeframe, industry kept 
rolling, and our inspectors were sitting at home because they 
were furloughed. So all of that backlog work, plus their normal 
work once they came back was a rush to get everything done. 
Things could fall through the cracks.
    Mr. Larsen. So given the staffing issues and training 
issues, and combining that with these emerging technologies in 
the airspace, are you changing how you train incoming 
inspectors to address issues like drones or the commercial 
space transportation issues? How is training changing?
    Mr. Perrone. So we are trying to get the FAA to work on the 
training issues as well. One of the things that we tried also, 
we twice put in for the Drone Advisory Committee, and the DOT 
did not put PASS on there. Again, our folks represent the 
inspectors who are going to end up ultimately overseeing the 
regulation.
    We have asked the FAA why we were not included. They said 
DoD--excuse me--DOT made the decision. So we have asked can we 
get a response.
    So we agree training needs to be modified and changed. And 
since it is a permissible subject, the agency can or not 
include us.
    Mr. Larsen. Thank you.
    Turn to Ranking Member Graves for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I 
appreciate it.
    I want to thank all of you for your testimony today.
    Captain DePete, earlier today there were calls for more 
proactive early warning system type programs be put together to 
identify any safety concerns associated with aircraft.
    Could you explain right now--I think pilots are 
stakeholders in this as well--can you explain right now what 
type of system is provided for that allows for that type of 
reporting to bubble up?
    Mr. DePete. Sure. Absolutely. Thank you for the question, 
Ranking Member Graves.
    You know, back in 1997, 1998 time period after a series of 
major accidents occurred and the commercial air safety team was 
formed, a very aggressive data collection effort came underway, 
where measurements of over 150 streams of data come in, with 
the ASAP program. The Aviation Safety Action Programs are 
inclusive. And the FOQA program, the Flight Ops Quality 
Assurance was also included in that.
    And then very soon after, we saw four accidents occur, 
culminating with Colgan. And that led to taking a look at 
completing the circle and looking at the way pilots were 
trained. We instituted, thanks to the work of this committee, 
flight time and duty time regulations, although cargo was 
carved out ultimately, as you know, not always looking for one 
level of safety.
    But that led to the safest period in aviation history in 
America, where I can say that we have moved close to three-
quarters of the world's population in metal composite tubes in 
the lower stratosphere without a single pilot-caused fatality, 
with the exception of the one Southwest aircraft that had the 
fan blade.
    So it is my belief here that the absence of accidents is a 
wonderful thing, but it is all the more important that we 
remain diligent and committed to safety, to look more and more 
into how we can better report.
    We have got a strong, resilient system right now, a very 
robust system. It is working. Although, obviously we are here 
today, and we heard from some of the families behind me, 
something happened that wasn't supposed to happen.
    We, many years ago, like I said, we had a forensic 
approach, the tombstone mentality that you mentioned, Chairman 
DeFazio. And now we have a risk predictive model.
    So it is very important, like I said in my testimony, that 
we examine closely the certification, the oversight, and the 
designation authority and find out how we can make this better.
    Mr. Graves of Louisiana. Thank you.
    Mr. Perrone, in your testimony you discuss Federal 
regulations for the type of certification process. And so right 
now who is it that establishes the certification basis for the 
safety standards, including the safety standards that have to 
be met in order for an aircraft to proceed?
    Mr. Perrone. So the regulation is done by the FAA, and then 
the industry has to follow that, whatever they come up with 
for----
    Mr. Graves of Louisiana. OK. And then who establishes the 
certification plan and the means of compliance and the level of 
FAA involvement in the verification process?
    Mr. Perrone. So, again, I think the industry, Boeing or 
whoever, comes up with a plan on how to do it, and the FAA 
oversees that procedure.
    Mr. Graves of Louisiana. So wait a minute. You are saying 
that the FAA--excuse me--that Boeing or the manufacturer would 
actually come up with a certification plan, including the means 
of compliance and the level of FAA involvement?
    Mr. Perrone. They come up with--again, their engineering, 
they do all the studies, they do what they need to do. Then the 
FAA makes sure that that complies with the regulation, complies 
with the system.
    And then they have--once they do it and once they build the 
aircraft, or whatever the particular certification piece is, 
that they are following that compliance.
    Mr. Graves of Louisiana. So you are saying that the 
companies actually establish the certification plan?
    Mr. Perrone. They are the ones that--correct--they are the 
ones that know the best way to come up with that engineering 
design and then FAA oversees it.
    Mr. Graves of Louisiana. I don't think that is accurate. 
And I am very anxious to hear from the FAA on actually that 
certification process.
    And then lastly, who is it that actually verifies that all 
of the requirements have been met and the type of certification 
that is issued?
    Mr. Perrone. So just to clarify, the FAA procedure, the 
certification procedure, if I miss-said it, they come up with a 
plan, this is what you need to do, the engineers build that, 
and then the FAA oversees that to make sure they follow that.
    Mr. Graves of Louisiana. I was concerned, because you noted 
in your testimony, ``While investigations are ongoing, what we 
do know is that the FAA delegated primary oversight of the MAX 
to Boeing.''
    And I was concerned about that, because I am concerned that 
might have left folks with a different understanding than I 
have in regard to the process--or the role that FAA plays 
versus the manufacturer. I am not sure that FAA would concur. 
And I just wanted to make sure you clarified.
    Mr. Perrone. Yeah, I misspoke, is what I was trying to come 
up with. Thank you.
    Mr. Graves of Louisiana. Thank you.
    Thank you, Mr. Chairman.
    Mr. Larsen. Thank you.
    Before recognizing Chair DeFazio for 5 minutes, I ask 
unanimous consent that the following item be entered into the 
record of today's hearing, a letter from the Association of 
Flight Attendants--CWA regarding child restraint.
    Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
Letter from Sara Nelson, International President, Association of Flight 
   Attendants--CWA, AFL-CIO, Submitted for the Record by Hon. Larsen
                                                     July 17, 2019.
Hon. Peter DeFazio
Chairman, Transportation and Infrastructure Committee
Hon. Sam Graves
Ranking Member, Transportation and Infrastructure Committee
Hon. Rick Larsen
Chairman, Subcommittee on Aviation
Hon. Garret Graves
Ranking Member, Subcommittee on Aviation
    Dear Chairman DeFazio, Ranking Member Graves, Chairman Larsen, and 
Ranking Member Graves:
    This Friday, July 19, 2019 marks the 30-year remembrance of United 
Flight 232 that crash-landed in Sioux City, Iowa after the DC-10 
suffered a catastrophic failure of the tail engine and loss of most 
flight controls. The crew is credited for saving 185 of the 296 lives 
aboard in what most believe would have been a complete loss of life 
without their heroic efforts. While the pilots' actions gave everyone a 
chance to live, Flight Attendants did all that they could to prepare 
the cabin for impact and get survivors safely off the burning aircraft.
    Through their professionalism and dedication, our colleagues showed 
the world the crucial role Flight Attendants have on board the aircraft 
each and every day. We hold close the memory of United Flight Attendant 
Rene LeBeau who lost her life in the crash as we pay tribute to the 
crew that performed miracles to save lives: Flight Attendants Janice 
Brown-Lohr, Georgeann Del Castillo, Barbara Gillaspie, Donna McGrady, 
Virginia Jan Murray, Timothy Owens, Yeoung (Kathy) Shen, Susan L. 
White, Rene LeBeau, Captain A.C. Haynes, First Officer William R. 
Records, Second Officer Dudley J. Dvorak, and United DC-10 flight 
instructor Dennis E. Fitch.
    Tragically, one unrestrained infant perished when his mother could 
not hold onto him after the airplane hit the ground. In response, the 
National Transportation Safety Board (NTSB) recommended that the 
Federal Aviation Administration (FAA) require all occupants be 
restrained during takeoff, landing, and turbulent conditions, and that 
all infants and small children be properly restrained.\1\
---------------------------------------------------------------------------
    \1\ NTSB Recommendation A-90-78, May 30, 1990
---------------------------------------------------------------------------
    On the 30th remembrance of United Flight 232, AFA again implores 
the FAA to rule that every passenger must have a seat with a proper 
restraint, regardless of age, and for lawmakers to take action to 
ensure this is implemented as soon as possible. The current practice of 
merely recommending that infants and small children under the age of 
two be in child restraint seats (CRS) during critical phases of flight 
is inadequate to protect our most vulnerable passengers.
    Flight Attendants ensure that everything on board an airplane is 
secured or properly stowed for takeoff and landing; and that passengers 
are safely restrained in their own seats whenever the fasten seat belt 
sign is illuminated. The exception to this is children under the age of 
two. A coffee pot has more protection than an infant in the event of a 
crash. The captain instructs everyone to buckle up for protection 
against severe turbulence, with the exception of our smallest 
passengers.
    In 1979, the NTSB issued its first of multiple safety 
recommendations on aircraft child restraints. The Board recommended 
that the FAA ``[e]xpedite research with a view toward early rulemaking 
on a means to most effectively restrain infants and small children 
during in-flight upsets and survivable crash landings \2\.''
---------------------------------------------------------------------------
    \2\ NTSB Recommendation A-79-063, August 10, 1979
---------------------------------------------------------------------------
    In 1997, Representative Peter DeFazio (H.R. 754, 105th Congress) 
and Senator Patty Murray (S.398, 105th Congress) introduced bicameral 
legislation to require safe restraint of children, with age and weight 
limits, much like laws pertaining to travel in cars.
    In 2001, the American Academy of Pediatrics recommended requiring 
aircraft-approved restraint systems and discontinuing? the policy of 
allowing a child younger than two years to be held on the lap of an 
adult in the aircraft cabin \3\. In 2015, the International Civil 
Aviation Organization (ICAO) released guidance to promote the use of 
approved child restraints on all commercial aircraft around the 
globe.\4\ This demonstrates worldwide harmonization. It is past time to 
mandate this protection for our youngest passengers.
---------------------------------------------------------------------------
    \3\ Restraint Use on Aircraft, Pediatrics, Vol. 108, No. 5, 
November 2001
    \4\ ICAO Doc 10049, p. vii, Second Edition 2019
---------------------------------------------------------------------------
    Any requirement to protect children under the age of two must also 
reflect the reality of the modern aircraft cabin environment. The Cabin 
Evacuation Standards Study, required in the FAA 2018 Reauthorization 
Bill, will show what every crew member and air traveler knows--the on 
board conditions for travel have changed dramatically in the last 30 
years. There was a time when parents could find an empty seat to use a 
car seat for their child. Those days are gone and gate agents are 
trained to check car seats because the assumption is that parents did 
not purchase a seat for their child under the age of two. In some 
cases, this has created conflict for parents who attempt to follow the 
FM recommendations of purchasing a seat and using an approved child 
restraint.
    AFA calls on the FM and lawmakers to ensure that every passenger is 
secured in an aircraft seat, regardless of age.
    Safety regulations are written in blood. Today we must recognize 
and remember the 230 crew and passengers of TWA 800, who lost their 
lives 23 years ago. We will continue work every day for the highest 
standards in aviation security in their honor.
    We commend the committee's work and focus on key aviation safety 
issues including: 10 hours Minimum Rest and a FRMP for Flight 
Attendants; prohibiting Flags of Convenience models that outsource U.S. 
aviation jobs (H.R. 3632); the grounding of the 737 MAX; stable funding 
for the FM (H.R. 1108); addressing sexual misconduct on planes; cabin 
environment and evacuation standards; secondary flight deck barriers; 
combating contaminated bleed air with the Cabin Air Safety Act of 2019 
(H.R. 2208/S.1112); safety and security of foreign repair stations; 
setting temperature standards in the cabin; banning voice 
communications on planes; protecting Passenger Service Agents from 
assaults; an evaluation and update of Emergency Medical Kit contents 
including naloxone and epinephrine; protecting against cabin cyber 
security vulnerabilities; and ensuring the safe transport of lithium 
batteries.
    The Association of Flight Attendants--CWA represents 50,000 of 
aviation's first responders at 20 airlines. The flying public looks to 
Flight Attendants when it comes to aviation safety. The work of this 
committee directly affects our ability to do our jobs.
        Sincerely,
                                                Sara Nelson
                                            International President

    Mr. Larsen. The Chair recognizes Chair DeFazio for 5 
minutes.
    Mr. DeFazio. I thank the chair.
    To Mr. Perrone, Mr. Samuelsen, you both raised the issue 
of--Mr. Perrone raised the issue that the FAA cannot go to 
foreign repair stations with no prior notice and that we are 
not properly overseeing them, they aren't subject to drug 
testing, alcohol testing, background checks, et cetera.
    And then, Mr. Samuelsen, you talked about the flood of work 
to these overseas.
    And I would just like both of you to comment on this. You 
know, there are no commercial flights to the United States from 
El Salvador, yet airlines are taking empty planes to El 
Salvador for maintenance and repairs. This causes some concern 
to me.
    I mean, either of you want to comment on that?
    Mr. Samuelsen. Yeah. I would say that U.S.A.-flagged 
carriers that perform work in El Salvador, particularly where 
they fly empty planes there to have maintenance done, there is 
only one reason for that, and the reason--well, they have been 
permitted to do it by the FAA. But the only reason for that is 
the pursuit of profit. There is no other reason for that. They 
are certainly not sending planes to El Salvador because the 
work is done safer in El Salvador than it is on United States 
soil.
    Mr. DeFazio. You listed a few pretty disturbing examples of 
poor overseas maintenance work.
    Mr. Samuelsen. Right. I mean, so there are plenty of those.
    But one specific example is April 5, 2018, a plane that was 
serviced in South America came into Chicago O'Hare, and TWU 
mechanics found vital engine components that were held together 
with duct tape, duct tape that was applied on foreign soil by 
noncertified mechanics.
    That is just one example. There are other examples as well 
that we can provide the committee after this testimony.
    Mr. DeFazio. We would love to have those examples. I have 
been on this issue for years.
    Mr. Perrone, you want to comment on your concerns about 
this?
    Mr. Perrone. Well, I just think it goes along the same 
lines, that the FAA used to have inspectors in different 
locations overseas, and they closed those offices down and 
brought them back to the United States for money-saving 
purposes.
    And in the end, we believe if they were there, if they were 
in different locations, if they are going to continue moving 
the work overseas, that the inspectors should be available to 
do oversight inspections.
    We agree with our brothers in TWU as well that the work 
should be done in the United States. I think we have got the 
greatest country in the world to see and do the oversight, and 
why not keep it here.
    Mr. DeFazio. OK. And Ms. Bassani and Ms. Schulze, you both 
raised issues about cabin evacuation, and we mandated the 
procedures be reviewed.
    Can you give us a quick update on where NTSB is on that?
    Ms. Schulze. Yes. Thank you for your question.
    We have made recommendations on a variety of areas for 
evacuation. And one in particular was to ask the FAA to form a 
committee, a group, to look closer at communication protocols 
between the cockpit, the cabin.
    And at this point, the recommendation is open, unacceptable 
action. But we are committed to continuing that communication 
with the FAA on the cabin safety side.
    Mr. DeFazio. OK. Thank you.
    Ms. Bassani, you raised the issue about the length of time 
for one particular evacuation and problems with it and carry-on 
bags and all that.
    Could you just give us what--and you also raised the issue 
of seat pitch and width. And, you know, I mean, are you 
witnessing the people having trouble getting in and out of 
those ever-narrower and closer-together seats?
    Ms. Bassani. Thank you for that question, Chairman DeFazio.
    First of all, I want to thank you for the seat I am in 
today, because it is a lot more comfortable than what I flew 
down here in.
    Mr. DeFazio. Someday I am going to get the airline execs 
all lined up there, and I am going to bring in the narrowest 
coach seats I can find, and we are going to keep them there for 
a few hours.
    Ms. Bassani. You know, I think it is torture. And I will 
tell you, from experience crossing my legs in one of those 
seats, and for a passenger in front of me to lean their seat 
back quickly, I think I almost got a broken kneecap the other 
day.
    But it is distressing to see our passengers smashed into 
these airplanes now. As you know, it never used to be this way.
    As flight attendants, a lot of times what we like to do to 
accommodate our passengers who might be taller or bigger, we 
like to move them to a seat that is more accommodating, which 
is a lot of times up at the bulkhead or by the emergency exits. 
However, now that the airlines are charging more for those 
premium seats, we can no longer do that.
    So we find that the seats are not only getting smaller, but 
there is no padding on them anymore. It is a torture chamber 
for our customers and for us that also fly in our own airlines.
    I commend you so much for addressing that in this 
committee. And we were so pleased to hear that that is being 
addressed. Seat pitch is extremely important, mainly for 
evacuating the aircraft.
    The passengers already, in the normal case of getting on or 
off the airplane, are having difficult times getting into the 
aisle to sit down. Can you imagine, in a stressful situation, 
trying to evacuate in a real-life scenario passengers from a 
plane that is burning or that is half tilted or upside down.
    Listen, these people are having a hard enough time, like I 
said, getting in and out in a normal process, but in an 
evacuation it is going to be almost impossible. So that is an 
extremely, extremely important provision for us.
    Thank you for that question.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Ms. Brownley [presiding]. Mr. Perry, I call on you for 5 
minutes.
    Mr. Perry. Thank you, Madam Chair.
    Earlier this month, the FAA announced that it has again 
delayed the publication of its notice of proposed rulemaking on 
remote ID and tracking for UAS, a rulemaking required by the 
2016 FAA reauthorization. According to the FAA, the NPRM will 
now be published in September after the agency acknowledged it 
would fail to fulfill the congressional mandate by its July 
deadline.
    FAA's track record throughout this process offers us little 
optimism that the new deadline will be realized, but the 
importance of the issue demands their immediate action.
    It is my understanding that Chairman Larsen, Chairman 
DeFazio, Ranking Member Graves, and Ranking Member Graves 
expressed their concerns to Secretary Chao in a letter earlier 
this month. I appreciate this effort, and I share their 
concerns about the safety implications of continuing to operate 
without the remote ID and tracking system in place.
    By its inaction, FAA is failing to mitigate significant 
potential threats to the safety of the flying public.
    I would also like to highlight the impact of FAA's inaction 
on our global competitiveness in this up-and-coming industry. 
Every day the bureaucrats at FAA are unable or unwilling to do 
their job we cede more of our technological advantage in this 
industry to our international competitors, friends and foe 
alike.
    Ms. Schulze, obviously this is in your wheelhouse, so I 
want to offer you an opportunity to just respond. But I would 
also like to hear from the other members on the panel their 
thoughts about whether this drone identification increases or 
decreases the safety in the aviation industry and the flying 
public and if waiting another 2 years for this critical 
rulemaking to be finalized in the interest of the aviation 
community from either a safety or competitive standpoint is a 
good idea.
    Ms. Schulze. Thank you for your question.
    At this time, based on the investigative work we have done, 
we have not identified that. We don't have a position on that 
issue.
    I think we work very closely with the FAA and the drone 
industry. We do act as observers on the Drone Advisory Group to 
understand where these different technologies are going. And I 
think what we are trying to do is ensure that we are prepared 
to investigate accidents that might be caused in part by those 
types of deficiencies. So that is where our focus is right now.
    Mr. Perry. Thank you.
    Mr. DePete. Representative Perry, great question. I 
actually was going to try to integrate that into my comments 
here today.
    I am as frustrated as well, because the Air Line Pilots 
Association has an unwavering commitment to safety, and we have 
been part of the process of the introduction of UAS into our 
National Airspace System.
    And like any use of the airspace, we want it to be safe. 
And we certainly recognize the socioeconomic benefits to 
drones. It is a fascinating technology, and we support it. But 
we support the safe integration.
    So the delay is not a good thing, in my view. We have an 
opportunity here to do it right the first time.
    I shudder at the day that I hear about the accident when a 
drone gets sucked into an engine and two well-trained, well-
rested experienced pilots safely get it on the ground. Let's 
hope that is the outcome.
    But what really adds fuel to the fire on this particular 
issue is that ID and tracking, which we were a part of those 
aviation rulemaking committees, are foundational technologies 
that are going to be necessary for the safe integration.
    So, yes, we work very closely with all our regulators, and 
we are going to consistently compel them to move the process 
along quickly, but we can certainly use your help.
    Thank you.
    Mr. Perry. Appreciate it.
    Director Schulze, what is the U.S. aviation safety record 
over the last three decades, and how does it compare to the 
rest of the world, if you know?
    Ms. Schulze. Well, I can say that, as I mentioned in my 
statement, over the last decade it has improved in terms of the 
numbers. We are always looking at the individual factors 
involved in accidents, and we think that safety is something 
that one must always be vigilant, no matter what the numbers 
are reflecting.
    I don't have three decades' worth of data with me. We would 
be absolutely happy to follow up with you after the hearing on 
that data.
    But I would just reinforce that the numbers do tell one 
side of the story, but it is critically important, as I think 
some of the other witnesses have testified, to be proactive in 
understanding these issues as they manifest through some of the 
voluntary reporting programs and in terms of our role, under 
accident investigations.
    Mr. Perry. Thank you, Madam Chair. I yield.
    Ms. Brownley. Thank you.
    Mr. Cohen, you have 5 minutes.
    Mr. Cohen. Thank you, Madam Chair.
    I presume some of the--I know they are--I appreciate the 
relatives testifying, very courageous and compelling testimony. 
Thank you. I am sorry. I was here but I had to go to another 
hearing.
    Airplane safety is so important. And in those crashes, it 
was death. It is a serious matter and the public deserves the 
right to know when decisions to increase profit margins have an 
impact on their health and safety.
    The MCAS--that happened, but it happens in other places as 
well.
    Federal law requires the planes be capable of being 
evacuated within 90 seconds of an emergency. That is Federal 
law.
    With half the aircrafts' exits inoperable, there have been 
several recent occurrences that raise questions of whether all 
passengers on an aircraft can indeed evacuate within 90 
seconds.
    In 2016, the NTSB concluded it took at least 2 minutes, 21 
seconds, 51 seconds longer, over half the time longer than the 
FAA assumes is the correct time, for 161 passengers to evacuate 
a lightly loaded American Airlines flight.
    In January 2018, the NTSB concluded that evidence of 
passengers retrieving carry-on baggage during this and other 
recent emergency evacuations demonstrates that previous FAA 
actions to mitigate this potential safety hazard have not been 
effective.
    This should concern everybody. It is not the same as a 
plane falling out of the sky. But when a plane does have an 
emergency and they land and people can't get off in time, 
injuries and deaths occur. They are preventable.
    Emergency evacuation is a serious issue, as is the 
potential for air rage as tensions mount inside more tightly 
packed cabins.
    Doctors have warned that deep vein thrombosis can affect 
passengers, afflict them, who don't move their legs during 
longer flights.
    Despite this, seat sizes continue to shrink, and the seat 
sizes shrink not on their own, but because the airlines want to 
pack more people in, they want to emulate sardines in an 
airplane. They pack people in, in their sides, in front, you 
can't cross your legs, you can't get out.
    That is why Representative Kinzinger and I introduced the 
Safe Egress in Air Travel, or the SEAT Act, an acronym, that 
requires the FAA to review cabin evacuation procedures and 
issue regulations establishing minimum dimensions for passenger 
seats necessary for the safety of passengers.
    Pleased it was in the FAA reauthorization bill. Great work. 
Nine months since it passed into law, and it appears very 
little action has taken place. This is something that could 
save lives, and in 9 months since the Congress said do it, 
nothing has apparently been done.
    Ms. Schulze, you are the Acting Director of the Office of 
Aviation Safety, National Transportation Safety Board. As 
mentioned in Ms. Bassani's testimony, it appears zero action 
has taken place in implementation of the SEAT Act.
    Has the FAA begun working with the NTSB on implementation 
of the SEAT Act?
    Ms. Schulze. Well, thank you for your question.
    We have been contacted by the FAA, but I would say that 
there are additional conversations that are going to ensue. I 
think it is at the planning stage, would be our assessment. But 
we have been contacted.
    Mr. Cohen. And after 9 months after Congress said to do it 
and lives are in the balance and you are in the conversation 
stage?
    Hello. How are you? I am here at the University of Michigan 
as a freshman. Nice to meet you.
    Don't you think you ought to take some action by now?
    Ms. Schulze. Well, certainly the FAA requirement that was 
in the legislation is clear. We have made a number of 
recommendations, and we continue to work proactively with FAA 
to have those implemented. But from our standpoint, we are 
remaining fully open and ready to receive that work with FAA.
    Mr. Cohen. Can I ask you to try to call them and urge them 
to start to act on behalf of the flying public?
    Ms. Schulze. We absolutely, on a routine basis, interact 
with them to promote and advocate for those recommendations--
for our recommendations.
    Mr. Cohen. Thank you.
    Ms. Bassani, in your written testimony, you discuss the 
importance of the SEAT Act and how important it is for FAA to 
review cabin evacuation procedures.
    Can you expand on why the implementation is so important 
and how a new review of cabin evacuation procedures could 
possibly affect your members?
    Ms. Bassani. Thank you for the question, Congressman Cohen.
    First of all, I want to thank you for spearheading that 
act. It is one of the single most important things that flight 
attendants find that we need right now and that our passengers 
need.
    Safety is so important. And like I said earlier, safety is 
in our DNA. It is so important that we enact this soon, sooner 
rather than later, because the airlines are smashing seats into 
these airplanes. Come on.
    And when I talk to them, as the president of my union, and 
say this is ridiculous, we have a seat right up on an emergency 
exit on one of the newer planes, we have to almost sit in a 
passenger's lap to arm and disarm that door, and you know what 
they say in response? Oh, my God, if we have to remove that 
seat, that equates to $500,000.
    In my mind, every inch equates to a customer, a passenger's 
life, possibly. In their mind, every inch is real estate and it 
is dollars, and it is ridiculous. And I implore this committee 
to take that seriously. That is what we are here for. That is 
what you are here for. That is what all of us are here for, the 
safety in the aviation industry.
    And when I see the frustration of Congressman Cohen, you 
can triple that for us out here that have to deal with this 
every single day. And the reason why--we know why our 
passengers are enraged. Come on. By the time they get on the 
flight, first of all, they are already traumatized by the whole 
travel experience. And we inherit them, and it is our job, and 
we learn how to diffuse situations.
    But when you are up in the sky, there is no way you can say 
you need to leave and go out that door now. You have to deal 
with them. And it rests on us, it rests on us in the back of 
the aircraft.
    And it is extremely, extremely important that people not 
only feel comfortable, but that we are able to evacuate them in 
the case that we can save their life. And in some cases we can. 
And Congressman Cohen very eloquently stated some of those 
cases that have happened recently.
    Thank you very much for listening.
    Mr. Cohen. Thank you.
    And in closing, this is like the 737 in regards that they 
don't want to use actual people to test it, like simulators 
would be best. They want to do a computer study and have people 
who are all 150 pounds, 5,9", that just ran a marathon getting 
off the plane in perfect tennis shoes.
    Ms. Bassani. With a service animal, like a dog.
    Ms. Brownley. Thank you, Mr. Cohen.
    Mr. Cohen. You are welcome.
    Ms. Brownley. I recognize Mr. Fitzpatrick for 5 minutes.
    Mr. Fitzpatrick. Thank you, Madam Chair.
    Thank you all for being here today.
    Mr. Samuelsen first. The FAA certifies aircraft mechanics 
and technicians in the United States. First question is, do the 
workers in the foreign facilities have similar or equivalent 
certifications? And is there any reason we shouldn't require 
these workers to have at least an equivalent certificate from 
their Government before we allow them to perform any safety-
critical work?
    Mr. Samuelsen. Yeah. So the answer is absolutely not. There 
is no lawful requirement that mechanics or so-called mechanics 
on foreign soil have the same certification as those on U.S.A. 
soil. And it should absolutely be required. The playing field 
should be leveled.
    It has been said many times that airlines should not 
compete on safety, and that is exactly what is going on right 
now. They are competing on safety by sending work into foreign 
countries to try to save as much money as possible, even though 
it is objective and factual that work done overseas--in most 
overseas countries--is less safe than when it is done on U.S. 
soil.
    Mr. Fitzpatrick. Thank you, sir.
    Captain DePete, as you said in your testimony earlier, so 
that there is no confusion, it was Congress' intent that 
secondary barriers be installed in each new aircraft that is 
manufactured for passenger air carriers in the United States.
    Do you believe that the formed Aviation Rulemaking Advisory 
Committee Working Group is useful? And how can Congress act to 
ensure that there are no more delays and that the requirement 
is issued by October?
    Mr. DePete. So we see this issue as so important right now 
for the security of our passengers and crew. We have examined 
this issue for so long that we view the current efforts 
underway as nothing more than delay tactics.
    Having a secondary barrier is so critical because it 
preserves--let me make it clear--preserves the reactionary gap 
that is absolutely essential when that door is opened.
    And there have been tests done by the Department of 
Homeland Security, and how they have tried to take a flight 
attendant in a cart and see if they can get by them, and they 
valiantly stand there and try to help as best as they can. But 
we can do so much better. These have proven to be inexpensive, 
lightweight, very easy to install anew and then design into 
other airplanes. And then coming up with a million different--
and I have been on many of those working groups.
    But here is the real critical part, if I will. Just walk 
with me for this one. Somebody does get in. Without a secondary 
barrier, since it is an intrusion-resistant cockpit door, they 
lock themselves in the airplane in the cockpit. And now you 
have an intruder that you can't get at. Because I have often 
heard them say, this is never going to happen on a passenger 
airplane. Passengers are just never going to take it. They are 
going to, you know, run up and assault whoever is trying to do 
it. But that is the risk.
    One simple solution. It is so easy and it is so 
inexpensive. I have heard a A4A even say, well, how much is it 
going to cost in fuel burn? Well, we used to carry around 60-
pound bags with all our gear on it, all our flight pubs. And 
now we have electronic flight bags that weigh a fraction of 
that. I just suggest we call it even and put something in the 
airplane that will keep our passengers secure and safe.
    Mr. Fitzpatrick. So what is the cause of the delay, and 
what can we as a committee do to fix that?
    Mr. DePete. I think that we can say enough is enough, 
number one, that we have enough information to go forward--it 
has been mandated now--and get a concrete timeline for 
installation.
    And the other thing is to fight back special interests who 
are starting to already make noise about the fact that we meant 
type design and not--we were very careful about how we put that 
language together. So that would be extremely helpful. We don't 
need to know much more about this, but we do need a solution. 
And we can make a difference, because if it happens what will 
we say? What will we do? What do I tell my members?
    Mr. Fitzpatrick. Nearly 18 years after the 9/11 Commission 
Report, where they explicitly spelled out how the 9/11 
hijackers would zero in on the cockpit and wait for that 
exchange to occur, still no action.
    Mr. DePete. Well, to add insult to injury, again, as a 
cargo pilot, we have airplanes without hardened cockpit doors. 
We have animal handlers, some of them foreign nationals, and 
they have syringes and sedatives capable of taking down a large 
animal sitting behind. The pilots, we have already had 
instances where there has been confusion about what their 
instructions are and how they are supposed to behave in a 
cockpit. And it is so clear after 9/11. And the promises that 
were made by the industry to make sure that hardened cockpit 
doors--so--and that is just one of many of the shortfalls and 
one level of safety between passengers and cargo, but these are 
all--we know the solutions to these problems, but ALPA will 
continue to focus and fight against the special interests that 
seem to want to put hurdles in the way of the fine work that is 
being done by this committee. By the way, thank you for the FAA 
Reauthorization Act. Incredible, incredible. The question is 
now can we push it forward without other folks trying to will 
it away.
    Mr. Fitzpatrick. Thank you, sir, and thank you for your 
service.
    I yield back.
    Ms. Brownley. Thank you, Mr. Fitzpatrick. Mr. Brown, you 
are recognized for 5 minutes.
    Mr. Brown. Thank you, Madam Chair. I have a number of 
questions, and I just ask the panelists to be brief in your 
response if you could.
    Captain DePete, in your written testimony, you discussed 
the different pilot licensing requirements at the international 
level.
    Mr. DePete. Yes, sir.
    Mr. Brown. Specifically, the international aviation 
regulatory body recently introduced a license called the 
multicrew pilot license. And you have mentioned some potential 
safety issues associated with that. Can you elaborate?
    Mr. DePete. Yes, sir, I can. Thank you for the question, a 
really important question, especially given the discussions 
today. So, most recently, I wrote a letter to Secretary Liu, 
the Secretary General of the International Civil Aviation 
Organization, asking for a global review of pilot training and 
qualification standards. I want to qualify this conversation 
before I begin, though.
    The pilots in Ethiopia and Lion Air were at a significant 
disadvantage by not knowing what was on the aircraft. If you 
know anything about--we are specialists in human factors and 
startle responses, and I think Captain Sullenberger was very 
eloquent about how he described this. In these very automated 
airplanes with these integrated systems, we need more training, 
not less.
    So the only thing that stands in the way--I have seen 
automation all my life. I have seen good automation that helps 
me do my function. And I have seen automation that tries to 
replace me, and it is just dumb, and we have to figure out ways 
to work around it. And those are the things that they become 
distractions almost in a way.
    So we have seen how it is supposed to work. Automation is 
supposed to be assistive technology to help us do our job of 
monitoring the flight path and making sure it is safe, not 
replacing, because when you go down that road, there is not a 
level of artificial intelligence that exists today where that 
capability is sound.
    The failure of the Boeing 737 MAX in particular, we are 
looking at a series of--very typical to see in these types of 
accidents a series of system breakdowns--not one thing. And we 
have a very vast interconnected aviation ecosystem.
    But, clearly, I want to ask you a question. You have your 
family or yourself on an airplane. Do you want your crew to be 
well-trained and experienced, or do you want them to just be 
trained strictly to rely on automation? That is a simple 
question, and I am not relating it to any other events at this 
point, because that particular airplane had a system 
malfunction that basically made it almost impossible or 
difficult to control if you didn't know about it and you 
weren't prepared for it, you didn't train for it.
    We here in the United States--I know this is a long answer. 
There isn't an airplane I have flown where I didn't have a 
runaway trim system failure. But if you miss it or if there is 
a startle response or some impact or other distractions--this 
particular instance, that is why we have called for more robust 
oversight into the oversight process, the designation 
authorization and the certification process.
    Mr. Brown. Thank you. Thank you.
    Mr. DePete. Long answer, but I am sorry, it is the only way 
to cover it all.
    Mr. Brown. A lot of these issues require a lot more time 
than we have from the dais here.
    Mr. Samuelsen, in your written testimony--and you also 
touched upon it today--you mention that more than 8,200 
aircraft maintenance jobs have been moved abroad to foreign 
repair stations since the early 2000s. Can you go into more 
detail on your organization's observations of subsequent 
shortages of qualified U.S. professionals and what we ought to 
be doing to address those shortages?
    Mr. Samuelsen. Yes. So I don't think the cause of that is--
in fact, the cause of that is not that there are untrained 
professional mechanics in the United States. The cause of that 
is that the FAA has allowed loopholes----
    Mr. Brown. Let me clarify. I agree with you. I think it is 
the effect. If you have got foreign overseas maintenance, then 
you have less jobs in the United States and then you see a 
decline in workforce as a result. Are there critical shortages 
in the professional----
    Mr. Samuelsen. No.
    Mr. Brown. No? OK.
    Mr. Samuelsen. No, there aren't. But I think the airlines 
use that as one excuse to continue to export American jobs 
overseas--and capital, $2 billion worth of capital.
    Mr. Brown. Thank you.
    Ms. Bassani, you mentioned the 10-hour rest period. You 
also mentioned a lot of conditions that put a lot of strain and 
stress on the ability of a flight attendant to do their job. 
Can you sort of put a face on that? I mean, you know, if we are 
not meeting 10-hour crew rest requirements, how difficult that 
is to perform the job of the flight attendant?
    Ms. Bassani. Thank you for that question, Congressman 
Brown. First of all, it is important to recognize that that 10-
hour rule, that doesn't mean behind the hotel door. That is 
from the time you leave the aircraft until the time that you 
check into your next trip. So that in itself is already a 
reduced rest. Ten hours is not enough, but it is what we have 
now, and we hope that we can--we need to get that through. It 
should not be being slow-walked at this point.
    Flight attendants must be alert at any minute to be able to 
perform something as important as an evacuation or perhaps 
operate the AED machine to save your life if you are having a 
heart attack. How can they be alert if they haven't had enough 
sleep? And I am not talking about just on domestic soil, but 
flight attendants also fly internationally. In America alone, 
you have three different time zones.
    So you factor in all of those different types of things, 
and it is so important that they get their rest. Like I said, 
that is minimal. They need more. But it is so important to get 
that done for our flight attendants and for our passengers' 
safety. Thank you for that question.
    Mr. Brown. Thank you.
    Thank you, Madam Chair.
    Ms. Brownley. Thank you.
    Mr. Stauber, you are now recognized for 5 minutes.
    Mr. Stauber. Thank you very much, Madam Chair.
    I really appreciate the witnesses and your comments, in 
particular a point about the safety. Every one of you, the 
safety was the priority. And before I begin my questioning, I 
will give you a little history of my background. I was a police 
officer for 23 years, ended up as a commander. Safety was the 
number one priority, that the men and women that I worked with 
went home to their families. And to hear that there were family 
members that didn't come back, it is heart-wrenching. And to 
those family members, our thoughts and prayers. And we are 
going to do something about it. We will make it better with the 
experts here. And I appreciate all your comments.
    Ms. Schulze, while the workers in the front lines are 
critically important to aviation safety, it is also important 
that we have the regulations and safety protocols in place to 
ensure the safest possible experience. Much of the 
responsibility falls on the shoulders of the FAA and the NTSB. 
As you know, in July of 2017 at San Francisco Airport, an Air 
Canada Airbus A320 nearly landed on a crowded taxiway, 
mistaking it for a cleared runway. Information about a runway 
closure that could have prevented this confusion was located on 
page 8 of the 27-page list of San Francisco Airport NOTAMs. It 
was the NTSB's finding that a contributing factor was the 
ineffective presentation of the note of information.
    How has the FAA responded to this recommendation?
    Ms. Schulze. Thank you for your question. We did issue a 
recommendation to ask that that type of information be--
methodology to better prioritize that information for pilots be 
developed. I will need to get back to the committee on the 
current status of that.
    We have had some more recent conversations with the FAA, 
but I think I would also comment that, because of our 
engagement with the industry and the FAA, we do understand that 
they have been looking at the NOTAM process for some time. Our 
recommendations were more specific to the findings in San 
Francisco.
    Mr. Stauber. Thank you. And as you know, I put forth 
legislation, the Notice to Airmen Improvement Act. And I think 
it is important that industry experts have the ability to 
prioritize that safety information, that the pilots understand 
the importance. But, quite frankly, to have a 27-page NOTAM, I 
think, Captain DePete, you would agree with me that let's 
prioritize the information that is absolutely needed, so, as 
you command that aircraft, you know the concerns around the 
runway, concerns around the airport, and you can make a 
decision whether it is safe or not.
    Mr. DePete. Absolutely. And I appreciate that question, 
because that was a bit of a game-changer when that one 
happened. And in particular, it was a very alert crew on the 
parallel taxiway from United Airlines that happened to comment 
on it. And I venture to ask myself a question, if that was a 
fatigued cargo crew under a different set of flight-time/duty-
time rules, would they have caught that like that? So, again, 
that elaborate interconnectedness of a, you know, complicated 
ecosystem, aviation ecosystem.
    But wrong runway surface landings are a very big issue, 
particularly of interest to us in the Airline Pilots 
Association, but also in the FAA and the NTSB. There are 
various technologies that could be very assistive, like FAROS, 
Final Approach Runway Occupancy Signaling, and things like that 
that can be employed. Better guidance.
    We think that in 121 operations, airline operations, that 
there should be precision approach guidance to every runway. It 
was decided by the FAA it is the safest course of action in 
2000, and yet some people are still trying to push that back.
    Mr. Stauber. I think, with your input, the professionals' 
input, the legislation I think will get much better.
    My last question is, Ms. Bassani, and to go back to the 
front lines, we really appreciate everything that flight 
attendants do for our safety, much of what many of us don't 
notice.
    I appreciate you bringing up cabin air safety in your 
testimony, because it matters and it matters especially because 
of the long hours you all spend in that environment. I am a 
cosponsor of the Cabin Air Safety Act that you also mentioned 
in your testimony. Would you be able to talk a little bit more 
about the legislation and how it can help?
    Ms. Bassani. Yes, I sure can. In fact, first, I want to 
thank you for helping with that. It is also very important.
    One thing that I noticed, I have been flying for 33 years. 
Since I have been president of our union, which is only a year, 
we have seen an uptick in these incidents. And, in fact, in the 
past, we didn't have very many of these types of occurrences. 
Like I said in my testimony, last year alone, 1,500 reported 
fume acts from our flight attendants. That is huge. And I know 
the pilots are experiencing much of the same, and I know that 
John Samuelsen also is an advocate for getting something done 
with this as well.
    It is really important that we have a way to record and to 
collect data and reporting procedures are standard throughout 
all of our airlines and systems, including management and the 
unions. I have actually hired a specialist in this area about, 
oh, 4 months ago, because we needed more help. We need someone 
dedicated to help these flight attendants that are experiencing 
these fume events. And it really is damaging their health. 
There are a lot more stories. There are a lot of dedicated, you 
know, Facebook pages and, you know, I am sure you have seen 
some of the videos. And I want to thank you for stepping up and 
helping us with this.
    Mr. Stauber. You are welcome. We are going to work on it, 
and I appreciate your comments.
    Madam Chair, I yield back.
    Ms. Brownley. Thank you, Mr. Stauber.
    I now call on Mr. Carbajal for 5 minutes.
    Mr. Carbajal. Thank you, Madam Chair.
    Captain DePete, in your testimony, you recognized the 
difference in safety rest standards, flight time duty between 
passenger airline and cargo airline operations.
    Mr. DePete. Yes, sir.
    Mr. Carbajal. The so-called cargo carveout.
    Mr. DePete. Right.
    Mr. Carbajal. Can you explain to me how this came to be and 
why this is a problem, and what do you believe should be done 
about this imbalance?
    Mr. DePete. OK. Thank you for that question. Near and dear 
to my heart, of course. And I know we have somebody in the 
audience here who was also on the ARC, on the flight time/duty 
time ARC, so I will try to get it right.
    Obviously, after the Colgan accident, when it was 
determined that fatigue played a part in the accident, through 
an ARC process, we came out with--industry and regulators 
worked together with labor to come up with FAR 117. I think it 
is a pretty good rule.
    And due to a cost-benefit analysis that was done, it was 
determined--and I say a specious argument at best, because I 
looked at what examples they cited to make the determination. 
They eliminated cargo out of the rule, based on an ineffective 
cost-benefit analysis. I think the cost was supposed to be 
upwards of $500 million, and it was only a $31 million benefit.
    Now, I would say that that is a dangerous way to go in the 
sense that you could weigh and maybe weight the idea of what 
the cost is or the benefit is. First of all, like I said, I 
think it was flawed. They weren't measuring a 777 loaded with 
dangerous goods barreling down into Los Angeles. They picked a 
727, an old aircraft that fell short of a runway in Florida 
somewhere in Tallahassee in a remote area. So a flawed cost-
benefit analysis.
    But all the same, I think we should maybe look or you could 
look, the committee could look at as to whether or not when we 
are dealing with safety issues, do we want that to be the 
number one weighted factor, or do we want it just somewhere in 
the list.
    Second of all, here is the real situation. Imagine this for 
a moment, and I use this example a lot. You have a schoolbus in 
one lane on a highway, and you got your children on that 
schoolbus. You have got your children going to school on that 
schoolbus. And right next to it is a tractor-trailer carrying a 
bunch of freight on it.
    It is a proven fact scientifically that time awake of 17 
hours or more on task is equal to a blood alcohol level of 
about .05. So you have a very sober driver driving your kids to 
school and right next to him is a tractor-trailer. And my point 
in bringing that up--who is impaired, obviously impaired. My 
point in bringing it up is we share the same skies. We fly over 
the same cities. We land at the same airports.
    I remember even the--if you know traffic collision 
avoidance system, it was included in passenger airplanes and 
not in cargo aircraft. And it took an almost head-on collision 
with Air Force One to make that change.
    So it is a gaping--if I had to describe it as anything, you 
are only as strong as your weakest link. You have a great 
safety system, but that is one gap that needs to be closed. And 
I will conclude with this, because it is an important 
statistic.
    When you look at the two individual risk factors of both 
passenger ops and cargo ops and you look at the frequency with 
which passengers fly and cargo fly, kind of tallied, if you 
looked at the number of departures and we swapped and we did as 
much flying as passengers did, in 1 million departures in 10 
years, you would have 276 accidents in that 10-year period. 
That is the difference in that risk profile. It is startling. 
So we really need to close that gap because you are only as 
strong as the weakest link.
    Mr. Carbajal. Thank you.
    I will yield the remainder of my time to Representative 
Napolitano as she has to go vote for another committee.
    Mrs. Napolitano. Thank you, Mr. Carbajal.
    Ms. Bassani, I fly twice a week back to California and 
coming here, and I have the greatest respect for flight 
attendants, the primary connection with customers. They get 
asked every imaginable question about the safety, security, and 
efficiency of the airplanes and the airlines. And I have 
overheard flight attendants get asked questions that only an 
aerospace engineer could answer, yet they have been very 
diligent and intelligent in answering questions.
    Do the airlines, the FAA, and the airplane manufacturers 
give you sufficient training to handle any question, especially 
technical questions? Should it be your job to handle them?
    Ms. Bassani. First of all, I would like to thank you for 
your question, Mrs. Napolitano. That is a loaded question. We 
do receive annual training, emergency training. They don't 
cover questions, you know, for every single incident. No, I 
would say no.
    Flight attendants themselves are a very inquisitive group, 
and, of course, the longer that you are around the airline and 
working in the airline, you do gain knowledge that you wouldn't 
normally have just as a passenger. But there is so much now 
that has changed in the airline industry; perhaps that is 
something that we do need to pursue. And I thank you for that 
question.
    Mrs. Napolitano. I would think so. Thank you very much.
    I have other questions for the record.
    Thank you very much, Mr. Chair.
    Ms. Brownley. Thank you, Mrs. Napolitano.
    I will now recognize myself for 5 minutes.
    I wanted to get back to the foreign repair stations, Mr. 
Samuelsen. And I know in your testimony you talked about the 
fact that I think both in 2003 and 2015, the IG has identified 
on several occasions weaknesses in the FAA's oversight of 
overseas repair stations. The FAA Reauthorization Act of 2012 
and 2016 addresses repair station oversights. We are talking 
about issues of drug testing, preemployment background checks, 
and security screening. Now we have Thailand and Costa Rica 
classified as category 2. And category 2 is defined as the 
Government does not have the confidence--it does not have the 
confidence--to meet safety standards.
    So I just want to ask--it has been somewhat asked already, 
but what are the FAA's stated reasons for the failure to 
implement this law?
    Mr. Samuelsen. I honestly don't know that the FAA has 
articulated a good reason for allowing these loopholes to 
continue and allowing the work to be sent overseas. And, 
certainly, they don't have a good reason. There is no reason 
for them to continue to allow U.S.-flag carriers to do work in 
the countries that you mentioned that have been downgraded. It 
is a potential disaster waiting to happen.
    And we have heard a lot of conversation today about safety 
being the paramount issue in not only the aviation industry but 
across the entire transport sector. And I don't think that the 
current situation with the FAA or passenger air carriers 
recognize safety as their paramount function. I think they are 
willing to jeopardize safety in order to maximize profit by 
sending aircraft maintenance into foreign countries that have 
objectively less safe standards than we do on U.S. soil.
    Ms. Brownley. And have you yourself been to some of these 
foreign repair stations to witness it for yourself?
    Mr. Samuelsen. I have not. I have not. But we do have plans 
to go to Brazil to try to access the hangar where American 
Airlines is doing some work.
    Ms. Brownley. Thank you.
    Mr. Samuelsen. Some shoddy work.
    Ms. Brownley. Thank you for that.
    And, Captain DePete, is this a concern for you?
    Mr. DePete. Oh, absolutely, ma'am. Chairman, over my entire 
career, it is pretty clear whenever we have had an aircraft 
come back from a foreign maintenance station, we are always 
taking a good look, and we ourselves have found instances in 
all our carriers where that can occasionally happen. It depends 
on the carrier.
    Some of the countries where we have these foreign 
maintenance stations are decent players, and others aren't. 
They typically go to lowest bidder. And I have always said 
this: Skilled labor is not cheap. Cheap labor is not skilled. 
And you end up getting what you pay for.
    Ms. Brownley. Thank you.
    Ms. Bassani, do you have concerns about these foreign 
repair stations?
    Ms. Bassani. Oh my god, yes, of course we do. In fact, we 
have supported the TWU in their quest not to offshore American 
jobs. We think it is very, very important to keep those jobs 
not only on our soil, but for the reasons that John Samuelsen 
outlined. It is going to keep our aircraft safer. And we fly on 
those aircraft, so we have extreme interest in how those 
aircraft are maintenanced. So we want to keep them here.
    Ms. Brownley. Thank you.
    Captain DePete, Mr. Sullenberger was here at our last 
hearing and talked about the simulators and about the 
importance of full motion simulators to create that muscle 
memory. And in your testimony, you talk about this and you talk 
about how there seems to be a movement within the industry now 
to move more towards nonmotion simulators. You talk about, you 
know, the pros and cons on both. If you could just speak to 
that, I have 34 seconds left.
    Mr. DePete. OK. That is a really great question, and I will 
try to answer it quickly. We just recently had an instance 
where--it is a requirement now to have upset and recovery 
training. Who is in control of the aircraft, having our crews 
trained to be able to handle that situation. And there were 
some airlines that were looking at doing this in a non-full-
motion simulator. And you just simply wouldn't get the same 
effect, in terms of the training. So, yes, it is really 
important.
    And simulators are great. They can do certain things, and 
they cannot do others. They don't replicate a real flight. In 
fact, I know, as a line check airman for FedEx, that there were 
times when people that would teach only the simulator and would 
be only in the simulator, and they were instructors. When they 
would go back to actually flying the real airplane on the line, 
they would actually have to take somebody with them just to 
kind of go through because it is a different experience.
    I know the fidelity has increased in some of these 
machines, but they haven't reached the level to where it 
equates to really flying air. Experience matters.
    Ms. Brownley. Thank you very much. And I thank all the 
witnesses for being here. This is a very important hearing, and 
I appreciate you very, very much.
    And I now recognize Ms. Norton for 5 minutes.
    Ms. Norton. Thank you very much. And I second what you just 
said, Madam Chair.
    I have a question first of Mr. Samuelsen because I remember 
in your testimony that you had indicated that the FAA had 
directed agencies--or workers, rather, at foreign repair--that 
Congress had directed workers at foreign repair stations who 
performed safety-sensitive work to undergo preemployment 
background checks.
    Do you have any information on the kinds of vetting that is 
currently being done? I am particularly interested in whether 
what happens abroad is consistent with the vetting we require 
here.
    Mr. Samuelsen. Yes. So what happens abroad is absolutely 
inconsistent with what happens on U.S. soil. And certainly, it 
is one of the reasons why the work is less safe when it is done 
overseas in most overseas countries. And the FAA has failed to 
follow through on what Congress has----
    Ms. Norton. How long have they had so far?
    Mr. Samuelsen. Several times over the last decade Congress 
has acted, but the FAA is lax in their enforcement, and it is 
potentially going to lead to a disaster. We have seen a 
disaster in the air transport system recently. And certainly, 
the FAA seems to be waiting around for another disaster to 
occur to start addressing these things. They should be 
proactively addressing these things and mitigating against the 
introduction of risk into the passenger transport system, 
aviation system.
    Ms. Norton. This is an open hole, open obvious hole in our 
system. It doesn't have to do with airplanes; it has to do with 
people. I am very concerned and ask for followup so that we can 
get a response from the FAA on when they intend to and how they 
intend to conform with what Congress has apparently asked them 
to do some time ago.
    Ms. Bassani, I really can't resist asking you about 
something you mentioned, the kinds of animals that you can 
bring onto planes: monkeys, chickens, pigs. I can't believe 
this. Miniature ponies, penguins. Come on. I can tell you if 
you brought some of those onto a plane, I would have to get 
off.
    And so I must ask you if the FAA bill, this section 437--
and I don't know precisely what it requires, but I wonder if 
you think it requires enough to address who gets onto planes, 
who is really a legitimate passenger. And I would like to know 
if Congress needs to do more to keep from frightening 
passengers with who gets brought onto planes. I would like your 
response and the response of any of you on this.
    Ms. Bassani. Thank you, Congresswoman Norton. Yes, we 
support section 337 of the FAA bill. And it should clarify----
    Ms. Norton. 437, go ahead.
    Ms. Bassani [continuing]. What constitutes a service animal 
in the first place. And, you know, they are not trained, so 
they need training on how to travel if they are going to bring 
those service animals on board.
    Ms. Norton. A service animal, is that defined in the 
statute as just somebody that makes you feel better about being 
on the plane? I mean----
    Ms. Bassani. It is an emotional--I am sorry. It is 
emotional support animal.
    Ms. Norton. Well, that means anything can get on the plane.
    Ms. Bassani. Well, we have seen almost anything on the 
planes; that is for sure.
    Ms. Norton. Yeah. Again----
    Ms. Bassani. There needs to be some oversight on this, 
definitely.
    Ms. Norton. I hate to ask for a hearing on this, but I am 
going to have to ask for Congress to try to clarify what we 
mean. And it sounds so open-ended that it is not what we 
intended.
    Finally, Ms. Schulze, could I ask you, I am concerned about 
the outsourcing of aircraft maintenance to foreign repair 
facilities and whether there has been any investigation by NTSB 
that has linked aircraft crashes to outsourcing of any kind. 
Have you even investigated that?
    Ms. Schulze. Thank you for your question. We do not have a 
position. We have not established a position on that because we 
have not seen that factor. But I will add that, clearly, we are 
going to look at all factors that can contribute to an aviation 
accident, including maintenance.
    Ms. Norton. It is outsourcing I am particularly concerned 
about.
    Ms. Schulze. Right. So we have not addressed that at this 
point.
    Ms. Norton. Will you be addressing that? Will you be 
looking at that?
    Ms. Schulze. Certainly if the evidence points us in that 
direction, we will do our normal comprehensive job of looking 
at that.
    Ms. Norton. Again, I would like to ask the committee to ask 
that NTSB look at--any outsourcing when it comes to aircraft, 
we ought to be looking at. Thank you very much.
    Mr. Garcia [presiding]. Thank you, Congresswoman.
    Next, I would like to recognize Representative Katko for 5 
minutes.
    Mr. Katko. Thank you, Mr. Chairman.
    And thank you all for being here today. Good afternoon. It 
was morning, now afternoon, and hopefully doesn't go into the 
evening for you. I do thank you all for being here, and I again 
want to acknowledge the parents in the corner, as you are there 
at all these hearings, and our heart goes out to you all and 
God bless you for what you are going through.
    Obviously, the name of the game is safety and how can we 
make it better. And so, for Ms. Schulze, the first question I 
have is there seem to be efforts afoot to, you know, support 
the efforts over the last several decades to change the 
aviation regulatory culture from punitive to collaborative. And 
I wonder if you could talk a little bit more about that and 
what that would mean if we could try and get more collaboration 
and less punitive going on, so we can have better procedures 
going forward.
    Ms. Schulze. I am sorry. Was that question for me?
    Mr. Katko. I am sorry. It was for Dana Schulze.
    Ms. Schulze. Yes, thank you.
    Thank you for the question. I think that, from the NTSB's 
standpoint, we have certainly supported the approaches that are 
being taken. We are observers on the Commercial Aviation Safety 
Team and the corresponding ASIAS activity that occurs to 
integrate a lot of these programs that I know Captain DePete 
mentioned with regard to flight operations, quality assurance, 
and the Aviation Safety Action Program.
    We also have actually, to the point of having a memorandum 
of understanding with those organizations to obtain information 
to help us when we are looking at safety issues in a particular 
investigation. And I think what we have seen is that there is a 
wealth of information in those systems, but it is really 
predicated on people coming forward and being unafraid to come 
forward and bring up information that could be very useful to 
identifying previously unknown hazards in the aviation system.
    So we do have a working relationship with those groups. We 
have seen value to contributing to our investigations. We are 
appreciative to the committee for our authority to use 
voluntary safety information to inform our investigative 
process. That is where we are at today.
    Mr. Katko. Are there things we can do better even more in 
that regard to improve the process?
    Ms. Schulze. We don't have a position in terms of a 
recommendation on those processes because we haven't seen a 
particular deficiency. I think that for us, it is continuing to 
be able to work collaboratively with the industry to get access 
to that information. It can help us identify emerging issues in 
the aviation safety system through our incident investigation 
process, much like we did with the Air Canada 759 
investigation. So we appreciate that authority.
    Mr. Katko. Thank you.
    Captain DePete, is there anything you want to add to that 
before I ask you another question?
    Mr. DePete. I am sorry. Add to that, you said?
    Mr. Katko. Yes. Is there anything you want to offer in that 
regard?
    Mr. DePete. I very much believe in robust reporting. And, 
in fact--and that is the question, right?
    Mr. Katko. Pardon me?
    Mr. DePete. That is the question you want to address?
    Mr. Katko. Yes.
    Mr. DePete. I just want to be sure that I was going to 
answer it correctly for you. I was absolutely thrilled--and by 
the way, thank you. Great to see you again and thank you for 
all you do for safety and security.
    Mr. Katko. You are welcome.
    Mr. DePete. You do a lot. It was really fantastic to have 
the automatic acceptance of ASAP reports, number one, because 
the ASAP reports and other voluntary safety action programs 
have contributed greatly to a period of safety in aviation 
history that we haven't ever seen. So thank you for that.
    It is so important, especially now, since we see fewer and 
fewer accidents here in the United States, that that reporting 
continue to be robust and we continue to look at new ways to 
make it even better because the fact that we aren't seeing the 
accidents and we need to know where the stress points in the 
system are. So I can't overemphasize how important that is to 
us all.
    I would say that, since we talked about fumes quite a bit, 
that we have been trying to work working across the board with 
others, both industry and regulators, to implement reporting 
for fume events as part of the ASAP program. And we worked with 
some of our carriers to get that done.
    But it would be very helpful if this body could help us in 
the sense that there needs to be a repository for all that data 
to analyze it, to see where we can go and really completely 
understand from a very neutral position what is happening in 
the airplanes.
    Mr. Katko. I would ask you, I mean, if you have 
suggestions, more details, please submit them to me. And I will 
be happy to take a look and see what we can do from a 
legislative standpoint.
    Mr. DePete. Thank you very much.
    Mr. Katko. Ms. Bassani, I don't think I have time to ask a 
lot of questions, but I will note that Congresswoman Holmes 
Norton's concerns are well founded. I think we need to get kind 
of a handle on the extent of this program. I am all for 
accommodating passengers as much as they can, but I also don't 
want to see the process being abused and getting out of 
control. And to some extent, I am a little concerned about that 
as well. So I would just ask you if you have information on 
that you would like to provide us with, I would like to hear 
it.
    Ms. Bassani. Thank you. We can provide that in writing.
    Mr. Katko. Thank you very much.
    And I yield back, Mr. Chairman. Thank you.
    Mr. Garcia. Thank you. I now recognize myself for 5 
minutes.
    In both 2012 and 2016, Congress directed the FAA to address 
three safety gaps between domestic and foreign repair 
facilities: One was security screening for safety-sensitive 
personnel; another, risk-based oversight of facilities; and, 
third, drug and alcohol testing. To date, the FAA has taken no 
actions on any of these, to my knowledge. Since 2016, the FAA 
has approved a net of 200 more overseas facilities.
    As I understand from the testimony today, more than 8,200 
maintenance jobs have been offshored. This outsourcing further 
enables airlines to evade critical safety and maintenance rules 
that apply at American facilities. It also appears to me also 
an effort to avoid organized labor.
    To Mr. Perrone and Mr. Samuelsen, how many new foreign 
repair stations have opened since these directives beginning in 
2012 were first passed into law and what safety gaps exist?
    Mr. Samuelsen. So the answer to the question is it is 200 
in the last 2 years and 300 since 2016. There are 900 in total. 
I am not sure how many since 2012. But, certainly, the FAA has 
created an atmosphere where American passenger air carriers, 
U.S.-flag carriers, are exporting more and more work overseas. 
And there is only one reason to do that, and that reason is for 
profit. It is certainly not because the work is being done 
safer.
    And I would further say that the U.S.-based mechanics are 
an effective stopgap. They are a stopgap for work coming back 
from overseas facilities, China and South America, where the 
work is done in an inappropriate way, and we have given some 
examples of that. But they are a stopgap. And eventually work 
being done overseas is going to lead to the potential of a 
disaster happening to American citizens on a U.S.-flag carrier.
    And the issue of avoiding organized labor, I think it is 
maximizing profit at the risk of exposing crewmembers and 
travelers to flawed safety planes. I think that is really the 
goal. We have nonunion carriers that are doing it as well. So 
it is a bad situation.
    Mr. Garcia. Mr. Perrone.
    Mr. Perrone. I got to put my glasses on because it is 
getting into that point.
    We have domestically about 3,000 repair stations, foreign 
about 915, but that is growing rapidly. And the problem that we 
have, the concern is that the FAA has to have inspectors now 
travel overseas. And, again, with staffing issues, with money, 
Government shutdowns, that gets delayed or backlogged.
    Also, the oversight, as we have said, they don't have the 
same standards as we do for domestic. So the folks that are 
working there are not at that same high level that we have in 
the United States.
    Mr. Garcia. So how much maintenance work gets performed 
outside the U.S. now, if you know, and how much of that work 
would return to the U.S. if these safety gaps were closed, to 
either one of you?
    Mr. Samuelsen. So one of the issues that is going on is 
that the FAA doesn't have a system for collecting data for 
problematic work that comes back from overseas. They simply 
don't collect the data.
    So the only time the FAA receives data on it is if there is 
a problem that leads them to make specific inquiries of 
passenger air carriers, U.S.-flag carriers. And it is about 30 
percent of the work is done overseas now. And that is up from 7 
percent in 2003. So it is growing tremendously.
    And the idea that this is somehow beneficial to American 
air travelers or to the safety of American air travelers is 
ludicrous. It is not beneficial at all. It is objectively less 
safe, yet the airlines keep increasing the amount of work they 
are doing overseas. And there is only one answer for that, and 
I said it before: It is profit.
    Mr. Garcia. As you know, Congress has already directed the 
FAA to close these gaps. What next steps would you recommend we 
take to bring the Administration into compliance, in 30 
seconds?
    Mr. Samuelsen. Because the FAA has ignored Congress, they 
have just ignored Congress, there needs to be a moratorium on 
any more certification of foreign stations until the situation 
is under control.
    Mr. Garcia. Mr. Perrone, anything else?
    Mr. Perrone. No, I agree. And I think, you know, touching 
on having an FAA Administrator would be beneficial. As you 
know, we have had an actor for a while. So that there should be 
somebody that is going to be in place that can hold the agency 
accountable to Congress' wishes.
    Mr. Garcia. Thank you. We are now going into a second round 
of questions, so I would like to recognize Ranking Member 
Graves.
    Mr. Graves of Louisiana. Thank you.
    Captain DePete, I want to follow up on a question earlier 
and just ask for a concise answer. So there were discussions 
earlier in the hearing about establishing an early warning 
system.
    What I would like to understand is effectively what 
process, what opportunities are there in place now for your 
members to be able to report or identify concerns related to 
safety? Does that make sense?
    Mr. DePete. Yes, sir.
    Mr. Graves of Louisiana. OK. If we are creating an early 
warning system, basically what do we have now?
    Mr. DePete. Actually, and you have helped a great deal here 
by the automatic acceptance of--because when these ASAP reports 
are filed, they get processed immediately or within a 
relatively short period of time, and they get analyzed. And 
before, under the previous rules, as you know, it took time to 
determine whether or not the report would meet the standards, 
with a few exclusions.
    But now we know that that information is so critical to the 
functioning of the system to learn that early, as the early 
warning, that we will put aside whether or not it is to be 
accepted or not and provide the protections in the program.
    We are more interested in seeing the data and making sure 
we get the data. So it has been a very significant, effective 
improvement in the past, so we have been really happy about 
that.
    Mr. Graves of Louisiana. I want to understand sort of where 
we are to understand, you know, sort of where we should go or 
where the deficiencies are. So I appreciate you bringing that 
up. Look, you have raised twice now in the hearing that the 
disparity between cargo and passenger on the fatigue issue, and 
I appreciate you raising the fatigue issue. It is something 
that I think is important that we continue to take a close look 
at and make sure that we understand.
    I have a question for you, though. So I fly back and forth 
from New Orleans every week, and I know that we have some 
pilots that commute often with me, or I commute with them. How 
does that factor into fatigue? And I am curious because, you 
know, last night, I finished up at midnight 30, but I didn't go 
to bed until 2:15. So just because I had an opportunity to 
sleep, I didn't do it. I just want to understand how that 
factors in.
    Mr. DePete. No, I am familiar with the question. And the 
committee of the ARC, the Aviation Rulemaking Committee, that 
handled this, actually looked at the issue. The issue of 
commuting was brought in. And many of our own--within our 
union, many of our own companies institute policies to ensure--
when you show up for your job, whether you have driven 5, 10, 
you know, 5 or 10 hours to get to your base to take a flight, 
you are responsible when you sign for that flight to be fit to 
fly, period.
    It is just that when they looked at the complexities of 
trying to figure out, well, did they drive, did they fly, did 
they that; it just became you had to stay within your normal 
allowable flight duty period, basically. And if you exceeded 
it, then you couldn't sign for the flight. So it was up to the 
pilot to make sure that he got himself in position, ready to 
fly and fit to fly.
    The sad part about, you know, the cargo end of it is, is 
that last I looked I have the same physiology that any other 
pilot flies, regardless of what they fly. And that is where the 
real problem lies and the travesty in this, because we have got 
people who clearly, from a scientific point of view, are flying 
relatively impaired. And, obviously, it would have an effect on 
the total system. So it is just time. And I want to thank the 
NTSB, actually. They have been longstanding supporters of 
ending the cargo carveout ever since Deborah Hersman's days.
    Mr. Graves of Louisiana. I appreciate the information. I 
want to better understand that issue, and you bring it up. Do 
you drive in or you drive long hours or what have you, and just 
making sure that we are not looking in a vacuum as we move 
forward.
    Mr. Samuelsen, you have been pretty candid on the foreign 
servicing facilities. And I do appreciate your candor, because 
as we have talked about it, and I believe it was Captain Sully, 
who was here at the last hearing, talked about how we have got 
to look at every step in the process and not just become 
myopically focused on one thing. And I think it is important. 
And you are raising some really important concerns about safety 
and making sure that we have safety parity with repair and 
maintenance facilities. And I appreciate your candor.
    I do want to ask a question, because I hear you talk about 
it. I know maybe a little bit outside your lane, but do you 
sense that it is a cultural safety issue, perhaps, at some of 
these other facilities, that they don't have the same culture 
of safety that you have with some of the facilities here?
    Mr. Samuelsen. I think that is absolutely an element of it. 
I think there are countries, such as countries in the EU, that 
have extremely high safety standards and a safety culture that 
parallels American U.S. soil safety culture. But, certainly, 
there are countries that U.S.-flag carriers are sending work to 
that simply don't have the safety culture and don't view safety 
as the paramount reason for the maintenance work that is done 
on these planes.
    Mr. Graves of Louisiana. Thank you. And do you think that 
that culture of maybe lack of safety is limited to just the 
servicing, or do you think that that expands perhaps to other 
aspects of the airlines as well, including the pilots?
    Mr. Samuelsen. I think that when you begin to compare the 
safety of culture within the United States, it is hard to match 
it. There are some countries that do. And I think it goes 
across the entire aviation industry, not just related to the 
technician work that we do on airplanes, on jets.
    Mr. Graves of Louisiana. Thank you.
    And, Mr. Chairman, thank you very much. And I want to thank 
all of you for your commitment to your suggestions on safety. 
We have got to continue striving for perfection. Thank you.
    Mr. Garcia. Thank you. Are there any further questions from 
Members of the subcommittee?
    Seeing none, I would like to thank each of the witnesses 
for your testimony today. The contributions to today's 
discussion have been very informative and helpful.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may have been submitted to them 
in writing, and unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    No other Members having anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Mr. Chairman.
    It is with great appreciation that I thank the Chairwoman for 
holding this hearing today, as it allows us to examine aviation safety 
issues. Regarding the two Boeing 737 MAX aircraft tragic incidents, my 
interests are how we as a legislative body can adequately address 
challenges to aviation safety and potential avenues of reform in the 
Federal Administration Aviation (FAA) certification processes. Safety 
is key. No family should have to endure the experience that our witness 
in the first panel has faced.
    I am eager to hear from the stakeholders serving on the second 
panel today about the safety and service challenges faced by the 
professional crews and passengers.
    Currently, we are experiencing a crisis of trust in aviation 
safety. The importance of an appropriate certification process for 
large commercial aircraft in the United States is now more critical 
than ever. We must advocate for transparency when examining and 
considering reforms of FAA's certification processes.
    As recently as 2015, the U.S. Department of Transportation's 
Inspector General issued a report identifying weaknesses in FAA's 
oversight of FAA certified overseas repair stations that work on U.S. 
air carrier fleets.
    According to Mr. Samuelsen's written testimony, FAA has renewed 
certification of overseas repair stations in Thailand this past 
February even though the Civil Aviation Authority of Thailand failed 26 
different metrics essential to aviation safety. This is very 
concerning.
    Passengers flying in the U.S. expect their aircraft to meet U.S. 
safety standards, including when the aircraft undergoes repairs, 
whether the aircraft is serviced in the U.S. or any other country. That 
is a reasonable expectation. We, on this Committee, must make sure FAA 
implements the safety mandates in current law.
    I look forward to hearing your testimony and solutions from 
stakeholders to improve aviation safety for professional crew and 
passengers.
    Thank you. I yield back.

                                 <F-dash>
 Prepared Statement of Hon. Donald M. Payne, Jr., a Representative in 
                 Congress from the State of New Jersey
    I extend my sincere condolences to the families of these tragedies 
and cannot imagine the tremendous grief that you are experiencing. One 
life lost is too many and I am committed to a full and thorough 
investigation to ensure the safety of the 737 MAX before it is back in 
the air.
    I commend Mr. Njoroge and Mr. Stumo for having the courage to speak 
before this committee in what certainly are difficult circumstances. As 
a father of three, the thought of harm coming to my children is 
unbearable. I look forward to hearing how we can better improve 
aviation safety.
    I also look forward to engaging with aviation professionals to hear 
their opinions on how best to ensure that planes, passengers, and crew 
are safe during flights. I am committed to safe skies and am very 
supportive of this Committee's investigative efforts. While we cannot 
turn back the clock, but we can put policies in place that will 
hopefully prevent future tragedies from occurring.



                                Appendix

                              ----------                              


  Questions from Hon. Eddie Bernice Johnson for Dana Schulze, Acting 
  Director, Office of Aviation Safety, National Transportation Safety 
                                 Board

    Question 1. With regards to ensuring that outsourced maintenance 
and readiness of airplanes are completed in compliance with FAA 
standards:
    a. Who is responsible for ensuring such compliance?
    Answer. Regardless of where the maintenance is performed, the air 
carrier is ultimately responsible for the maintenance program, how the 
aircraft is maintained and the airworthiness of the fleet it operates. 
In addition, the FAA along with international regulatory agencies, 
would oversee the outsourced air carrier maintenance facilities.

    b. What is the process to ensure such compliance?
    Answer. The process for enforcing compliance with the standards is 
the responsibility of the FAA. The NTSB is responsible for 
investigating transportation accidents and issuing safety 
recommendations based on our findings.

    c. What is the consequence for failure of compliance?
    Answer. Enforcing compliance with the standards is the 
responsibility of the FAA. However, failure to comply with FAA 
standards can lead to tragic consequences, as proper airplane 
maintenance is critical to preventing accidents. Although the NTSB is a 
nonregulatory agency (and therefore cannot impose any legal penalties 
on an air carrier for failing to comply with FAA standards), we do 
investigate accidents in which lack of oversight at outsourced 
maintenance stations was a causal or contributing factor (for example, 
the ValuJet flight 592 crash in Miami, Florida, on May 11, 1996, which 
involved a domestic repair station, and the ValuJet flight 597 crash in 
Atlanta, Georgia, on June 8, 1995, which involved a foreign repair 
station).

 Questions from Hon. Garret Graves for Dana Schulze, Acting Director, 
    Office of Aviation Safety, National Transportation Safety Board

    Question 2. Ms. Schulze, to NTSB's knowledge, has maintenance 
performed at a foreign repair station certified by the Federal Aviation 
Administration under part 145 of Federal Aviation Regulations 
contributed to a commercial aircraft accident in the United States?
    Answer. The National Transportation Safety Board (NTSB) has been 
conducting accident investigations and determining probable cause for 
52 years, since 1967. One case in which NTSB determined that 
maintenance performed at a foreign repair station certified by the 
Federal Aviation Administration under Title 14 Code of Federal 
Regulations (CFR) Part 145 to be a probable cause in aviation accident 
occurred on June 8, 1995. That's when ValueJet Airlines flight 597, a 
Douglas DC-9, had an uncontained engine failure during takeoff from 
Hartsfield Atlanta International Airport in Atlanta, Georgia. The NTSB 
determined the probable cause to be `` . . . failure of Turk Hava 
Yollari maintenance and inspection personnel to perform a proper 
inspection of a 7th stage high compressor disk . . . '' However, the 
staff is not aware of additional cases in which maintenance by a 
foreign Part 145 maintenance facility was found to be causal or 
contributory to a 14 CFR Part 121 accident.

    Question 3. Ms. Schulze, what recommendations has the NTSB made to 
improve the safety of commercial aviation conducting operations exempt 
from Part 135 and operating under Part 91 (e.g. certain air tours, 
skydiving flights, etc.)?
    Answer. Aircraft operations conducted under Title 14 Code of 
Federal Regulations (CFR) Part 135 receive more oversight by the 
Federal Aviation Administration (FAA) than those operating under Part 
91. This oversight covers all aspects of a carrier's operations, 
maintenance, flight crew training, and establishes higher 
qualifications for the flight crew. In addition, Part 135 carriers are 
required to use FAA approved operations specifications addressing 
multiple safety aspects of the conduct of flights.
    Currently, 14 CFR Part 135.1 allows commercial air tour flights 
departing and returning to the same airport and flying within 25 miles 
of the airport to operate under Part 91. Based on the lack of oversight 
and required operations specifications the NTSB issued recommendation 
A-95-58 to the FAA to eliminate this exemption. The recommendation is 
classified as ``Closed--Unacceptable Action.''

        A-95-58: To the FAA, develop and implement national standards 
        by 12/31/95, within 14 CFR Part 135, or equivalent regulations, 
        for all air tour operations with powered airplanes rotorcraft 
        to bring them under one set of standards with operations 
        specifications eliminate the exception currently contained in 
        14 CFR Part 135.1.

    The FAA's 2007 Commercial Air Tour final rule does require air tour 
operators under Part 91 to obtain a letter of authorization (LOA). 
However, the requirements for LOAs contained in the final rule are 
limited in their ability to subject air tour operators to requirements 
similar to operations specifications for Part 135 carriers.
    The NTSB first issued significantly similar recommendation A-87-93 
in 1987 to eliminate this exemption. It is classified as ``Closed--
Unacceptable Action/Superseded,'' as air tour crashes continued to be 
investigated and new recommendations issued.

        A-87-93: To the FAA, require all revenue air tour flights, 
        regardless of the distance flown, to be subject to the 
        regulatory provisions of 14 CFR Part 135, and not 14 CFR Part 
        91.

    In 2008, the NTSB published a Special Investigation Report on the 
Safety of Parachute Jump Operations, which found that parachute jump 
operators, many of which advertise to the public and transport 
parachutists for revenue, are allowed to maintain and service their 
aircraft under Part 91 regulatory provisions that require little FAA 
oversight and surveillance. In addition, parachute operations pilots 
are not required to undergo operation-specific initial and recurrent 
training, including preflight, weight and balance, and emergency 
procedures training, or recurrent FAA examinations in the types of 
aircraft that they operate. To address these safety issues, we issued 
multiple recommendations to the FAA.
    The FAA published revised guidance in advisory circulars (AC) 105-
2E, which provides suggestions to improve sport parachuting safety. The 
FAA also revised Order 8900.1, to include maintenance and operation 
inspections, aircraft configuration authorization, flight manual 
supplements, placards, operational waivers, pilot certification and 
training, and parachute airworthiness. In addition, the FAA revised 
Order 1800.56, ``National Flight Standards Work Program Guidelines,'' 
to include surveillance of any parachute operation aircraft under Part 
91 conducting parachute operations in accordance with Part 105. 
Aviation Safety Inspectors must choose at least one airworthiness 
inspection and one operations inspection from a list of 10 inspection 
types (for example, one maintenance spot inspection and one operations 
ramp inspection).
    We remain concerned, however, that operators of aircraft used in 
parachute jump operations are not required to develop and implement 
FAA-approved aircraft maintenance and inspection programs, as 
recommended. We also remain concerned that requirements for pilots of 
parachute operations are not consistent with those for other revenue-
based operations pilots, such as the requirements for pilots flying on-
demand operations under Part 135. The recommendations below are 
classified as ``Closed--Acceptable Action'' (CAA) and ``Closed--
Unacceptable Action'' (CUA).

        A-08-63: To the FAA, require parachute jump operators to 
        develop and implement Federal Aviation Administration-approved 
        aircraft maintenance and inspection programs that include, at a 
        minimum, requirements for compliance with engine manufacturers' 
        recommended maintenance instructions, such as service bulletins 
        and service information letters for time between overhauls and 
        component life limits. (CUA)

        A-08-64: To the FAA, develop and distribute guidance materials, 
        in conjunction with the United States Parachute Association, 
        for parachute jump operators to assist operators in 
        implementing effective aircraft inspection and maintenance 
        quality assurance programs. (CAA)

        A-08-65: To the FAA, require parachute jump operators to 
        develop initial and recurrent pilot training programs that 
        address, at a minimum, operation- and aircraft-specific weight 
        and balance calculations, preflight inspections, emergency and 
        recovery procedures, and parachutist egress procedures for each 
        type of aircraft flown. (CUA)

        A-08-66: To the FAA, require initial and recurrent pilot 
        testing programs for parachute jump operations pilots that 
        address, at a minimum, operation- and aircraft-specific weight 
        and balance calculations, preflight inspections, emergency and 
        recovery procedures, and parachutist egress procedures for each 
        type of aircraft flown, as well as competency flight checks to 
        determine pilot competence in practical skills and techniques 
        in each type of aircraft. (CUA)

        A-08-67: To the FAA, revise the guidance materials contained in 
        Advisory Circular 105 2C, Sport Parachute Jumping, to include 
        guidance for parachute jump operators in implementing effective 
        initial and recurrent pilot training and examination programs 
        that address, at a minimum, operation- and aircraft-specific 
        weight and balance calculations, preflight inspections, 
        emergency procedures, and parachutist egress procedures. (CAA)

        A-08-68: To the FAA, require direct surveillance of parachute 
        jump operators to include, at a minimum, maintenance and 
        operations inspections. (CAA)

    The NTSB also issued recommendations to address safety issues 
specific to commercial balloon operations. These were identified based 
on its investigation of a 16-fatal balloon accident on July 30, 2016 in 
Lockhart, Texas, which was operated as a Part 91 sightseeing passenger 
flight. NTSB safety recommendations A-17-34 and A-17-45 addressed a 
lack of medical oversight for commercial balloon pilots and a lack of 
targeted FAA oversight of potentially risky commercial balloon 
operations. We thank Congress for addressing the gap in medical 
certifications identified in A-17-34, which should be closed once the 
FAA issues regulations required by section 318 of the FAA 
Reauthorization Act of 2018 (Public Law 115-254). Currently, Safety 
Recommendations A-17-34 and -45 are classified ``Open--Acceptable 
Response.''

        A-17-34: To the FAA, remove the medical certification exemption 
        in 14 Code of Federal Regulations 61.23(b) for pilots who are 
        exercising their privileges as commercial balloon pilots and 
        are receiving compensation for transporting passengers.

        A-17-45: To the FAA, analyze your current policies, procedures, 
        and tools for conducting oversight of commercial balloon 
        operations in accordance with your Integrated Oversight 
        Philosophy, taking into account the findings of this accident; 
        based on this analysis, develop and implement more effective 
        ways to target oversight of the operators and operations that 
        pose the most significant safety risks to the public.

    Further, the NTSB has recommended that all Part 91, in addition to 
Part 135 and 121, operated turbine-powered aircraft be installed with 
crash-resistant flight recorder systems that include cockpit audio and 
images, if they do not already have a flight recorder.
    Since these recommendations were issued, the FAA has maintained 
that it is unable to develop the recommended requirement for recorders 
because it has been unable to develop a cost-benefit analysis (CBA) to 
justify a recorder mandate. The FAA told us that the benefits of 
recorders are difficult to identify and quantify because the absence of 
a recorder will never cause an accident.
    However, on July 20, 2017, the FAA stated it was working to develop 
a preliminary CBA associated with these safety recommendations to 
determine if pursuing rulemaking is cost beneficial. In our October 2, 
2017, letter, we told the FAA that an adequate evaluation of these 
recommendations should include reviewing safety improvements that would 
not have been identified without recorder data. The evaluation should 
also acknowledge the number of investigated accidents in which the 
probable cause included ``for unknown reasons.'' As part of our 
response, we supplied to the FAA an analysis listing accidents in the 
NTSB database from 2005 through 2017 that involved turbine-powered, 
nonexperimental, nonrestricted-category aircraft and in which flight 
crew were killed. Of the 185 accident aircraft, 159 had no form of 
recording equipment, and all 159 aircraft without recorders were 
advanced with complex systems that are typically much more difficult to 
investigate when there is a lack of information. Of the 159 accidents 
involving aircraft without recorders, 18 had probable cause 
determinations that contained ``unknown.'' Pending responsive action 
from the FAA, Safety Recommendations A-13-12 and -13 are currently 
classified ``Open--Acceptable Response.''

        A-13-12: to the FAA, require the installation of a crash-
        resistant flight recorder system on all newly manufactured 
        turbine-powered, nonexperimental, nonrestricted-category 
        aircraft that are not equipped with a flight data recorder and 
        a cockpit voice recorder and are operating under 14 Code of 
        Federal Regulations Parts 91, 121, or 135. The crash-resistant 
        flight recorder system should record cockpit audio and images 
        with a view of the cockpit environment to include as much of 
        the outside view as possible, and parametric data per aircraft 
        and system installation, all as specified in Technical Standard 
        Order C197, ``Information Collection and Monitoring Systems.''

        A-13-13: To the FAA, require all existing turbine-powered, 
        nonexperimental, nonrestricted-category aircraft that are not 
        equipped with a flight data recorder or cockpit voice recorder 
        and are operating under 14 Code of Federal Regulations Parts 
        91, 121, or 135 to be retrofitted with a crash-resistant flight 
        recorder system. The crash-resistant flight recorder system 
        should record cockpit audio and images with a view of the 
        cockpit environment to include as much of the outside view as 
        possible, and parametric data per aircraft and system 
        installation, all as specified in Technical Standard Order 
        C197, ``Information Collection and Monitoring Systems.''

Questions from Hon. Eddie Bernice Johnson for Captain Joseph G. DePete, 
         President, Air Line Pilots Association, International

    Question 1. With regards to ensuring that outsourced maintenance 
and readiness of airplanes are completed in compliance with FAA 
standards:
    a. Who is responsible for ensuring such compliance?
    Answer. Any maintenance done on a N-registered (U.S. registered) 
aircraft must be done by an FAA certificated repair station and the 
work performed must be signed off on by an FAA licensed inspector. The 
work performed does not need to be performed by an FAA licensed 
mechanic, but it must be signed off and approved by a FAA licensed 
Inspector. This is the process utilized in the United States as well.

    b. What is the process to ensure such compliance?
    Answer. The airline is the first level of compliance and the FAA 
the second and higher level of oversight to ensure compliance. FAA does 
random and scheduled inspections of the facilities as does the airline.

    c. What is the consequence for failure of compliance?
    Answer. Penalty is the loss of the FAA Certificate and License, 
fines, and loss of contracts.

    Questions from Hon. Garret Graves for Captain Joseph G. DePete, 
         President, Air Line Pilots Association, International

    Question 2. Captain DePete, voluntary safety reporting systems are 
an important component of ensuring the safety of the aviation system. 
Can you describe the all the voluntary reporting programs and data 
sharing systems currently in use here in the United States?
    Answer. Voluntary reporting systems are ``early warning systems'' 
which allow us to identify and address issues before they become 
serious incidents or accidents. There are three programs which 
illustrate the importance of these systems. The Aviation Safety Action 
Program (ASAP) is an important program at all 14 CFR Part 121 
operators. ASAP provides employee reporter and airlines with the 
necessary protections and de-identification capabilities so that pilots 
can submit safety concerns as frequently as is necessary to ensure that 
all safety issues are being shared.
    ASAP reports are evaluated by airline pilot representatives, 
airline management, and FAA inspectors. Together they decide what 
actions are needed to address the safety concern, and the actions are 
assigned to address the shortfall. (Congress made a significant 
improvement in voluntary safety reporting by requiring ASAP reports to 
be automatically accepted for evaluation, which allows action on 
possible safety threats in a more-timely manner. ALPA commends Congress 
for this action.)
    Another critically important program is FOQA--Flight Operations 
Quality Assurance. FOQA monitors data--flight parameters--from the 
aircraft and allow the airline and FAA to monitor flight operations in 
near real time and look for anything that would appear to be 
``unusual'' or out of the norm with respect to the standard, expected, 
operation of an aircraft.
    The ASAP and FOQA programs are also used to evaluate trends within 
the airline, to ensure that repeated safety events do not occur. The 
de-identified safety reports are sent to a central repository called 
Aviation Safety and Information Analysis and Sharing (ASIAS). The ASIAS 
program looks for trends and issues across the 14 CFR Part 121 airline 
industry. The extensive use of ASAP reports and FOQA data for 
individual safety improvements, improvements of the operations at the 
airline enterprise level, as well as systemic safety enhancements at 
the national level is clearly evidence of the importance of these 
voluntary safety reporting programs.

    Question 3. Why are proactive, voluntary reporting systems superior 
to mandatory reporting systems and how have they improved safety in the 
National Airspace System?
    Answer. The voluntary nature of proactive reporting systems is 
critical to ensuring that there is a foundation of trust between the 
FAA (the regulator), management (airlines) and front-line employees. 
The regulator must trust that the airline and employees are reporting 
regularly. The airlines must trust that the regulator will not impose 
sanctions on the operator for unsafe practices even when the operator 
takes the initiative to eliminate the safety risk, and the front-line 
employees must trust that the operator and the regulator will not use 
safety data reports to take certificate action or employee punitive 
steps against them. If any one of the organizations refuses to 
participate in the voluntary safety programs, they can expect the other 
parties in the program to negatively react to their actions. The three-
way arrangement of trust by all three parties ensures that all have 
more to lose by not participating, than they do by participating.
    Converting ASAP to a mandatory reporting program would invoke 
punitive actions for failure to comply with the mandatory reports and 
would likely result in employees withholding or ``watering down'' the 
safety data reporting to temper the potential negative impacts of 
submitting the safety report. It is important to remember that reports 
from ``frontline employees'' are approximately 90% sole-source reports, 
meaning that only the reporter knows of the event/issue. Without the 
trust created through these voluntary reporting programs the sole-
source reports will disappear because of fear created due to loss of 
trust. The airlines would also work to avoid submitting mandatory 
safety reports to the regulator, and the regulator would be forced to 
become much more investigatory in nature, and focus on rule infractions 
(i.e. policing) instead of focusing on the overall safety culture and 
safety mindset of the airline operation. Most if not all involved in 
ASAP believe that mandating safety reporting would be a step backwards 
in the safety risk mitigation efforts at a local and national level.

 Questions from Hon. Eddie Bernice Johnson for Lori Bassani, National 
        President, Association of Professional Flight Attendants

    Question 1. With regards to ensuring that outsourced maintenance 
and readiness of airplanes are completed in compliance with FAA 
standards:
    a. Who is responsible for ensuring such compliance?
    Answer. Compliance with FAA maintenance standards is a three-part 
responsibility falling on the FAA, the operator, and the certified 
workers on the line. The FAA is always short-handed when it comes to 
inspectors so considerable responsibility rests with the operator's on-
site quality assurance team as well as on the actual workers and the 
systems they have in place to ensure correct work is always done.
    In the case of offshore repair facilities, it is our understanding 
that the FAA conducts considerably less oversight. While this oversight 
includes an annual visit, the visit is announced in advance, giving the 
facilities time to prepare and thus limiting oversight effectiveness.

    b. What is the process to ensure such compliance?
    Answer. The system in place has worked well for domestic repair 
stations. In the U.S., the FAA is aggressive in the oversight, their 
inspections are usually unannounced, and the line workers understand 
that the oversight from the FAA and from the operator is thorough and 
intense.
    The FAA oversight of foreign repair stations is considerably less 
intense. Unannounced inspections are rare and worker certification is 
largely non-existent which puts great pressure on the operator's 
quality assurance team overseeing the work to see that it is done 
right.

    c. What is the consequence for failure of compliance?
    Answer. The aviation safety community in the U.S. relies on a 
layered approach with the involved responsible parties obligated to 
oversee their own work and to speak out when something is not right. 
The FAA oversight role could be strengthened but real attention should 
be on the proliferation of offshore repair facilities. The FAA must be 
given more resources to increase the number of inspectors for all 
offshore stations, increase the number of inspections, and make them 
unannounced.

    Questions from Hon. Eddie Bernice Johnson for Michael Perrone, 
      President, Professional Aviation Safety Specialists, AFL-CIO

    Question 1. With regards to ensuring that outsourced maintenance 
and readiness of airplanes are completed in compliance with FAA 
standards:
    a. Who is responsible for ensuring such compliance?
    Answer. While it can depend on the individual relationship of a 
company or individual with the FAA, the FAA is responsible for 
overseeing the safety of the entire aviation industry. The issue is 
that in recent years FAA aviation safety inspectors have experienced a 
dramatic shift in how they conduct oversight. Inspectors who used to 
once go out and kick the tires, conduct hands-on safety oversight and 
experienced strong relationships with the industry they oversaw are now 
essentially overseeing paperwork submitted by industry stating that 
standards set by the FAA are being met. The shift in the nature of 
oversight has led to an agency that is assessing risk but no longer 
directly oversees compliance with safety regulations while the industry 
is vouching for itself.

    b. What is the process to ensure such compliance?
    Answer. The FAA will often work with industry stakeholders to 
develop safety standards and protocols throughout the certification 
process. Aviation safety inspectors and engineers are often tasked with 
ensuring compliance with these standards. But with a growing aviation 
industry and stagnant inspector staffing over the last decade, 
oversight has largely been handed over to industry where manufacturers 
are allowed to oversee themselves and inspectors oversee hundreds of 
designees at a time.

    c. What is the consequence for failure of compliance?
    Answer. Depending on the severity of the failure, consequences 
could range from requests for corrective action to be taken, fines, 
delays bringing a product to market or revocation of certification.

     Questions from Hon. Eddie Bernice Johnson for John Samuelsen, 
         International President, Transport Workers of America

    Question 1. With regards to ensuring that outsourced maintenance 
and readiness of airplanes are completed in compliance with FAA 
standards:
    a. Who is responsible for ensuring such compliance?
    Answer. Compliance for maintaining FAA standards is generally a 
joint responsibility of the FAA, the air carrier, and the workers. In 
the U.S., this system has worked relatively well, with highly 
qualified, certified mechanics performing safety sensitive work and an 
engaged FAA physically present in all of the largest airports and 
maintenance repair facilities. Outside of the U.S., however, this 
question becomes significantly more complicated.
    At foreign repair facilities, the minimum standards for maintenance 
workers are, in most cases, non-existent. These workers are not 
required to have any FAA-certification or any familiarity with the 
aircraft they may be performing maintenance on. Additionally, the FAA 
has no regular presence at these foreign facilities. There are no 
quality controls in place from the regulator to ensure that foreign 
facilities maintain U.S. minimum standards.
    Ultimately, without real oversight from the FAA or qualified, 
certified workers at these facilities, 100% of the compliance 
responsibility has been vested in the airline itself. In many cases, 
the airline then outsources this responsibility to a contractor--
further weakening the relationship between safety standards and 
reality.

    b. What is the process to ensure such compliance?
    Answer. While, at least on paper, there is a robust system for 
ensuring compliance inside of the U.S., almost all of these processes 
break down or cease to exist at foreign facilities. In the U.S., FAA 
inspectors make frequent, unannounced inspections of maintenance 
facilities--both at overhaul bases and at airports. Certified mechanics 
who fail to maintain safety standards are at risk of losing their FAA 
credentials--potentially costing them their job, as well. Carriers who 
do not correct systemic problems can be fined or lose their 
certification.
    Outside of the U.S., the FAA does not conduct unannounced 
inspections. In fact, foreign repair facilities are subject to only one 
scheduled inspection each year. Line maintenance performed at airports 
outside of the U.S. is not subject to any FAA inspections.
    Furthermore, the vast majority of workers performing maintenance on 
aircraft outside of the U.S. have no certification--either from the FAA 
or any equivalent agency. There is no risk to these workers of losing 
their license to operate if they fail to safely maintain equipment.
    In short, the entire process of ensuring compliance with FAA 
regulations at foreign facilities is dependent on one scheduled 
inspection per year and a trust that the airlines will police 
themselves.

    c. What is the consequence for failure of compliance?
    Answer. Failure to comply with safety regulations can have dire 
consequences for the travelling public. Our safety regulations have 
often been written in blood following fatal accidents due to poor 
maintenance. The incredible safety record of the U.S. airspace over the 
past decade is a result of a century of learning from our mistakes. 
Stepping back from these regulations would open our airspace to 
significant safety threats.
    Today, our U.S. mechanics have become a last line of defense 
against these threats. Across the country, line maintenance mechanics 
are finding examples of poor and failed repair work on aircraft 
maintained abroad. Foreign repair facilities have approved aircraft to 
return to service with tape and wire holding vital engine components 
together; exit doors installed incorrectly that caused depressurization 
mid-flight; flammable paint around the engines; and secret drug-
smuggling compartments installed in the aircraft nose. Every mechanic 
that spots and corrects these maintenance failures is protecting the 
travelling public from life-threatening system failures.
    However, the airlines are clearly finding financial advantages to 
non-compliance. U.S. carriers have more than tripled the proportion of 
their maintenance performed outside of the country in the past fifteen 
years. This maintenance is being performed on a significantly lower 
safety standard without qualified mechanics or FAA quality controls. 
Day-to-day, the carriers are not facing any consequences for failing to 
live up to our national minimums. Without action by Congress, these 
airlines will continue a race to the bottom in airline maintenance that 
is exposing U.S. citizens to significant, pervasive safety risks.

                                    
</pre></body></html>
